<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 13, 2008

                               __________

                           Serial No. 110-93

                               __________

       Printed for the use of the Committee on Homeland Security

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
44-512 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     5
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida:
  Prepared Statement.............................................     8

                               Witnesses

The Honorable Michael Chertoff, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    14

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    67
Questions From Honorable Yvette D. Clarke........................    69
Questions From Honorable Lamar Smith.............................    71
Questions From Honorable Mike Rogers.............................    73


 THE PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                      Wednesday, February 13, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:12 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, 
Lofgren, Jackson Lee, Christensen, Etheridge, Langevin, 
Cuellar, Carney, Clarke, Green, Perlmutter, Pascrell, King, 
Smith, Rogers, Reichert, McCaul, Dent, Brown-Waite, Bilirakis, 
Davis, and Brown.
    Chairman Thompson [presiding]. For the sake of the 
audience, we have Ranking Member King, who is on his way. As 
soon as he arrives, we will start the hearing.
    Mr. King has sent word that we can start, because we want 
to take full advantage of the secretary's time that he is with 
the committee.
    The Committee on Homeland Security will come to order. The 
committee is meeting today to receive testimony on the 
president's fiscal year 2009 budget request for the Department 
of Homeland Security. On behalf of the committee, Mr. 
Secretary, welcome.
    Today, you will testify about the President's budget that, 
last time, as secretary of the Department of Homeland Security, 
which will officially be 5 years old on March 17, 2008 of this 
year. I thank you for your testimony and your service at the 
Department.
    In today's hearing, the committee is reviewing the 
President's fiscal year 2009 budget request for the Department, 
a budget which you state will protect the Nation from dangerous 
people and goods; protect critical infrastructure; improve 
emergency preparedness and response; and improve the operations 
and management of the Department.
    Like you, Mr. Secretary, I am committed to a homeland that 
is truly secure. That is why when I assumed the chairmanship of 
this committee last January, I unveiled my eight goals in 
charting the course toward freedom from fear. Those items are: 
improving the functionality, governance and accountability of 
the Department of Homeland Security; enhancing security for all 
modes of transportation; response, resilience and recovery in 
the wake of a national catastrophe; shielding the Nation's 
critical infrastructure from foreign and domestic terrorism; 
securing the homeland and preserving civil liberties in times 
of terror; connecting the dots, intelligence, information-
sharing, and interoperability; implementing common sense border 
and port security; and inspiring minds and developing 
technology, the future of homeland security.
    Our Nation is in a precarious state. We have an 
administration that has beaten the drums of the war on terror, 
but has failed to propose a sound budget that addresses mass 
transit and rail security concerns. This administration has 
boasted about our first responders, but now proposes to 
eliminate the SAFER grant program, cut FIRE grants by 50 
percent, zero-out the metropolitan medical response system, and 
reduce funding for the emergency management performance grant 
program by one-third.
    We have heard high rhetoric about supporting State and 
local governments, but then the President's budget shortchanges 
them by slashing the funding for the State homeland security 
grant program by 79 percent.
    That being said, not all is lost with the budget. I will 
note that there are increases proposed in the budget for 
cybersecurity and border security. However, I fear that behind 
the ``increases'' lurk more problems than answers. For example, 
I look forward to hearing from you which metrics the Department 
has to measure the budget's effectiveness at stopping 
terrorism, preparing for natural disasters, and improving the 
Nation's resiliency to man-made emergencies.
    I would also like to know what safeguards exist in the 
budget that will ensure contracts are not given away to friends 
of the administration, while small, minority and women-owned 
businesses are shut out from the competitive process.
    At the end of the day, Mr. Secretary, the committee wants a 
robust Department with a clear mission, trained personnel, and 
the necessary resources that are vital to the security of the 
homeland. The Department must complete its obligations to the 
American people by fully implementing H.R. 1, applying the 
lessons learned from Hurricane Katrina, and ensuring that the 
Department is prepared to undergo its first-ever Presidential 
transition.
    Simply put, the American people deserve a budget and a plan 
from the President that ensures that the groundwork has been 
laid for a resilient Nation.
    Mr. Secretary, I look forward to hearing how the budget for 
the Department of Homeland Security pulls together the talents 
from our diverse Nation to make clear that our American 
Government can provide the American people security, 
accountability, and most important, freedom from fear.
    With that, I look forward to your testimony on the 
Department's fiscal year 2009 budget priorities and 
justification.
    [The statement of Chairman Thompson follows:]

           Prepared Statement of Chairman Bennie G. Thompson

    In today's hearing, the committee is reviewing the President's 
fiscal year 2009 budget request for the Department of Homeland 
Security--a budget which you state will: Protect the Nation from 
dangerous people and goods; protect critical infrastructure; improve 
emergency preparedness and response; and, improve the operations and 
management of the Department.
    Like you, Mr. Secretary, I am committed to a homeland that is truly 
secure. That is why when I assumed the Chairmanship of the committee 
last January, I unveiled my 8 goals in charting the course towards 
freedom from fear. They are:
  <bullet> Improving the Functionality, Governance, and Accountability 
        of the Department of Homeland Security;
  <bullet> Enhancing Security for All Modes of Transportation;
  <bullet> Response, Resilience, and Recovery in the Wake of a National 
        Catastrophe;
  <bullet> Shielding the Nation's Critical Infrastructure from Foreign 
        and Domestic Terrorism;
  <bullet> Securing the Homeland and Preserving Civil Liberties in 
        Times of Terror;
  <bullet> Connecting the Dots: Intelligence, Information Sharing, and 
        Interoperability;
  <bullet> Implementing Common Sense Border and Port Security;
  <bullet> Inspiring Minds and Developing Technology--The Future of 
        Homeland Security.
    Our Nation is in a precarious state. We have an administration that 
has beaten the drums of the war of terror, but has failed to propose a 
sound budget that addresses mass transit and rail security concerns.
    This administration has boasted about our first responders, but now 
proposes to eliminate the SAFER Grant program, cut FIRE grants by 50%, 
zero-out the Metropolitan Medical Response System (MMRS), and reduce 
funding for the Emergency Management Performance Grant program by one-
third.
    We have heard high rhetoric about supporting State and local 
governments, but then the President's budget shortchanges them by 
slashing the funding for the State Homeland Security Grant Program by 
79%.
    That being said, not all is lost with the budget. I will note that 
there are increases proposed in the budget for cybersecurity and border 
security.
    However, I fear that behind the INCREASES--lurk more problems than 
answers.
    For example, I look forward to hearing from you which metrics the 
Department has to measure the budget's effectiveness at stopping 
terrorism, preparing for natural disasters, and improving the Nation's 
resiliency to man-made emergencies.
    I would also like to know what safeguards exist in the budget that 
will ensure contracts are not given away to friends of the 
administration while small, minority, and women-owned businesses are 
shut out from the competitive process.
    At the end of the day, Mr. Secretary, the committee wants a robust 
Department, with a clear mission, trained personnel, and the necessary 
resources that are vital to the security of the homeland.
    The Department must complete its obligation to the American people 
by fully implementing H.R. 1, applying the lessons learned from 
Hurricane Katrina, and ensuring that the Department is prepared to 
undergo its first-ever presidential transition.
    Simply put, the American people deserve a budget and a plan from 
the President that ensures that the groundwork has been laid for a 
resilient Nation.
    Mr. Secretary, I look forward to hearing how the budget for the 
Department of Homeland Security pulls together the talents from our 
diverse Nation to make clear that our government can provide the 
American people security, accountability, and most importantly, freedom 
from fear.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from New York, Mr. 
King, for an opening statement.
    Mr. King. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. It is a pleasure to see you 
here this morning.
    Let me at the outset, as you enter the final year of this 
administration, comment on the fact that during your time as 
secretary of homeland security, not only did you basically have 
to put a department together, consolidate so many different 
departments and agencies, encounter the horror of Katrina--do 
all of that, and the fact is we have not been attacked during 
that time.
    The fact is that any number of attacks have been stopped. 
The fact is that the coordination between Federal, State and 
local officials has never been better. The coordination between 
the Department of Homeland Security and overseas intelligence 
agencies has never been better. So I think it is really 
important to put that out there and acknowledge what has been 
done.
    Also, on the issue of funding, there is no doubt there were 
some severe differences in previous years, and you in effect 
inherited a system which was not working very adequately. That 
was my opinion then, and I really commend you for the fact that 
you jumped into that. You really took it on, and took personal 
control over it. Just for instance 10 days ago, I guess, when 
you were in New York is, the fact is the mass transit funding 
has tripled over the last 2 years, gone up 50 percent in the 
last year.
    This is, to me, work which is often not acknowledged. We 
get sidetracked into different issues or that issue, and it is 
easy to make headlines for criticisms. The fact is the bottom 
line is extraordinary progress is being made. More obviously 
has to be made because we have an enemy which is also 
constantly adapting. I think it is very important we put that 
out there.
    Also, for instance, when we meet with Customs and Border 
Protection you realize the job they are doing, not just on the 
border itself, but at our ports and docks, the work that they 
are doing. TSA, which really is a thankless job--it is very 
easy to take shots at what they are doing or not doing--but 
again the fact is that there has been on plane attack at all 
since September 11. The way TSA responded to the threats of the 
summer of 2006 I think speaks volumes as to what is being done.
    Having said that, I have certain criticisms with the 
budget, not at all with your leadership there. But even though 
the budget is up over last year's, it is still considerably 
below the enacted levels that Congress enacted last year. I 
will say this to the Chairman while he is here that I will work 
with him to try to increase the amount of the budget. 
Certainly, on grants, I believe the safety grants, money going 
to police, fire, mass transit, port security--all of that we 
cannot afford to be cutting back on the numbers of those.
    I am confident that if we do work in a bipartisan way, we 
can achieve that. I am not trying to bring you into that 
dispute that we are going to have here on Capitol Hill, but I 
do want to make you aware of that.
    Also, Mr. Secretary, I think one place which Congress has 
not done the job, and that is on the consolidation of 
committees and jurisdiction. I believe when the 9/11 commission 
report came out, they criticized the fact that the Department 
had to go before 88 committees and subcommittees. I think that 
has now been reduced to 86.
    Obviously, it is important that there be congressional 
oversight. I agree with the Chairman on this. Congressional 
oversight is vital. But if you and your assistants and deputies 
spend all of their time, or so much time testifying on Capitol 
Hill, that is time that you are not defending the country. 
Also, much of it is repetitious. Much of it is superfluous. It 
is overlapping. It is each committee trying to get a piece of 
it, trying to keep their jurisdiction, and it really is 
counterproductive for the homeland security of this country.
    I would hope we can make more efforts, again whether it is 
Democrat or Republican leadership, if we can find a way to do a 
much better job of consolidating the whole issue of 
jurisdiction.
    Also, this is an issue which I have mentioned to the 
Chairman before, I know he has indicated he is not certain that 
there is going to be an authorization bill this year. I would 
just ask him to do all that he can sometime during this year to 
get that authorization bill. I think it is important for the 
Department. I think it is important for the entire issue of 
homeland security. But it is also important for us as a 
committee to establish our bona fides as the prime committee 
dealing with homeland security.
    Whether or not the Senate does should not be the issue. We 
did an authorization bill in 2005 and 2006, and in 2007 under 
Chairman Thompson's leadership last year. The bill went through 
in a very bipartisan way. We worked together on it. I think 
that was good for the country, good for both parties, good for 
the Department of Homeland Security, and good for the Congress. 
So Mr. Chairman, again I would implore you to try to find a way 
to get an authorization bill done so we can fulfill our 
responsibility.
    With that, Mr. Secretary, I thank you for your service and 
look forward to your testimony.
    Chairman Thompson. Thank you very much, Mr. King. I assure 
you we are working on the authorization suggestion that you 
made. It might be a series, but we will try to establish a 
procedure where I think we both can work cooperatively on. I 
look forward to doing that with you.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statements of Hon. Jackson Lee and Hon. Brown-Waite 
follow:]

             Prepared Statement of Hon. Sheila Jackson Lee
                           February 13, 2008

    After the events of September 11, 2001 the American people became 
painfully aware of the difference between feeling secure and actually 
being secure. As we examine the DHS's fiscal year 2009 budget, we must 
take decisive steps to ensure that adequate funds are available so that 
the trust that the American people have placed in our hands is fully 
protected and guarded and that we take strategic steps to ensure their 
future safety from terrorist attacks.
    The President has a fiscal year 2009 budget request of $50.5 
billion for the Department of Homeland Security, excluding emergency 
funding, a 7 percent increase over the enacted fiscal year 2008 level. 
I am concerned that the President's proposed budget will not be 
sufficient to secure our Homeland in an efficient way.
    As the Chair of the Subcommittee on Transportation Security and 
Infrastructure Protection, I have a number of concerns with the 
President's proposed budget as it relates to issues within the 
subcommittee's jurisdiction:

    SURFACE TRANSPORTATION SECURITY (MASS TRANSIT AND RAIL SECURITY)

    The proposed budget request for the Transportation Security 
Administration's surface transportation program is $37 million--a 
decrease of nearly $10 million that was appropriated by Congress for 
2008. The request also calls for a decrease in surface transportation 
security inspectors 138 in 2008 to 96 requested for 2009. This is the 
result of a so-called realignment but is counter to congressional 
mandates. In the 9/11 bill we require an increase in surface 
transportation inspectors, not a decrease.
    This is unacceptable. We cannot continue to remain solely focused 
on protecting against the last terrorist attack. Millions of people who 
live in America's cities use these modes of transportation everyday. 
Worldwide, there has been much success in attacking rail and mass 
transit, with deadly consequences. This is a persistent threat. The 
administration's proposal for a decrease in mass and rail funding 
demonstrates the failure to prioritize surface transportation as a 
security issue or to learn from the mass transit and rail bombings of 
Madrid, London, and Mumbai.

                 CRITICAL TRANSPORTATION INFRASTRUCTURE

    The administration's proposed budget for the Targeted 
Infrastructure Capability Grants Program (port, mass transit, bus, and 
trucking) proposes drastic cuts in rail mass transit, trucking, and 
port security funding. The enacted funding for rail and mass transit 
was $400 million, while the president only requests $175 million. The 
administration requests $8 million for trucking security, cutting last 
year's funding in half.
    Also, the administration's proposed budget for port security 
grants, at $210 million, is nearly half of the $400 million enacted for 
2008. It is disappointing that the administration is not more forward 
leaning in protecting critical transportation infrastructure that is 
very vulnerable to attack. Shortchanging surface transportation and 
ports for security dollars may have dire consequences to the economy 
and in loss of life if terrorists decide to attack these modes.

 TRANSPORTATION SECURITY ADMINISTRATION (TSA) BUDGET FISCAL YEAR 2009 
                                REQUEST

    The budget request for the Transportation Security Administration 
(TSA) provides for an initial increase of $286.5 million over the 
fiscal year 2008 enacted amount. The President's request, in some 
cases, adequately addresses the mandates in the 9/11 Act; however, we 
are looking closely at the decrease in requested funds of certain 
programs that may help the administration meet homeland security 
goals--particularly those programs directly aligned to the mandates 
within the 9/11 Act.
    With respect to the Transportation Threat Assessment and 
Credentialing office, the budget requests a mere $1,528,000 over the 
fiscal year 2008 enacted amount. With respect to Transportation 
Security Support, the President's budget increases this amount by 
$402,485,000; however, the proposal reflects a decrease in the number 
of Full Time Employees (FTEs). This is the second consecutive year that 
the President cuts funding for this office. We are also concerned about 
the ``mandatory proposal for a temporary 4-year surcharge to the 
Passenger Security Fee.'' We need further clarification and 
justification for the need to support additional taxes on air 
passengers.
    In general, Aviation Security reflects a growth in FTEs of up to 
800. This is a good thing, since it outlooks new job opportunities in 
the field. Additionally, we commend the President for requesting $43 
million for the deployment of the Behavioral Detection Officers, a 
popular TSA Initiative among our committee Members. As well as 
continuing to strengthen the Canine Explosive Detection Program.

 NATIONAL PROTECTION AND PROGRAMS DIRECTORATE (NPPD); RISK MANAGEMENT 
   AND ANALYSIS (RMA), NPPD; CFIUS, OFFICE OF POLICY, OFFICE OF THE 
   SECRETARY AND EXECUTIVE MANAGEMENT; INFRASTRUCTURE PROTECTION AND 
                      INFORMATION SECURITY (IPIS)

    The Department's Budget-in-Brief says that there is an $186,470,000 
increase for Infrastructure Protection and Information Security from 
the enacted fiscal year 2008 budget $654,730,000 and fiscal year 2009 
$841,200,000. Regrettably, the proposed funding for ``infrastructure 
protection'' drops $3,179. Critical infrastructure, if compromised, 
would negatively affect the economy, government, and morale of the 
United States. Due to the committee's increased oversight of this issue 
area during this Congress, it is plainly clear to the committee that 
this is no time to lessen our commitment to infrastructure protection 
given the threats to our Nation from human-made and natural disasters.
    The foundation for Infrastructure Protection in the United States 
is the National Infrastructure Protection Plan (NIPP). This plan 
supports the voluntary partnership between Government and industry via 
the 17 Critical Infrastructure/Key Resources (CIKR) sectors. Because 
this plan is the prism by which the Department measures performance of 
measures taken to protect critical infrastructure, the $14,116,000 cut 
in resources for NIPP Program Management is baffling. The budget 
justification notes that the mission area regards the ``status of risk 
management efforts performed under the NIPP, and the progress made in 
managing risk to the Nation's CIKR from terrorist attacks and other 
hazards . . . to support development of the National and Sector CIKR 
Protection Annual Reports.'' This cut in funding will make the 
execution of this objective nearly impossible, thus prohibiting the 
Department from adequately monitoring which measures work to protect 
infrastructure and how to effectively buy down risk.
    Sector-Specific Agencies (SSAs) are the Government departments and 
agencies responsible for partnering with the private sector to 
implement the NIPP. Because the NIPP is in the implementation stage and 
still acquiring stakeholders, the nearly identical investment from the 
enacted fiscal year 2008 budget $19,519,000 and the fiscal year 2009 
request $20,443,000 for the five SSAs that the Department controls is 
inexcusable. They have done fairly little in terms of robust 
implementation, scorekeeping, and revision. The biggest concern 
however, is that the budget does not say how much money the other 
departments and agencies under the NIPP are investing in compliance 
with the Plan. Until those figures are made available, it will be 
nearly impossible for Congress to gauge the cooperation that the 
Department is acquiring from the relevant departments and agencies. If 
the NIPP is coordinated by the Department, then the budget 
justification should make note of the resource allocations by the other 
departments and agencies.
    The Homeland Infrastructure Threat and Risk Analysis Center 
(HITRAC) allows IP to ``provide Department decision-makers and external 
customers with immediate, actionable analysis and recommendations to 
manage risk.'' The effective management of risk would enable the 
Department to discern how resources should best be allocated and 
provide rational, justifiable budget recommendations. The acquisition 
of reliable data to ``buy down'' risk to tolerable levels would provide 
a clear roadmap ahead for the Department, especially in the area of 
Infrastructure Protection. The budget request does not provide clear 
numbers in terms of funding for risk analysis, but the committee has 
been made aware that the number is around $2,000,000, which is 
staggeringly low. The $1,551 increase for HITRAC is inadequate and will 
not provide for thorough risk analysis. Monies should be taken from the 
Risk Management and Analysis Office (RMAO) and be applied to HITRAC for 
the purposes of risk assessment and analysis.
    There is a $63,000,000 request for chemical site security, which is 
an increase of $48,000,000 over the fiscal year 2008 request and 
$13,000,000 million over the fiscal year 2008 enacted amount. The 
funding is needed for the Department to carry out the Chemical Facility 
Anti-Terrorism Standards (CFATS) program, which regulates the security 
practices at the Nation's high-risk chemical facilities.
    The Protective Security Advisors (PSAs) are the link between the 
Department and all levels of government as well as the private sector. 
The budget calls for a $565,000 increase from fiscal year 2008 enacted 
figures of $13,190,000. Although it is laudable that ``this enhancement 
will place PSAs in the 10 States that currently do not have PSAs,'' the 
budget is unclear about the number of PSAs per State. The committee has 
been told on numerous occasions that the PSAs are spread too thin and, 
as a result, their coordinating function is not as maximized as it 
should be. The Department needs to be clear about how close it is to 
placing at least one PSA in each State in order to help the States 
effectively protect critical infrastructure.

               RISK MANAGEMENT AND ANALYSIS OFFICE (RMAO)

    The budget requests an increase for RMAO in fiscal year 2009 to 
$9,500,000 from fiscal year 2008 $9,412,000. The committee has begun to 
do extensive oversight of this office including its overall mission, 
partnerships with relevant stakeholders, and whether it needs the 
resources provided to it to coordinate the development of a common risk 
framework. The committee is concerned that some of its activities 
appear to stray away from its central mission. Because of the lacking 
risk analysis funding of HITRAC, it may be necessary for a large 
portion of these monies designated for RMAO to be allocated for HITRAC 
so real, tangible results can be delivered in terms of risk management. 
RMAO has been operational since April 2007, and to date has failed to 
list which methodologies it is studying. After repeated requests, it 
still has not provided to the committee a list of the contracts it has 
not awarded. The NPPD appendix to the budget states, ``of the total 
amount provided under this heading, $5,000,000 shall not be obligated 
until the Committees on Appropriations of the Senate and the House of 
Representatives receive and approve an expenditure plan by program, 
project, and activity.'' The committee is exploring whether the 
withholding of these funds should be targeted at RMAO until it more 
effectively justifies its mission and the steps it is taking to 
accomplish it.

      COMMITTEE ON FOREIGN INVESTMENT IN THE UNITED STATES (CFIUS)

    The budget request for the Office of Policy within the Office of 
Secretary and Executive Management does not even make mention of CFIUS. 
Not 2 years after the debacle involving Dubai Ports World--and the 
legislation reforming CFIUS signed into law in 2007 (H.R. 556, Foreign 
Investment and National Security Act of 2007)--the budget in brief only 
states that, among other activities, a $1,600,000 increase in the 
Office of Policy will ``support [the] Committee on Foreign Investment 
in the United States.'' Because this committee has exercised a great 
deal of oversight over the Department regarding CFIUS, the lack of 
acknowledgement with regard to CFIUS is troubling. It is clear that the 
officials who work on CFIUS matters for the Department are overburdened 
with work and that the office is understaffed. With an ongoing surge in 
CFIUS applications, this lack of resources puts our national and 
homeland security in jeopardy because applications will not be able to 
be thoroughly vetted in the legislatively prescribed time. The 
Department needs to articulate its resource allocations for CFIUS 
matters more thoroughly.
    I eagerly look forward to Secretary Chertoff's testimony and 
discussion today of these issues.
                                 ______
                                 
              Prepared Statement of Hon. Ginny Brown-Waite
                           February 13, 2008

    Thank you Chairman Thompson and Ranking Member King for holding 
this hearing today, and thank you Secretary Chertoff for appearing 
before us to discuss the President's fiscal year 2009 budget request.
    Secretary Chertoff, you have guided the Department of Homeland 
Security through extremely challenging times while shaping its 
identity. I applaud your steadfast efforts to keep Americans safe from 
the numerous and ever-changing threats we face.
    While many elements of the President's budget request must be 
addressed today, I will only focus on a few. Regarding the critical 
issues of illegal immigration and border security, I was pleased by the 
decision to increase funding for CBP and ICE. Ensuring that adequate 
manpower and resources are available to enforce America's immigration 
laws is a critical, but basic, step in the right direction. I hope that 
this funding allocation signals a broader intent to strengthen efforts 
to confront illegal immigrants and those businesses and cities that 
provide them sanctuary.
    However, I am outraged by the status of the southwestern border 
fence, and baffled by the administration's lack of urgency in 
completing this project. After the omnibus appropriations bill for 
fiscal year 2008 weakened critical provisions of fence construction, 
this Nation cannot afford to gamble further with our security by 
holding back funding for the fence. The 2009 budget must provide any 
and all resources necessary to complete this project as soon as 
possible. Congress will never adequately address the growing challenge 
of illegal immigration and potential terrorism unless we seal our 
porous borders. Failure to do so is simply not an option.
    Additionally, we must remain vigilant in protecting our Nation's 
transportation system. Most striking are the glaring weaknesses in the 
security of our airports. These shortcomings cannot continue to be 
ignored. DHS took a positive step when TSA recently announced a program 
to test the effectiveness of airport employee screening at a handful of 
sites. However, this program is far less comprehensive than the program 
Ms. Lowey and I recently passed through the House. I worry that the TSA 
program does not go far enough to test employee screening thoroughly. 
As the budget process continues, the Department must receive the 
funding necessary to measure the effectiveness of full, 100 percent 
airport employee screening.
    Finally, I know I am echoing the sentiments of some of my 
colleagues, but the cuts in funding to State and local homeland 
security grants are alarming. Local first responders are on the front 
lines when emergencies occur, they are the individuals we depend on 
everyday when lives are on the line, and accordingly we cannot leave 
them without the resources they need to fulfill their considerable 
duties. I am confident that Congress will ensure that essential grants 
do not fall by the wayside in the fiscal year 2009 budget.
    As the Department of Homeland Security continues to evolve and 
improve, I look forward to working with you, Secretary Chertoff, to 
secure our borders, enforce our laws, and keep America safe.
    Thank you.

    Chairman Thompson. Again, I welcome our witness today. When 
he was confirmed in 2005, Secretary Michael Chertoff became the 
second person to serve as the head of the Department of 
Homeland Security. Prior to his confirmation, Mr. Chertoff 
served as a United States Circuit Judge for the Third Circuit 
Court of Appeals. Prior to that, he served as an assistant 
attorney general at the Department of Justice, where he was 
instrumental in helping to trace the September 11 terrorist 
attacks to the Al Qaeda network. He has served in a number of 
other public service positions.
    Mr. Chertoff, I thank you for your service. I appreciate 
your agreeing to testify here today. Without objection, the 
witness's full statement will be inserted into the record.
    Secretary Chertoff. I now recognize you to summarize your 
statement for 5 minutes if you can. If not, we will be more 
than generous. Thank you very much.

    STATEMENT OF MICHAEL CHERTOFF, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Chertoff. Thank you very much, Mr. Chairman and 
Congressman King.
    It is a pleasure to appear here. I believe this is my 
fourth budget hearing. We are also 2 days away from my third 
anniversary of being sworn in. As you observed, it is the fifth 
anniversary of the Department that is looming on the horizon in 
March.
    I think we have a widespread agreement between members of 
my Department and this committee on the fact that we need a 
robust, effective Homeland Security Department that deals with 
all hazards, and does so in a way that is a responsible steward 
of the public risk, but also recognizes the need to adapt to 
new challenges. Because as Representative King said, the enemy 
is not static. It is dynamic, and we have to continue to adapt.
    I believe that the budget that we propose for 2009 is sound 
and fiscally responsible. It advances the Department's most 
critical priorities, focuses resources on the greatest risks, 
and gives our 208,000 employees the tools they need to continue 
to protect the American people.
    Like any budget, it reflects tough choices. There are many 
things one could spend money on in the area of homeland 
security as to which one can make a reasonable case. But like 
everybody else who deals with a budget on the Federal level or 
on the State and local level, the pie is only so large and 
whenever you want to enlarge one slice of the pie, you have to 
ask what slice you are going to diminish. I think we have 
balanced here in a way that maximizes our capacity to contend 
with the real risks that are out there.
    In all, we are requesting $50.5 billion in total funding 
for fiscal year 2009. That reflects a 6.8 percent increase, 
about $3.2 billion, over the previous year's enacted budget, 
that is 2008, without emergency appropriations. That is a 62 
percent increase since our creation nearly 5 years ago.
    Let me take a moment to just tell you what the threat 
picture is now, as compared to what it was about 1 year ago 
when I testified in connection with the 2008 budget. As I have 
said repeatedly over the last year, in some respects the 
strategic picture with respect to Al Qaeda has indicated that 
there is some enhanced strategic threat. I am not suggesting, 
again, that there is an imminent specific threat, but the 
strategic picture suggests a somewhat increased capability on 
the part of Al Qaeda.
    As has been described in the unclassified NIE and in a lot 
of public testimony, a good deal of this reflects efforts by Al 
Qaeda in certain areas of South Asia to be able to plan, 
recruit and train, particularly with an eye to training 
operatives who might function in Europe and in the United 
States. I have also previously expressed and reiterate my 
concern that Europe could be a target, as well as a platform 
for attacks.
    These predictions have been borne out by the facts over the 
last year. Last summer at the beginning of the summer we saw 
aborted efforts to carry out attacks in London and in Glasgow. 
A serious plot in Germany by Islamic Jihad Union was disrupted 
by the German authorities. In the last month, we have seen 
major arrests in Spain. Just yesterday, or today, the newspaper 
reported three arrests in Denmark in connection with 
allegations that extremists were going to kill a cartoonist who 
was responsible for some controversial cartoons.
    All of these aborted or disrupted plots indicate the intent 
and the capability remains. It is a credit to a lot of the 
progress our allies have made overseas. I would say that the 
happy fact that we have not successfully been attacked in this 
country reflects in large part credit to all of the agencies 
that have taken action against terror, both those who have done 
so overseas and those who have done so domestically.
    Today, what I would like to do is highlight just a few of 
the key elements of the budget across our five major goals, 
which are protecting the Nation from dangerous people, 
protecting it from dangerous goods, protecting our critical 
infrastructure, boosting our emergency preparedness and 
response, and strengthening our management and operations.
    Let us talk about the border. First, let us talk about the 
space between the ports of energy. We have as of the beginning 
of this month built a total of about 294 miles of fencing, both 
pedestrian and vehicle fencing, along our southwestern border. 
We have about 15,200 Border Patrol agents who are currently 
sworn on-duty, which puts us on track to meeting our goal of 
exceeding 18,000, doubling the number of Border Patrol agents 
by the end of this year.
    You will recall that about 1\1/2\ years ago, we ended 
catch-and-release at the border. We have sustained ending 
catch-and-release ever since then. We have seen some positive 
metrics that indicate success at the border. Apprehensions were 
down 20 percent-plus in fiscal year 2007. Remittances are down. 
Information that we have from activity south of the border 
indicates that there is a decrease in some of the 
infrastructure that supports smuggling.
    I am also informed that the cost of smuggling has gone up. 
The price that has to be paid to coyotes has increased. These 
are not indications that we have solved the problem, but they 
are indications that we are on the way to solving the problem. 
If we continue what we are doing--and this budget does continue 
that--we will be a long way down the road of living up to our 
commitment to the American people to secure the border after 
what has been practically 30 years of not doing so.
    For fiscal year 2009, we are requesting $3.5 billion--that 
is a plus-up of about $500 million--for the Border Patrol. That 
additional money will allow us to hire, train and equip 2,200 
new Border Patrol agents in 2009, so that by the end of fiscal 
year 2009 we will have more than 20,000 Border Patrol agents.
    We are requesting an additional $775 million to continue 
our efforts to develop and deploy technology, tactical 
infrastructure, including fencing at the border, to prevent 
incursions and to give the Border Patrol the leverage that they 
need so they can effectively apprehend people who are coming 
illegally.
    We recognize as well that the economic draw that brings 
people across the border has to be tackled at the interior. In 
fiscal year 2007, ICE broke records with 863 criminal arrests, 
including 750 indictments and 561 convictions as a result of 
worksite enforcement operations. About 92 of the people who 
were charged were in the employer-supervisory chain and 771 
were employees.
    To continue to move forward in the interior enforcement 
area, we are requesting $1.8 billion. That is over $250 million 
increase to help ICE expand detention beds for a total of 
33,000 beds. This is a 78 percent increase from where we were 
just 4 years ago.
    In all, we are requesting $3 billion for ICE interior 
enforcement-related activities, including fugitive operations, 
the criminal alien program which removes illegal aliens from 
prison systems so they don't get released back into the 
community when they serve their sentences, supporting State and 
local government anti-dine initiatives and worksite 
enforcement.
    Finally, we are requesting $100 million--that is an 
increase of $40 million--for our E-Verify system, which gives 
employers an automated system to run employment authorization 
checks against DHS and Social Security databases. We have 
dramatically increased the number of employers who are 
voluntarily using this system. It is now up to 53,000. I think 
we are adding them at a significant rate.
    It is important, by the way, that Congress reauthorize the 
program because the program's authority runs out at the end of 
this year. There is a great deal of demand for the program. It 
helps employers. It helps us enforce the law, and we want to 
continue to build on it.
    The next challenge, of course, is protecting our Nation 
from dangerous goods. As of the end of the last calendar year, 
we are scanning virtually 100 percent of containers coming in 
at the southern border and at our seaports. That is a dramatic 
increase from where we were several years ago when the number 
was about zero. We are at about 91 percent at the northern 
border, and at the end of this year we expect to be at close to 
100 percent there as well. That is a big step forward in 
protecting against weapons of mass destruction.
    Our container security initiative has been expanded to 58 
foreign ports. In response to the 9/11 bill which passed last 
year, we have begun 100 percent radiation scanning at three 
pilot ports. That was part of the mandate of Congress. Those 
ports are Pakistan, Honduras, and Britain. We have agreements 
with four more countries to move forward with that overseas 
scanning this year.
    Finally, our domestic nuclear detection office, we are 
requesting $157 million so that we can continue to support the 
deployment of the radiation portal monitors, and to go forward 
and see what we can do to deploy the next generation.
    Protecting critical infrastructure, we have released our 
chemical security final rule. We have completed the national 
infrastructure protection plan. We have completed the 17 
sector-specific plans. We have established an Office of Bombing 
Prevention to share information about bombing challenges and 
response techniques with first responders all across the 
country. We have added additional layers of security to 
aviation.
    Among the things I would highlight, we are requesting $1.3 
billion--that is an increase of over $350 million--for 
Department-wide efforts to counter improvised explosive device 
threats. This includes more than $1 billion for TSA explosive 
detection technology, $50 million for science and technology 
development, $30 million for training transportation security 
officers, and $9 million for the Office of Bombing Prevention.
    We are requesting an increase of $15 million, for a total 
of $45 million, for behavior detection officers who are trained 
to look at behavior as a way of identifying people who are 
potentially threats to our aircraft. We are requesting $30 
million--an increase of $10 million--for our 10 VIPR teams, 
which are visible intermodal protection and response teams. 
These are teams with dogs that we put into our mass transit 
facilities, into our airports, on the ground both on a random 
basis and a surge basis, to increase the visible protection of 
our mass transit systems.
    Finally, as you noted, Mr. Chairman, we are requesting an 
$83 million increase, to a total of $293 million, to further 
deploy our EINSTEIN system against cyber-threats and 
intrusions, and as part of a national cybersecurity initiative 
which we are in the process of rolling out.
    Let me touch briefly on two other critical elements. First, 
building an effective emergency response system. We have 
continued to implement what we learned from Hurricanes Katrina 
and Rita. We released our national response framework earlier 
this year. It was widely applauded by those in the emergency 
management community and in the law enforcement community. 
Frankly, the leaders of these groups stood behind me when we 
unveiled the national response framework.
    We have strengthened and professionalized FEMA leadership 
and capabilities, and we are requesting $164.5 million--that is 
a $64 million increase--for FEMA Vision initiatives, which 
among other things converts what used to be temporary workers 
into permanent workers, so that we have a cadre of trained and 
experienced disaster management officials who can go out into 
the field and actually work when we have emergencies, and we 
can build temporary workers around them so that we really have 
people who know what they are doing when we have a crisis. That 
is something that was a very clear lesson from Hurricane 
Katrina.
    I might say that if I look at the responses that we had to 
the wildfires, tornadoes and floods of last year, I think 
almost uniformly we got praise for FEMA's much more efficient, 
rapid and customer-friendly response to these disasters.
    With respect to grants, we are requesting the levels we 
requested last year in all the major categories. I understand 
Congress almost invariably enacts more money in grants. I am 
quite sure I will have an opportunity to discuss this. We have 
set levels that we think over time goes to the right degree of 
preparedness. We are seeking to sustain those levels.
    You could make the case that you can spend more, but again 
I have to go back to that pie. If you are going to add money to 
a slice of grants to State and local government, you are going 
to take it out of something else in our Department. Frankly, 
there are some missions that only we can do. If we don't do 
them, nobody else is going to do them. So I think we have tough 
decisions to make, and I am prepared to address them further.
    Finally, although not glamorous, there is the very 
important work of allowing the Department to become a fully 
mature, well-managed department in terms of its institutional 
capabilities. We are requesting $120 million for the DHS 
headquarters project. This is the only major area in which we 
were disappointed in the 2008 omnibus appropriations, when we 
didn't get any money for this.
    It may seem that bricks and mortar don't add value, but I 
can tell you in terms of morale, in terms of capability of 
managing, in terms of being able to put into place the very 
things which assure that we are responsible stewards of the 
public purse, having an ability to bring people together and 
work efficiently is critical in order to get the job done. I 
hope we can get the money for that this year.
    Finally, I want to say, Mr. Chairman, I am very focused on 
your to-do list which you presented to me last year, about 
things you were particularly concerned about. I think we have 
either completed these identified tasks, or we are on track to 
meet the scheduled requirement of completion.
    Vacancies. We have added 113 executive positions this past 
calendar year. Our vacancy rate is now about 10 percent, 
putting to one side the 40 new SES allocations which we just 
received about 2 months ago. So I think we are at or better 
than the mark of most departments.
    With respect to continuous security standards, we published 
a request for information on December 12, and we have received 
10 responses. As I indicated, we are issuing the national 
response framework. With respect to the transportation worker 
identity credential, enrollments began on October 16 in 
Delaware. We have had more than 148,000 pre-enrollments, more 
than 78,000 enrollments, more than 30,000 cards printed, and 
more than 16,000 activated.
    On explosives detection, we sent our interim passenger 
security strategic plan to Congress in October, and expect to 
produce the final plan as required by law in June. Finally on 
our critical border security initiatives, we expect to publish 
a proposed rulemaking soon that will require the transportation 
industry to deploy biometric US-VISIT exit procedures at 
airports and seaports by the end of 2008. This is a very 
important initiative.
    I am going to tell you, there is going to be push-back by 
the industry, but we are going to be resolute in pushing ahead 
with an initiative which is long overdue, and is important also 
as part of the President's commitment to the visa waiver 
program.
    We have also conditionally accepted P-28, and we are now 
reviewing it in terms of final acceptance. I am prepared to 
talk about that as well.
    Finally, Mr. Chairman, I want to thank you again for your 
support. I want to echo what Representative King said. We 
welcome oversight. On oversight, we have engaged I think 
frequently, both formally and informally, with the committee, 
as well as with your counterparts in the Senate and the 
appropriators. What would be helpful to us, though, is to have 
a reasonable number of oversight committees.
    The difficulty with many committees is not merely the 
duplication of effort, but the fact that we are get conflicting 
signals. This committee, as far as the House is concerned, and 
the Appropriations Committee, are the two committees that are 
best situated to have an overall picture of what it is we do 
and what we have to accomplish. Both for me and whoever my 
successor is, it will help us enormously if we can rationalize 
this process.
    Thank you very much.
    [The statement of Secretary Chertoff follows:]

                 Prepared Statement of Michael Chertoff
                           February 13, 2008

    Mr. Chairman, Congressman King, and Members of the committee, let 
me begin by saying thank you for the strong support you have 
consistently shown the Department, and I look forward to working with 
you to make certain that we make the most effective and efficient use 
of our resources and capabilities to protect the homeland and the 
American people. While we have had many successes, there are numerous 
challenges that still remain. I am here today to ask for your 
partnership and support as we face these challenges. We may not see eye 
to eye on all issues, but we certainly agree that our interests are 
best served when we work together to achieve our common goal of 
securing this great Nation.
    I am pleased to appear before the committee today to highlight some 
of our key accomplishments of the last year and to present President 
Bush's fiscal year 2009 budget request for the Department of Homeland 
Security (DHS).
    This year, as DHS embarks on our fifth-year anniversary, we 
continue to protect the Nation from dangerous people and goods; to 
protect critical infrastructure; to build a nimble, effective emergency 
response system and a culture of preparedness; and to strengthen the 
Department's operations and management. The Department has made 
tremendous progress in achieving effective control of the border, 
screening passengers, protecting critical infrastructure, responding to 
emergencies, and enforcing our immigration laws. In fiscal year 2007, 
we invested significant time and effort to implement the requirements 
of the Post-Katrina Emergency Management Reform Act, to focus our 
efforts on the greatest risks, to be nimble in our response to changing 
threats, and to be disciplined in our use of resources as we build a 
Department ready to meet future challenges seamlessly with State and 
local leadership, first responders, the private sector, our 
international partners, and most certainly, the public.
    It is no accident that we have not suffered a major terrorist 
attack on U.S. soil since September 11, 2001. It is the result of the 
President's leadership, the support of Congress, and the hard work and 
constant vigilance of hundreds of thousands of men and women--including 
the employees at DHS--who are working tirelessly both at home and 
overseas to protect our country. Under the President's leadership, the 
Department will continue to effectively carry out its critical mission 
and will leave a strong foundation for the future.

                    FISCAL YEAR 2009 BUDGET REQUEST

    Six years after September 11, 2001, we are moving beyond operating 
as an organization in transition to a Department diligently working to 
protect our borders and critical infrastructure, prevent dangerous 
people and goods from entering our country, and recover from natural 
disasters effectively. The total fiscal year 2009 budget request for 
DHS is $50.5 billion in funding, a 7 percent increase over the fiscal 
year 2008 enacted level excluding emergency funding. The Department's 
fiscal year 2009 gross discretionary budget request is $40.7 billion, 
an increase of 8 percent over the fiscal year 2008 enacted level 
excluding emergency funding. Gross discretionary funding does not 
include mandatory funding such as the Coast Guard's retirement pay 
accounts and fees paid for immigration benefits. The Department's 
fiscal year 2009 net discretionary budget request is $37.6 billion, 
which does not include fee collections such as funding for the Federal 
Protective Service and aviation security passenger and carrier fees.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In pursuit of the five priorities we established in 2007, the 
Department continues to efficiently align resources to lead a unified 
national effort in securing America. Those five priorities are:
  <bullet> Goal 1. Protect our Nation from Dangerous People;
  <bullet> Goal 2. Protect our Nation from Dangerous Goods;
  <bullet> Goal 3. Protect Critical Infrastructure;
  <bullet> Goal 4. Build a Nimble, Effective Emergency Response System 
        and a Culture of Preparedness;
  <bullet> Goal 5. Strengthen and Unify DHS Operations and Management.
    We have made great progress in each of these areas, and with the 
fiscal year 2009 budget, we will continue that momentum. Let me 
highlight some of our key accomplishments along with initiatives and 
ongoing programs in our fiscal year 2009 budget request.

            GOAL 1: PROTECT OUR NATION FROM DANGEROUS PEOPLE

    We will continue to protect our Nation from dangerous people by 
strengthening our border security efforts and continuing our efforts to 
gain effective control of our borders. The Department's main priority 
is to prevent additional terrorist attacks against our country. DHS has 
worked to prevent the entry of terrorists while facilitating the 
legitimate flow of people.
Key Accomplishments
  <bullet> More Fencing at the Border.--By the end of calendar year 
        2007, 287 miles of pedestrian and vehicular fencing was in 
        place at the border. By the end of 2008, U.S. Customs and 
        Border Protection (CBP) will have constructed a total of 670 
        miles of fencing, which will include roughly 370 miles of 
        pedestrian fencing and 300 miles of vehicular fencing. CBP also 
        took conditional possession of the prototype Project 28 
        development of nine towers equipped with radar and 
        communications systems and automated ground sensors linked to a 
        command and control center and border patrol vehicles. A new 
        task order was issued to design, develop and test upgraded 
        Common Operating Picture software for the systems.
  <bullet> Increased Air and Marine Support.--CBP opened its fourth new 
        air branch in North Dakota this past September and is on track 
        to begin operations at the last northern border air branch in 
        Michigan this spring. Delivery of a fourth DHS Unmanned 
        Aircraft System (UAS) will enable the Department to operate 
        three UASs along the southwest border and to deploy one UAS to 
        the northern border this spring. The fiscal year 2009 request 
        supports the hiring and training of 24 new UAS pilots and the 
        establishment of a joint CBP/U.S. Coast Guard (USCG) UAS 
        program office for the development of a maritime variant of the 
        Predator B. It also supports the continuation of an aggressive 
        service life extension program for the Department's P-3 
        maritime patrol aircraft that are so critical to intercepting 
        drug traffic in the Caribbean and eastern Pacific and 
        countering the increasing threat posed by the cartels' use of 
        semi-submersible vessels.
  <bullet> Secure Documentation Standards.--Compliance with secure 
        identification requirements for air travel under the Western 
        Hemisphere Travel Initiative (WHTI) has exceeded 99 percent 
        since implementation in January 2007. A Notice of Proposed 
        Rulemaking for WHTI land and sea requirements was issued in 
        June 2007 and final rule implementation is expected in June 
        2009.
  <bullet> Enhanced Driver's Licenses.--The Department signed 
        agreements with the States of Washington, Vermont, New York, 
        and Arizona to enhance the security of their State driver's 
        licenses and to potentially satisfy REAL ID requirements or 
        serve as alternatives for entry at land and sea borders.
  <bullet> Better Biometrics.--Ten-fingerprint collection from 
        international visitors has been deployed by CBP at nine ports 
        of entry, and will be implemented at 278 other ports of entry 
        by the end of 2008. This upgrade from two- to ten-fingerprint 
        collection will enhance security and fingerprint matching 
        accuracy, improving the ability to compare visitors' 
        fingerprints against latent fingerprints collected from known 
        and unknown terrorists around the world. US-VISIT, the Science 
        and Technology Directorate (S&T) and the Coast Guard have 
        partnered on a pilot fingerprint collection at sea program near 
        Puerto Rico, resulting in 114 prosecutions and a 53 percent 
        reduction in migrant flow. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> Record-Breaking Law Enforcement.--U.S. Immigration and 
        Customs Enforcement (ICE) removed roughly 240,000 illegal 
        aliens, and made 863 criminal arrests and fined or seized more 
        than $30 million following worksite investigations. Its Border 
        Enforcement Security Task Forces made more than 500 criminal 
        arrests and 1,000 administrative arrests, and seized roughly 
        $2.5 million in cash as well as significant amounts of 
        narcotics and weapons. Further, ICE ACCESS was launched to 
        foster collaboration between its agents and State and local 
        leaders to identify crime-fighting priorities.
  <bullet> Enhanced Aviation Security.--The Transportation Security 
        Administration (TSA) increased by more than 175 percent the 
        number of personnel trained in techniques to identify 
        potentially high-risk passengers in airports. Furthermore, TSA 
        required that holders of airport-issued identification 
        credentials be subjected to regular vetting against the 
        Terrorist Screening Database. It also harmonized the 3-1-1 
        Liquids Rule with the European Union and many other countries, 
        and published a Notice of Proposed Rulemaking in August to take 
        over watch-list checks from the airlines under the Secure 
        Flight program in 2010.
  <bullet> Connecting the Dots.--The Department renewed a Passenger 
        Name Record (PNR) agreement with the European Union to share 
        advance information on passengers arriving in and departing 
        from the United States. PNR data has helped frontline personnel 
        to identify scores of dangerous people and deny them entry into 
        the country.
  <bullet> Protecting U.S. and World Leaders.--The U.S. Secret Service 
        (USSS) continues to meet unprecedented challenges of protecting 
        domestic and world leaders. In addition, protection of 
        Presidential candidates has resumed and comprehensive plans for 
        securing the 2008 Presidential campaign are being implemented.
Fiscal Year 2009 Budget Request
  <bullet> Border Patrol Agents.--Funding of $442.4 million is 
        requested in the President's budget to hire, train and equip 
        2,200 new Border Patrol Agents and appropriate support. The 
        additional agents represent the fiscal year 2009 increment of 
        the President's goal of adding 6,000 new Border Patrol Agents 
        by the end of the first quarter of fiscal year 2009. This 
        request would increase the Border Patrol to over 20,000 agents 
        by the end of September 2009, more than double the amount in 
        2001.
  <bullet> Western Hemisphere Travel Initiative.--A total of $140.0 
        million is requested for CBP's implementation of infrastructure 
        and technology in support of the Western Hemisphere Travel 
        Initiative (WHTI). These funds will complete the infrastructure 
        improvements at the top 39 Land Ports of Entry, covering 95 
        percent of the land border arrivals.
  <bullet> E-Verify.--Total funding of $100 million is requested for E-
        Verify. This U.S. Citizenship and Immigration Services (USCIS) 
        program allows employers to use an automated system to verify 
        name, date of birth, and Social Security Number, along with 
        immigration information for non-citizens, against Federal 
        databases to confirm the employment eligibility of both citizen 
        and non-citizen new hires. USCIS will deploy additional staff 
        covering information status verification, compliance, and 
        monitoring. It is important that Congress reauthorize the 
        program so that these employers can continue to benefit from E-
        Verify and not have to play detective when hiring new 
        employees.
  <bullet> Vetting Infrastructure Improvements.--An increase of $30 
        million is requested to support TSA's Vetting Infrastructure 
        Improvements, providing screening and credentialing of 
        individuals requiring special access to U.S. transportation and 
        other critical infrastructure. These funds will enhance and 
        stabilize the infrastructure necessary to perform vetting 
        operations on populations that access our most critical 
        infrastructure.
  <bullet> Secure Flight.--The budget requests an increase of $32 
        million that will accelerate the Secure Flight Program by 
        replacing the current airline managed passenger vetting program 
        with a Government-operated program in 2010. In addition to 
        using improved technology, the Secure Flight Program will 
        alleviate the variability in performance of the current system 
        and reduce the risk for compromised watch list data.
  <bullet> Additional Bedspace and Staffing.--An increase of $46 
        million is requested to help provide 1,000 additional beds, 
        staffing, and associated removal costs required to meet current 
        demand and demand generated by increased immigration 
        enforcement activities. Of the 1,000 beds, the addition of 275 
        will be funded through projected increases in collections.
  <bullet> Automation Modernization of Information Technology 
        Systems.--The budget includes $57 million for ICE to acquire 
        secure and interoperable tactical communications equipment, a 
        biometric detainee location tracking module, and to develop and 
        integrate an enhanced Investigative Case Management system. 
        These improvements promote officer safety, emergency response 
        coordination, and case management efficiencies.
  <bullet> Federal Law Enforcement Training.--An increase of $10 
        million is requested for the Federal Law Enforcement Training 
        Center (FLETC) to provide training to meet increases in border 
        security and law enforcement hiring levels.
  <bullet> US-VISIT.--A total of $390.3 million is requested for US-
        VISIT. This funding will complete the transition from two-print 
        to ten-print collection. Taking all ten fingerprints will 
        improve accuracy and allow us to increase the number of matches 
        from latent prints captured all over the world. This funding 
        also allows US-VISIT to continue to provide biometric identity 
        services to law enforcement and intelligence, and it will help 
        complete interoperability between US-VISIT and FBI databases.
  <bullet> Command 21 and Situation Unit Watchstanders.--The budget 
        includes $7.3 million to support continued development of 
        Command 21 and additional watchstanders at USCG Command Centers 
        to meet increasing operational demands and support additional 
        vessel monitoring, information collection, and interagency 
        coordination capability provided by Command 21. These 
        initiatives will provide information sharing and situational 
        awareness tools required to close the gap between current port 
        and coastal surveillance capabilities and the need for greater 
        Maritime Domain Awareness in an all-hazards, all-threats 
        operating environment.

            GOAL 2: PROTECT OUR NATION FROM DANGEROUS GOODS

    We have also made much progress in protecting our Nation from 
dangerous goods. As a part of its risk-based approach, the Department 
is expanding its programs to identify, track, and intercept nuclear and 
radiological components and systems at ports of entry and in 
transportation systems within U.S. borders. We are intensifying our 
efforts to bolster capabilities to reduce the risk of a biological 
attack in the United States.
Key Accomplishments
  <bullet> Overseas Radiation Scanning.--100 percent of shipping 
        containers bound for the United States from three foreign 
        ports--Port Qasim (Pakistan), Port Cortes (Honduras), and Port 
        Southampton (United Kingdom)--are now scanned for radiological 
        and nuclear materials prior to departure. Scanning equipment is 
        also being deployed to Port Busan (South Korea), Singapore, 
        Hong Kong, and Salalah (Oman).
  <bullet> Comprehensive Radiation Detection.--The Department has 
        deployed more than 1,000 radiation detection devices to the 
        Nation's land and sea ports of entry. Today, 100 percent of 
        cargo containers crossing the southern border are scanned for 
        radiation, 91 percent at the northern border, and more than 98 
        percent of cargo containers are scanned at our seaports.
  <bullet> Improving Import Safety.--The Office of Health Affairs (OHA) 
        engaged in the President's Import Safety Working Group to 
        develop a comprehensive action plan with short- and long-term 
        recommendations that better protect consumers and enhance the 
        safety of imported goods.
  <bullet> Expanded Container Security Initiative.--CBP expanded the 
        Container Security Initiative to 58 ports screening 86 percent 
        of maritime containers bound for the United States.
  <bullet> Record-Breaking Narcotics Seizures.--USCG seized more than 
        350,000 pounds of cocaine at sea this year--a record-breaking 
        160 metric tons--worth an estimated street value of more than 
        $4.7 billion. CBP frontline personnel seized more than 3.2 
        million pounds of narcotics at and between ports of entry.
  <bullet> Southwest Border Drug Strategy.--The Office of 
        Counternarcotics Enforcement co-chaired the creation of the 
        first-ever National Southwest Border Counternarcotics Strategy 
        and Implementation Plan, which identifies major goals, 
        objectives, and resource requirements for closing gaps in U.S.-
        Mexico counternarcotics capabilities at the southwest border.
  <bullet> Reducing Risk From Small Vessels.--USCG worked with small 
        boat manufacturers, industry groups and the public on 
        mitigating the security risks posed by small vessels. Thirteen 
        Maritime Safety and Security Teams, part of a 3,000 person 
        Specialized Deployed Forces Command, are stationed at strategic 
        ports Nation-wide with unique training to counter the small 
        boats threat. The Coast Guard and the Domestic Nuclear 
        Detection Office (DNDO) are collaborating with local 
        authorities on a pilot program in Puget Sound and San Diego 
        waterways on small vessel radiation detection.
Fiscal Year 2009 Budget Request
  <bullet> Nuclear Detection Research, Development, and Operations.--
        The budget request includes $334.2 million to support DNDO's 
        Research, Development and Operations program which provides 
        resources for the development and evolution of the global 
        nuclear detection architecture. Included in this research are 
        development of an Advanced Spectroscopic Portal (ASP) suitable 
        for examining cargo containers, trucks and privately owned 
        vehicles, and development of Human Portable Radiation Detection 
        Systems (HPRDS) to provide handheld and ``relocatable'' 
        equipment to be used as primary detection tools by Customs 
        Officers, Border Patrol agents, and USCG personnel.
  <bullet> Next Generation BioWatch.--The budget includes $111.6 
        million, an increase of $34.5 million, for OHA's Next 
        Generation BioWatch. Funding will begin to procure BioWatch 
        automated detection sensors and initiate deployment activities 
        of the automated sensor system to existing BioWatch 
        jurisdictions. Automated detection will enhance the 
        capabilities of the BioWatch environmental monitoring system 
        designed for early warning of bioterrorism incidents.
  <bullet> Aviation Security.--The budget addresses the need to upgrade 
        checked baggage screening equipment deployed immediately after 
        September 11, which is exceeding its useful life. The screening 
        equipment is used to screen 100 percent of the 1.8 million 
        checked bags passengers travel with every day. The budget also 
        speeds the rollout of inline systems at all major airports in 6 
        years by allowing a more flexible approach to funding these 
        projects. To support this activity, legislative authorization 
        is required for a temporary surcharge to the current $2.50 
        passenger fee--$0.50 added to each leg of a trip capped at 
        $1.00. The surcharge is proposed to begin in fiscal year 2009 
        and sunset in fiscal year 2012. It will generate an additional 
        $426 million in revenue in fiscal year 2009 and approximately 
        $1.7 billion over 4 years, nearly doubling previously planned 
        annual resources for checked baggage explosive detection 
        systems. The increased revenue will be added to the existing 
        $250 million annual Aviation Security Capital Fund which is 
        targeted exclusively for checked baggage explosive detection 
        systems.

                GOAL 3: PROTECT CRITICAL INFRASTRUCTURE

    The Department aims to protect critical infrastructure and key 
resources, essential government operations, public health and welfare, 
and the country's economic and national security interests. Efforts to 
bolster the resiliency and protection of our Nation's critical 
infrastructure and key resources helps to mitigate potential 
vulnerabilities and to ensure terrorist plans are not successful.
Key Accomplishments
  <bullet> Setting Chemical Security Standards.--NPPD established 
        national guidelines for chemical facility security in a 
        comprehensive set of regulations to protect chemical facilities 
        from attack and prevent theft of chemicals that could be used 
        as weapons.
  <bullet> Assessed Impacts of Chemical Attacks.--S&T conducted the 
        first comprehensive chemical threat risk assessment across a 
        broad range of toxic chemicals that better focuses inter-agency 
        priorities accordingly to risk.
  <bullet> Released Sector Specific Plans.--NPPD released 17 sector-
        specific infrastructure protection plans, creating a 
        comprehensive risk management framework of national priorities, 
        goals, and requirements to protect critical infrastructure and 
        key resources.
  <bullet> Launched Improvised Explosives Device Awareness Campaign.--
        DHS has undertaken a national Improvised Explosives Device 
        (IED) Prevention and Awareness Campaign, working with Federal, 
        State and local agencies and stakeholders to boost 
        participation in the TRIPwire and National Capabilities 
        Analysis Database information-sharing portals.
  <bullet> Increasing Cyber Security.--NPPD continued deploying 
        EINSTEIN systems, which find malicious patterns in Federal 
        computer network traffic, and will expand systems this year. 
        The United States Computer Emergency Readiness Team (US-CERT) 
        issued over 200 actionable alerts on cyber security 
        vulnerabilities or incidents in fiscal year 2007 from its 24-
        hour watch center. Finally, the Secret Service currently 
        maintains 24 Electronic Crimes Task Forces to prevent, detect, 
        mitigate and aggressively investigate cyber attacks on our 
        Nation's financial and critical infrastructures.
  <bullet> Greater Information Sharing.--The Office of Intelligence and 
        Analysis (I&A) has deployed 22 personnel to State and Local 
        Fusion Centers across the country. DHS has also deployed 
        networks such as the Homeland Secure Data Network, a system for 
        securely communicating classified information, to 18 centers 
        and anticipates deploying to many more centers this year.
  <bullet> Credentialing Port Workers.--Since October more than 70,000 
        port workers have enrolled in the Transportation Worker 
        Identification Credential (TWIC) biometric credential program. 
        More than 750,000 longshoremen, truck drivers, port employees 
        and others requiring unescorted access to secure areas of ports 
        will also be required to obtain a TWIC card.
Fiscal Year 2009 Budget Request
  <bullet> Protective Terrorist Countermeasures.--Total funding of $19 
        million is requested for USSS Protective Terrorist 
        Countermeasures. This program provides the latest state-of-the-
        art equipment that will be used in the event of an explosive, 
        chemical, biological, or radiological attack. As new threats 
        evolve and are identified, it is critical the Secret Service 
        has the means to address them.
  <bullet> Chemical Security Compliance Project.--An increase of $13 
        million is included for NPPD's Chemical Security Compliance 
        Project. The Department issued regulations establishing risk-
        based performance standard for security of chemical facilities. 
        Additional funding is requested to increase the staff of this 
        regulatory program and to provide tools and systems to collect 
        and analyze vulnerability information, review plans, support 
        and manage inspections activity, issue decisions, address 
        appeals, and support compliance enforcement.
  <bullet> Explosives Research.--$96 million is requested to support 
        S&T in developing the technical capabilities to detect, 
        interdict, and lessen the impacts of non-nuclear explosives 
        used in terrorist attacks against mass transit, civil aviation 
        and critical infrastructure. Of these funds, $50 million will 
        address critical capability gaps in the areas of deterring, 
        predicting, detecting, defeating, and mitigating the use of 
        IEDs in the United States. The Vehicle Borne Improvised 
        Explosive Device/Suicide Bomber Improvised Explosive Device 
        (VBIED/SBIED) program will allow S&T to improve large threat 
        mass detection in such areas as the transit environment, 
        special events and other large areas.

   GOAL 4: BUILD A NIMBLE, EFFECTIVE EMERGENCY RESPONSE SYSTEM AND A 
                        CULTURE OF PREPAREDNESS

    Improving our Nation's ability to respond to disasters, man-made or 
natural, is a top priority for the Department. Incorporating lessons 
learned from Hurricane Katrina, other disasters, and the 9/11 
Commission Recommendations, the Department is improving its 
capabilities and preparing those who respond to acts of terror and 
other emergencies.
Key Accomplishments
  <bullet> Responded to 68 Major Disasters.--During fiscal year 2007, 
        Federal Emergency Management Agency (FEMA) responded to over 
        130 events that resulted in 68 Major Disaster Declarations, 11 
        Emergency Declarations, and 54 Fire Management Assistance 
        Declarations, including tornadoes in Florida and Kansas, floods 
        in the Midwest and Tropical Storm Erin.
  <bullet> Supporting Local Security Plans.--The Office of 
        Infrastructure Protection's Protective Security Advisors worked 
        in State and local Emergency Operations Centers providing 
        expertise and support to local authorities, the Principal 
        Federal Official and the Federal Coordinating Officer during 
        major domestic incidents including the Virginia Tech shootings 
        in Blacksburg, Virginia; the Chevron Refinery Fire in 
        Pascagoula, Mississippi; the I-35W bridge collapse in 
        Minneapolis, Minnesota; and the Florida and California 
        Wildfires.
  <bullet> Improved Interagency Coordination.--The Office of Operations 
        Coordination (OPS) led Federal prevention, protection, and 
        response activities to all-hazard threats during several 
        incidents in 2007, specifically the recent outbreaks of Foot 
        and Mouth Disease in the United Kingdom and the vehicle-borne 
        improvised explosive device attacks in the United Kingdom.
  <bullet> Building Stronger Response Partnerships.--DHS engaged State 
        and local leadership, first responders and stakeholders on 
        developing the National Response Framework, which outlines how 
        our Nation responds to all-hazard disasters across all levels 
        of Government and community sectors.
  <bullet> New Operations Capabilities.--USCG established the 
        Deployable Operations Group which aligns all deployable, 
        specialized USCG forces under a single, unified command in 
        adaptive, tailored force packages for rapid response to 
        national threats.
  <bullet> Saved Over One Million Lives.--The Coast Guard reached a 
        remarkable milestone this year, saving more than 1 million 
        lives throughout its 217-year history.
  <bullet> Awarded Public Safety Interoperable Communications Grants.--
        DHS administered over $968 million in Public Safety 
        Interoperable Communications Grants which will help support the 
        establishment of State-wide Communications Interoperability 
        Plans for improved first responder communication during major 
        disasters, and fund State and local projects aligned with those 
        plans.
  <bullet> Realizing Interoperable Communications.--S&T published 
        results of the National Interoperability Baseline Survey--a 
        Nation-wide survey of first responders across all jurisdictions 
        and disciplines that assesses progress in achieving 
        interoperable communications. By providing a clear 
        representation of national capacities, these survey findings 
        are helping emergency response leaders and policymakers make 
        informed decisions about strategies for improving 
        interoperability. The Department also established the Office of 
        Emergency Communications (OEC) to consolidate several 
        interoperability programs and address new responsibilities 
        including the development of the National Emergency 
        Communications Plan.
  <bullet> Strategic Planning for Catastrophic Disasters.--The Incident 
        Management Planning Team continued to draft Federal interagency 
        strategic plans that coordinate resources and capabilities to 
        prevent, protect against, respond to and recover from major 
        disasters and other catastrophic emergencies.
Fiscal Year 2009 Budget Request
  <bullet> Grant Programs.--The budget requests $2.2 billion to support 
        FEMA's State and Local Programs and Assistance to Firefighters 
        Grants, just above the amount provided in the President's 
        fiscal year 2008 budget request. These important grant programs 
        help prepare State and local governments to prevent, protect 
        against, or respond to threats or incidents of terrorism and 
        other catastrophic events. The budget will support the existing 
        Homeland Security Grant Program, Port and Transit Security 
        Grants, and Emergency Management Performance Grants, and also 
        proposes a new discretionary grant program targeted toward high 
        priority security initiatives including REAL ID implementation.
    While Congress chose to provide an additional $2 billion in the 
        fiscal year 2008 Consolidated Appropriations Act, the 
        Department is requesting approximately the same level as the 
        fiscal year 2008 budget request.
    The fiscal year 2009 budget requests $200 million for the State 
        Homeland Security Grants and increases funding for the Urban 
        Area Security Initiative to $825 million. The $300 million 
        funding request for the Assistance to Firefighter grants is 
        identical to the President's fiscal year 2008 budget request.
    Over a 6-year period from fiscal year 2002 through fiscal year 
        2007, grant recipients have drawn down $12.7 billion of the 
        $19.8 billion made available since the Department's inception. 
        On February 1, 2008, the Department announced an additional 
        $3.0 billion in grants to be provided this year. Including 
        congressional approval of the fiscal year 2009 request, a total 
        of $13.0 billion would be in the pipeline for State and local 
        homeland security needs.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> FEMA Vision--Phase II.--The budget requests a total of 
        $164.5 million to support FEMA's Vision--Shape the Workforce 
        program. Phase II of FEMA's transformation will strengthen that 
        agency's ability to marshal an effective national response, 
        deliver service of value to the public, reduce vulnerability to 
        life and property, and instill public confidence. The budget 
        also requests a total of $209 million to support FEMA's 
        disaster work force, including transitioning 4-year Cadre On-
        Call Response Employees (CORE) from temporary to permanent 
        full-time personnel to achieve the level of readiness and 
        response capability required in response to presidentially 
        declared major disasters and emergencies.
  <bullet> Disaster Readiness and Support.--The budget includes $200 
        million in a new Disaster Readiness and Support Activities 
        account. This account will fund advanced readiness initiatives 
        that assist FEMA in preparing for future disasters and will 
        allow FEMA to perform critical administrative functions that 
        support the timely delivery of services during disasters.

       GOAL 5: STRENGTHEN AND UNIFY DHS OPERATIONS AND MANAGEMENT

    A cohesive and operationally efficient organization is essential to 
the rapid implementation of homeland security priorities, policies, and 
objectives. As such, the Department has aligned its resources into 
areas that will most effectively accomplish its mission. Successful 
mission performance is driven by human capital development, executing 
efficient procurement operations, and possessing state-of-the-art 
information technology resources. We continue to improve systems for 
intelligence and information sharing.

Key Accomplishments
  <bullet> Continued Integration.--DHS was created 5 years ago to serve 
        as the unifying core for the vast national network of 
        organizations and institutions involved in securing our Nation. 
        Over the past year, DHS has further integrated core management 
        functions and systems throughout headquarters and the 
        components, achieving a more cohesive and unified Department.
  <bullet> Enhanced Privacy, Civil Rights, and Civil Liberties.--The 
        Privacy Office and the Office for Civil Rights and Civil 
        Liberties have worked to enhance privacy and civil rights and 
        civil liberties through the Department's work in cyber 
        security, the use of satellite technology, airport screening 
        protocols, and partnerships with Muslim-American communities.
  <bullet> Increased Responsiveness to Congressional Inquiries.--DHS 
        improved responsiveness and adherence to congressional 
        deadlines. This included the on-time submission of over 3,000 
        congressional Questions for the Record (QFR). Average response 
        time to congressional correspondence has dropped from 5-6 weeks 
        to an average of 2.5 weeks, and average response time to 
        Authorization QFRs has dropped from 6 months or more to an 
        average of 35 business days.
  <bullet> Consolidation of Information Technology Network Sites.--The 
        Department has consolidated more than 1,780 IT network sites 
        into a single network that allows transparent monitoring of 
        system performance and activity, prioritization of traffic, and 
        vastly improved security posture.
  <bullet> Strengthened Business Processes and Technology.--USCIS 
        launched a new fee schedule designed to bring decades-old 
        systems into the 21st century and improve customer service.
  <bullet> Record-Setting Levels of Federal Law Enforcement Training.--
        FLETC trained a record-setting 60,458 students from all three 
        branches of the Federal Government, as well as international, 
        State, local, campus, and tribal law enforcement agencies.
  <bullet> Improved Recruitment and Hiring.--DHS decreased the average 
        time it takes to hire new DHS employees, 4 days shorter than 
        the Office of Personnel Management targets. DHS also exceeded 
        targeted goals by hiring more than 2,300 protection officers; 
        11,200 transportation security officers; and 412 immigration 
        enforcement agents.
  <bullet> Record FEMA Staffing Levels.--For the first time in a 
        decade, FEMA attained a 95 percent staffing level and 
        strengthened regional capability through the creation of over 
        100 new positions in FEMA's ten regional offices.
  <bullet> Enhanced Employee Training and Communication Tools.--DHS 
        recently launched new training and communications tools 
        including DHSCovery, a state-of-the-art online training system.
  <bullet> Increased Border Patrol and Field Operations Staffing.--CBP 
        increased Border Patrol agent staffing by an unprecedented 21 
        percent since its inception in March, 2003, growing to 14,923 
        agents at the end of fiscal year 2007. In addition, CBP Office 
        of Field Operations hired 2,156 new officers and 340 
        agriculture specialists.
  <bullet> Streamlined Acquisition Processes.--The Coast Guard created 
        an innovative and centralized acquisition directorate in July 
        2007, significantly improving program execution, contracting 
        practices, research and development, and industry oversight.
  <bullet> Enhanced Training to Prevent and Investigate Cyber-related 
        Crimes.--The Secret Service developed a National Computer 
        Forensics Institute in Hoover, Alabama. This cyber crimes 
        training facility provides State and local law enforcement 
        officers, prosecutors, and judges with training, equipment, and 
        expertise in computer forensics and digital evidence analysis.

FY 2009 Budget Request
  <bullet> Quadrennial Homeland Security Review.--A total of $1.65 
        million is requested for the first ever Quadrennial Homeland 
        Security Review (QHSR). Funding is required to research, 
        organize, analyze, and develop the QHSR. This document will 
        recommend long-term strategy and priorities of the Nation for 
        homeland security and comprehensively examine programs, assets, 
        budget, policies, and authorities required to provide the 
        United States with strong, sound and effective homeland 
        security capabilities in the decades ahead. The Office of 
        Policy requests $1.5 million and the remaining $0.150 million 
        is requested in the Office of the Chief Financial Officer 
        (OCFO).
  <bullet> Transformation and Systems Consolidation.--An increase of 
        $15.5 million is requested for OCFO to continue implementation 
        of the Transformation and Systems Consolidation (TASC) project. 
        One of the main objectives of DHS at its formation was to 
        consolidate the support systems of the component agencies to 
        realize cost savings and operational efficiencies. OCFO aims to 
        reduce the number of DHS financial systems, and ensure the 
        manual processes for internal controls are integrated with 
        these financial systems. DHS will begin migrating OHA, S&T, DHS 
        Headquarters, NPPD, CIS, and ICE's financial systems to the TSA 
        Oracle Shared Baseline.
  <bullet> DHS-Wide Acquisition Workforce Intern Program.--The budget 
        includes an increase of $3.1 million for the Office of the 
        Chief Procurement Officer. DHS will enhance the Acquisition 
        Intern Program which recruits, trains, certifies, and retains 
        an appropriate workforce of acquisition professionals. In 
        fiscal year 2009 the intern cohort will be raised to 100 
        people.
  <bullet> Office of the Inspector General Auditors.--An increase of 
        $6.4 million is requested for the Office of the Inspector 
        General (OIG) to expand staff oversight of DHS preparedness 
        programs, through audits of preparedness grant programs, 
        science and technology programs, and Department-wide programs 
        that establish the Department's baseline preparedness efforts. 
        The additional funds will strengthen OIG oversight of DHS 
        border security and enforcement programs through a proactive 
        program of audits and on-going oversight of the policies, 
        initiatives and funds to secure the Nation's borders.
  <bullet> State and Local Fusion Center Program.--Funding for I&A's 
        State and Local Fusion Center program is to create a web of 
        interconnected information nodes across the country ensuring 
        information is gathered from all relevant operations and fused 
        with information from the Homeland Security Stakeholder 
        Community. The budget requests funds to assist in producing 
        accurate, timely, and relevant actionable intelligence products 
        and services in support of the Department's homeland security 
        missions.
  <bullet> Vigilant Watch Over America.--OPS carries out its unified 
        mission to secure America by maintaining the National 
        Operations Center (NOC) and by providing 365/24/7 incident 
        management capabilities to ensure seamless integration of 
        threat monitoring and information flow. To improve 
        technological capabilities within the NOC, the budget requests 
        funding to provide improved data infusion, the auto-ingestion 
        of data from multiple sources, and the creation of a 
        consolidated, centralized data repository. In addition, funds 
        are requested for the Principal Federal Official (PFO) program. 
        As mandated by Presidential directive, the Secretary of 
        Homeland Security is the Principal Federal Official responsible 
        for coordination of all domestic incidents requiring multi-
        agency Federal response. Funding will provide a standing 
        organizational structure to plan, train, exercise, deploy and 
        support the PFO program.
  <bullet> Create DHS Counterintelligence Program.--Under the 
        leadership of the Chief Intelligence Officer, I&A and the 
        Office of Security will develop a new DHS-wide 
        counterintelligence program to analyze threats posed by foreign 
        intelligence entities collecting against the Department, 
        support risk management decisions, and enhance operations and 
        implement strategies and policies to unify the Department's 
        counterintelligence mission.

                               CONCLUSION

    I am sure you will recognize that with the support of Congress, the 
Department has had many successes. I have outlined many of them in my 
testimony today and how they relate to the Department's five priority 
goals. As we move forward to face the many challenges ahead, we are 
keeping in mind past experiences and lessons learned that will be at 
the core of our planning and implementation efforts.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
fiscal year 2009 budget request and other issues.

    Chairman Thompson. Thank you very much.
    For the committee, there is a motion to adjourn on the 
floor. We have some 3 minutes left before time is called.
    So Mr. Secretary, if you would, we will reconvene shortly 
after the vote.
    [Recess.]
    Chairman Thompson. We would like to call the recess meeting 
back to order.
    In case you don't know, they just called another motion to 
adjourn, as soon as we get back from that one. But in the 
interest of time, we will do as much as we can and move 
forward.
    Again, thank you, Mr. Secretary, for your testimony on the 
budget. I look forward to working with you on it.
    Mr. Secretary, as you know, one of the eight priorities for 
securing the Nation is preserving civil liberties in times of 
terror. The committee is concerned with the Department's 
proposed National Applications Office which would expand the 
use of spy satellites for new homeland and law enforcement 
purposes.
    Although the numbers and personnel details for the NAO are 
classified, the President's 2009 budget assumes that you will 
be addressing our privacy and civil liberties concerns with the 
program. It has been 5 months, and the committee has yet to 
hear anything. What can you tell us today that would give us 
greater confidence that the NAO would not violate the 
constitutional rights of Americans?
    Secretary Chertoff. Well, Mr. Chairman, as you know, I am 
actually going to meet with you later today, and with 
Representative King, and I think hopefully with others as well, 
to talk about the NAO charter, which has really been completed 
in draft form. Let me give you a general high-level outline of 
why I think this actually enhances privacy and civil liberties.
    We are not proposing to expand the uses to which satellites 
are put. We are proposing to rationalize and, in a more orderly 
way, control the way satellites are used domestically, which 
will actually make it less likely that someone will violate 
civil liberties. The charter lays down some basic principles.
    The first principle is that nothing we are creating in the 
National Applications Office will in any way suspend, 
circumvent or evade existing or future laws that restrain the 
use of any technique on a civil liberties basis. Second, we are 
explicitly disavowing the use of the National Applications 
Office as an office that would be involved in the interception 
of verbal or written communications.
    The interception of oral and written communications is 
currently undertaken either under Title III of the Omnibus Safe 
Streets Act or under FISA, and that will remain controlled by 
those statutes. We don't propose to get into that business. 
Third, there is a very stringent procedure with respect to any 
novel technologies that are proposed to be used, that before 
such a technology is authorized, lawyers from all the relevant 
departments assure themselves that any legal requirements have 
been met--if for example, a technology were proposed to be used 
that arguably infringed on Fourth Amendment rights, or would 
require a warrant from a judge before we actually authorized 
it.
    What this will wind up doing is taking what is currently an 
ad hoc system where people individually go to the satellite 
operators and ask for help, and put it into a system which is 
visible and accountable, which is a plus for civil liberties.
    Finally, before we actually turn the lights on, so to 
speak, we will be preparing and submitting a privacy impact 
assessment and a civil liberties impact assessment as required 
by last year's appropriations act. That should be forthcoming 
in the next couple of weeks.
    Chairman Thompson. Thank you. I look forward to our meeting 
later today to go over some other details of that.
    Earlier in your testimony, you also referenced that you are 
requesting the same amount of grant money for programs that you 
requested last year. Yet as you know, some of those programs 
are either scheduled for elimination or reductions. Can you 
explain your comment there?
    Secretary Chertoff. Sure. There are a couple of small 
programs where we have made some reductions, but in the major 
programs--urban area security initiatives--our request this 
year is higher than our request last year and higher than what 
was enacted. That reflects, by the way, our general effort to 
drive in the direction of risk-based grants.
    In the area of State homeland security grant programs, 
while that particular line item is reduced from our request 
last year by $50 million, we have added $110 million in a new 
program called national security and terrorism prevention 
grants, which nets out to basically a $10 million increase in 
this type of function over our last year's request.
    Port security grants, we are requesting what we requested 
last year. Rail transportation security grants, we are 
requesting what we requested last year. Bus security grants, we 
are requesting what we requested last year.
    I recognize that what was enacted exceeds the requests, and 
there are obviously some differences about how we cut the pie 
up. But in terms of the way we have projected forth, a 
disciplined grant allocation program over a period of years, we 
are at or exceeding our prior year's request.
    I might add, there was some pretty vigorous debate about 
this. I think we actually came out pretty well.
    Chairman Thompson. Well, but you do understand that Ranking 
Member King and myself raised the issue in our testimony that 
there is some difference of opinion between reducing programs, 
zeroing programs out, and that money. So at some point, I am 
sure you will see that debate surface again.
    In the interest of time, I will yield 5 minutes to the 
Ranking Member before we have to go vote again. Mr. King.
    Mr. King. Mr. Chairman, for once I am ahead of you. I just 
voted, so I got the best of you at least once in the last year.
    [Laughter.]
    Chairman Thompson. Well, at least you knew what was going 
on. I didn't.
    [Laughter.]
    Mr. King. Thanks, Mr. Chairman.
    Mr. Secretary, you may have covered this in the questioning 
with Chairman Thompson, but could you update us on the status 
of the fence along the border and what the projections are?
    Secretary Chertoff. We have about 294 miles of physical 
pedestrian and vehicle barriers. We have the money that we need 
this fiscal year to keep on track to get 670 miles done, which 
will basically take us to barriers from the Pacific Ocean to 
the New Mexico-Texas border--not 100 percent, but close to it--
except in those areas where there is a natural barrier like 
mountains and things of that sort.
    We also have plans to build a significant amount of mileage 
in Texas, but less. I am pleased to say that last week--and 
Representative Cuellar on this committee was present and very 
helpful in this--we reached an agreement with Hidalgo County, 
Texas in which we were actually combining their levee-
strengthening money and our fence money to build a wall that 
will serve both as a flood protection wall and as a barrier to 
illegal smuggling. We consider a wall to be equivalent to a 
fence functionally.
    So we are on track to doing this. Assuming we get money in 
the 2009 budget, we anticipate completing this. I should say 
there has been a tremendous amount of litigation. We are 
spending unfortunately a lot of time in court trying to get 
this stuff done. Most people are cooperative. There are some 
who take the attitude they don't want to have fence built on 
their property.
    The difficulty is, if you own property at the border and 
that property is a byway for smuggling of drugs and people, we 
have to get control over that. Much as I respect people's 
property rights, unfortunately the consequence of letting drugs 
and people come through on an unrestricted border are felt in 
the streets of New York and Washington and Chicago, and I have 
to stop that.
    Mr. King. I am going to yield to Mr. Smith for one 
question.
    Mr. Smith. I thank the gentleman from New York for 
yielding.
    Secretary Chertoff, I have several questions I will submit 
to you in writing, but one question on the subject at hand is 
this. Congress specifically said that the administration should 
provide for double-fencing, and yet you are only, to my 
knowledge, building 31 miles of double-fencing. Why not do what 
Congress has said?
    Secretary Chertoff. Actually, you know, I think last year 
in the appropriations, there was language put in that gives us 
flexibility. So I think we are in compliance with the current 
law.
    Mr. Smith. How many miles of double-fencing do you intend 
to build?
    Secretary Chertoff. I can't tell you that because I think 
it is going to depend upon the Border Patrol's assessment of 
where they think it would be helpful. We are going to try to 
build a single fence first, because it is more important to 
block the vehicles.
    Mr. Smith. What we have seen in some way the double-fencing 
works the best. I hope you will do that.
    Let me yield back.
    Secretary Chertoff. Can I just say, Representative Smith, 
let me tell you, though, it is not a panacea. I will give you 
an example from the last couple of weeks. Someone took a wire 
and ran it between the two fences. When we discovered the wire, 
we realized it was configured in a way so that if it was pulled 
it would take off the head of the Border Patrol agent riding in 
an open car.
    I must tell you, and I rely on the Border Patrol for this, 
that double-fencing is not a magic bullet. It works well in 
some areas. In some areas, it actually doesn't work well.
    Mr. Smith. Okay. I hope you will build as much of it 
wherever it works.
    I thank the gentleman from New York for yielding.
    Mr. King. I thank the gentleman from Texas.
    Reclaiming my time, Mr. Secretary, one of the reasons we 
are going back and forth is because of these procedural votes 
on the whole issue of FISA, of which I know you have some 
intimate knowledge. Last year in New York with the JFK plot, my 
understanding is, without going through all the details, there 
were conversations between people in the United States and 
people in Trinidad and Guyana, so this does hit home, this 
issue.
    Do you have anything you want to say at today's hearing 
about the importance of FISA and the renewal of it, and the 
Protect America Act?
    Secretary Chertoff. Yes. I think this is, without getting 
into a specific case that is in court, I think over my years 
both at the Justice Department and here, FISA has been maybe 
the No. 1 tool--the ability to intercept international 
conversations. This is the radar that we have for the 21st 
century to detect attacks before they happen.
    I think the Senate passed a good bill, as the President 
said. I think it is important that we get this thing enacted so 
that there is no uncertainty about our authorities to go 
forward.
    Mr. King. I yield back.
    Thank you, Mr. Secretary.
    Chairman Thompson. Thank you very much.
    We now yield 5 minutes to the gentlelady from California, 
Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, and thank you for your many 
courtesies to me and my constituents over your 3 years in your 
impossible job. We appreciate your visits to California. We 
appreciate your visits to the ports of Los Angeles and Long 
Beach, and your focus on one of the most at-risk parts of our 
country. I do want to thank you.
    I want to associate myself with the comments of Ranking 
Member King about congressional jurisdiction. It is enormously 
frustrating. I think that you are right, that this committee in 
the House is the committee that should have most of the 
jurisdiction, and it should be easier for us and easier for you 
than it is. I hope that in the next Congress we will move on 
and recognize that if Congress is going to do oversight 
properly, we need to streamline the way we operate. That was, 
after all, one of the recommendations of the 9/11 commission.
    Chairman Thompson. Will the gentlelady yield?
    Ms. Harman. I would be happy to yield.
    Chairman Thompson. Just in the interest of time, Mr. 
Secretary, we will kind of rotate the Members going and voting, 
so we can kind of keep the questioning going.
    I yield back.
    Ms. Harman. Thank you, Mr. Chairman.
    Second, I just listened to this conversation about FISA. As 
one who knows that program intimately, and thinks it is very 
important, I would point out to everyone that FISA is not 
expiring this week. If anything expires, it would be, in my 
view, a set of ill-advised amendments to FISA that the House 
and Senate passed in August. FISA is a very important statute. 
It has been on the books for 3 decades. I think it works well, 
and I am certainly hopeful that if it needs amending, we do it 
on a bipartisan and bicameral basis, and do continue to track 
the activities of foreign terrorists.
    Let me make one other comment about things you are doing. I 
know that you are concerned about radiological threats. You and 
I have had this conversation off-line, and I think you have had 
it with other Members of the committee. I want to encourage you 
to continue to work on that. I think the dirty bomb that may be 
in our future may be one that can be put together inside our 
borders, and may not have to come in a container or on a 
general aviation airplane, or through the southern or northern 
border.
    Do you agree with that?
    Secretary Chertoff. I do agree with that, yes.
    Ms. Harman. So I encourage you to keep working on it. This 
Member will cooperate with you in every way possible. If you 
can get increased protection for radiological sources done just 
through activities of your Department, without the need for 
legislation, Godspeed.
    Secretary Chertoff. We are doing that.
    Ms. Harman. Okay. My question is really about borders. No 
one has missed it that this budget is front-loaded in terms of 
border protection, and other priorities are funded less in 
order to enhance border protection. Two questions: No. 1, what 
about the northern border? It seems to me most of the focus is 
on the southern border. I remember very well that the fellow 
who was going to blow up my airport--Los Angeles International 
Airport--was apprehended at the northern border.
    Second of all, what about the borders on our east and west? 
I am specifically talking about ports. The Port Security Act, 
the Safe Port Act, that was passed on a bipartisan basis out of 
this committee, and I was one of its original authors, provided 
or authorized $400 million a year for layered port security. I 
know that is a concept you support, yet that is cut in half in 
order to fund these initiatives at the southern border.
    I have a minute left, but my question is about why not more 
focus on the north, and aren't you doing something 
counterproductive by cutting port security money, when that is 
another border that obviously needs protection?
    Secretary Chertoff. Well, let me say first of all, we are 
focused on the northern border. The traffic between the ports 
of entry in the northern border has typically been about 2 
percent of the total, with 98 percent through the southern 
border. There is plenty to be done. We have to kind of attack 
the biggest problem first.
    One thing we have done in the northern border, where I 
agree with you, I think in some ways from a terrorism 
standpoint, historically it has actually been a bigger 
challenge. Historically, they have moved through the ports of 
entry. What we have done in addition to recruiting and training 
more inspectors--and we have 400-plus in this year's 
appropriations, and we are seeking to have more in next 
year's--we have tightened up on the documentation. We have 
eliminated all declarations, which is going to be a big step 
forward, I might add, over a tremendous, vociferous protest.
    I am also happy to say that we have tracked the progress of 
this, and it seems it has not caused the dislocations that were 
feared.
    As far as the ports are concerned, I agree with you. The 
ports, and in fact between the ports, are borders. We have put 
in the past several years a total of $16 billion in terms of 
port security. If you look not only at grants, but if you look 
at customs and border protection, and Coast Guard, we are 
putting more money in both of those in fiscal year 2009.
    I might add, by the way, that one of the things we are 
doing is the Coast Guard is developing a small boat strategy to 
look at what is between the ports, because frankly that is 
where experience shows us a lot of smuggling takes place.
    I am going to say this over and over again in the hearing. 
There are many good things we could do. As with anybody else 
who works with a budget, we have to start somewhere. I think we 
are making progress. I am sure that future budgets will address 
these other issues.
    Ms. Harman. Thank you, Madam Chairwoman.
    Thank you, Mr. Secretary.
    Mrs. Christensen [presiding]. Thank you, Ms. Harman.
    The Chairwoman now recognizes Mr. Davis of Tennessee for 5 
minutes.
    Mr. Davis of Tennessee. Thank you, Madam Chairwoman.
    Thank you for being here. Thank you for your testimony.
    Could you bring me up to date on the 287(g) program a 
little bit, and what your plans are in this budget moving 
forward?
    Secretary Chertoff. We are seeking additional money for 
287(g) in this budget. It has been a very effective program. It 
is, of course, a voluntary program, and we have a backup of 
jurisdictions that have requested the training.
    We also have what I call 287(g) ``lite,'' which will recall 
ICE access, which is a program we can use to train people in 
State and local government to work with us, that is maybe not 
quite as soup-to-nuts as the 287(g) program, but is still 
effective, and we are providing that as well.
    Mr. Davis of Tennessee. I hear from my district that local 
law enforcement has requested help from the Federal Government, 
and they are being told there is just not enough people, not 
enough money, not enough support at the Federal level.
    Secretary Chertoff. Well, I will tell you, enacted in 2007 
was $46 million. This past year, it is $78 million, and we are 
requesting $92 million. So we are certainly adding money, and 
we are eager to help. Of course, again, demand probably 
outstrips supply, but where we can't give people the full 
287(g) program, ICE Access is kind of a 287(g) lite which we 
can provide.
    Mr. Davis of Tennessee. Could you tell me what you are 
doing in relation to REAL ID?
    Secretary Chertoff. Yes. We issued new regulations. This 
was designed to address the concern that it was exorbitantly 
expensive and too much for the States to bear. We cut the cost 
by three-quarters. The main way we did that is we made some 
adjustments in the actual physical characteristics of the card 
stock to take account of some things that States were doing. We 
also, for the category of people over 50, extended the time 
period for bringing everybody into the REAL ID system so that 
it synchronized with the ordinary State renewal periods. This 
has cut the cost to about $8 a license.
    What I have heard back is that has largely removed the 
objections based on cost. Last I looked, and I may be a little 
out of date, over 40 States have indicated that they are 
interested in participating in this. That represents over 80 
percent of the American driving public. I am confident we will 
get the vast majority of States onboard with this by the time 
we come to the deadline at the end of March.
    I do have to say this, though, Congressman. There are some 
ideological problems with this. I frankly don't understand it 
because I think if you are going to ask people for 
identification, it is crazy to make it easy to forge the 
identification. At the end of the day, though, the mandate of 
Congress and the law is clear. If States have not gotten a 
waiver by the end of March, we will have no choice but to say 
that for Federal purposes, their licenses are not acceptable as 
Federal identification.
    So first of all, I don't bluff. But even if I were a 
bluffer, I would be legally constrained against bluffing. So we 
are going to try and work with everybody. We have been very 
encouraged by the response we have gotten, but we are very 
determined to move this forward.
    Mr. Davis of Tennessee. I have a large chemical 
manufacturer in my district. Can you tell us what your plans 
are dealing with chemical operations in the future?
    Secretary Chertoff. Based on the authority we got from 
Congress, for which we are grateful, we issued our regulations. 
We basically have divided the chemical industry into four tiers 
based upon the amount of risk. That is driven by the size, the 
location, and the type of chemical that you are manufacturing 
or storing.
    The top tier chemical manufacturers have been notified now 
by rulemaking about what they need to do to analyze the risk of 
their particular facilities. We are reviewing those analyses, 
and based on that review we are going to require certain 
performance standards that have to be in place in order to 
satisfy the requirements of the law. Then, particularly with 
respect to the top risk facilities, we will be going out and 
inspecting those. I don't know the particular facility you 
have, but that is the process we have underway.
    Mr. Davis of Tennessee. Okay, one last question. I can tell 
you, in my district, building a fence is very important to the 
people in northeast Tennessee. I think it is something we need 
to do, be it a real fence, a virtual fence, some way that the 
American people feel like they are secure from people coming 
across illegally. As we move into the next budget cycle, how 
much of the fence--either real or virtual--will actually 
percentage-wise be built?
    Secretary Chertoff. Well, by the end of this calendar year, 
we will be a 670 miles of barriers. Plus, we will have deployed 
40 what we call mobile surveillance systems. That is ground-
based radar. We will have our P-28 system, and begin to employ 
other camera-based and sensor-based systems. So I can't give 
you an exact percentage, but we will have substantially put 
either real or virtual fencing or barriers across the entire 
border.
    Mr. Davis of Tennessee. Thank you.
    Thank you.
    Mrs. Christensen. Thank you, Mr. Davis.
    The Chairwoman now recognizes Ms. Sanchez for 5 minutes.
    Ms. Sanchez. I thank the Chairwoman.
    Thank you, Mr. Secretary, for being before us.
    Mr. Secretary, in the corporate world, the rule of thumb is 
when you do a merger that you wait about 5 years to have the 
whole shake-out in the corporate culture and everything going 
on. So my question to you is, the Department will soon be 5 
years old. Where on the curve do you think you are as far as 
trying to get morale up, get a cohesive culture going? Where do 
you think you are at this point?
    Secretary Chertoff. That is a question we have asked 
ourselves. We have a Homeland Security Advisory Council, and we 
had a subcommittee chaired by Herb Kelleher, who as you know is 
the legendary CEO of Southwest Airlines, to look at the issue 
of how do you form a corporate culture. They had a lot of very 
interesting and informative ideas which we have put into place.
    Let me tell you where I think we are. Our capability to 
plan and execute jointly now is light-years ahead of where it 
was when I came on board. We have some more work to do this 
year, but we are building what we call, borrowing on the 
military phrase, ``J-3/J-5''--planning and operations 
coordination capability--that is able to give us visibility and 
planning capability to synchronize a lot of our different 
elements.
    We have built through a series of management directives, 
incentives to develop career paths that require you to do joint 
activities or to serve in other components. So that I think in 
terms of our building basic institutions that will promote 
jointness--and here we have borrowed a lot, frankly, from DOD--
as well as the discipline of civilian planning, we have made 
very substantial strides forward.
    Other than the normal maturation process, there are two 
potential obstacles to completing this process. One is we have 
to get facilities. The need to have people work out of what are 
really jerry-built facilities does have an impact on morale and 
efficiency. Every other new organization in the fullness of 
time gets a headquarters facility. For everything from health 
to security to efficiency, we need to get St. Elizabeth's done.
    Ms. Sanchez. You are so committed to St. E's?
    Secretary Chertoff. Very much. Yes. The hot water pipes 
broke about a month ago. We really have to move on this.
    Ms. Sanchez. Because one of the problems that I have seen 
is, for example, one of the things that was cut out of the 
budget were the moneys for St. E's in this showdown with the 
President. I mean, how do we get this on track? I am looking at 
it from a standpoint of the inspector general was in, and he 
said, look, great vision at the Department; terrible 
management. Part of management is just not having to drive for 
2 hours across town to go and see your subordinates.
    Secretary Chertoff. Yes, that is amen. I mean, it is in the 
2009 budget. We fought to keep it in the 2008 omnibus. That 
process got compressed, shall we say, at the end. We were 
largely happy. But part of the issue is a large part of the 
budget is in GSA, and their piece was taken out. Then once 
their piece goes, our piece fell.
    I am making a point of talking about it now, because it is 
really important in 2009 to get this started, for all the 
reasons you have said. I couldn't agree with you more.
    Ms. Sanchez. I think you have about $120 million in this 
2009 budget. Realistically, how much do you need and how fast 
can we get this whole issue of a headquarters done for you all?
    Secretary Chertoff. If memory serves me, I think in the 
2008 budget, GSA was looking for over $400 million for its 
piece of that. So since it has been bumped down the road, I 
think a rough estimate, I think we are talking about that order 
of magnitude to get this process moving. The original plan was 
to start with getting the Coast Guard in there and get this up 
and running in 2011. We have lost a year, so I think you can do 
the math.
    One other thing I would say we need in terms of 
institution-building is we need to stop reorganizing the 
Department. At this point, you can debate whether we are in the 
optimal structure, but you can't grow a tree by keeping tearing 
its roots up every year. I think we need some stability for a 
couple of years.
    Ms. Sanchez. I was going to ask you about that. I mean, 
some of the problems seem to be when I looked at some of the 
reports of those being critical in particular to management, is 
all of the political appointees and how people move around, and 
now with a new administration coming in.
    Secretary Chertoff. One thing we are doing is we have made 
a conscious effort, and I have just about completed this, to 
make sure we have career officials in the No. 2 or No. 3 
positions in all the operating components in the significant 
offices. So we will have personnel continuity. But every time 
we have a major reorganization, first of all it freezes 
everybody. Everybody is uncertain about what the future of 
their job is. We spend an enormous amount of time and effort 
reorganizing.
    This may not be the best of all possible worlds, but it is 
working well. I think if we could get a breather so the next 
secretary can take 3 years, let us say, and kind of look at 
where things are, maybe they will have some suggestions down 
the line. But at this point, stability both from a personnel 
and an organizational standpoint, and a physical structure--
those are the keys to really completing this task.
    Ms. Sanchez. Thank you, Mr. Secretary.
    Thank you, Madam Chairwoman.
    Mrs. Christensen. Thank you, Ms. Sanchez.
    The Chairwoman now recognizes Mr. Rogers for 5 minutes.
    Mr. Rogers. Thank you, Madam Chairwoman.
    Thank you, Mr. Secretary, for being here.
    I wanted to start off with a letter I sent you last week, 
and you sent me back a response today. The letter dealt with 
the Center for Domestic Preparedness. In that letter, I 
outlined my concern at the President's budget proposal, cutting 
it 25 percent, or $15.5 million. As you know, this is a very 
important facility in our country's effort to meet your fourth 
goal that you outlined in your five goals up there, being able 
to have adequately prepared and effective responders.
    In the President's proposed cut, he didn't offer any 
explanations for that. I sent you a letter asking you to 
explain to me the justifications for a 25 percent cut that was 
just arbitrary. Your letter today responded by saying that you 
believe the $47 million requested will be sufficient to support 
that mission. That is not an explanation.
    While I don't expect you to have those at your fingertips, 
I would ask that you respond to me in a more detailed way as to 
why $47 million will meet the mission that $62 million has been 
providing. The 9/11 commission legislation that we passed--the 
9/11 Commission Recommendation Act that the President signed 
into law--authorized that that facility be increased in funding 
for the next 4 years by 3 percent. So I would like to know the 
explanation for how you can do that.
    Next, I want to talk about agriculture. As you know, 
agriculture is very important in my State. The Homeland 
Security Department set up the Office of Health Affairs in 
2007. Within that Department, you have the Office of Food, 
Agriculture and Veterinary Defense charged with enforcing 
Presidential Directive 9, which protects food and agriculture. 
But that office has been level-funded again this year at 
$727,000, and five FTEs.
    Chairman Carney and I held a hearing in Pennsylvania on the 
need for this office to develop more full policy, as to how to 
interact with State and local jurisdictions in the event of an 
agricultural food attack. We are grossly understaffed, and I 
brought that to your attention in an earlier hearing, and you 
agreed.
    Is there going to be the money to remedy this within your 
Department's budget this year?
    Secretary Chertoff. First of all, this is, of course, a new 
office. The fact that we established it reflects our total 
agreement with you that an important element of homeland 
security policy and planning has to involve agricultural food 
and veterinary defense.
    So I am going to make just a couple of observations. First, 
obviously a lot of the actual expertise resides in the 
Department of Agriculture. So we really rely on the Department 
of Agriculture to give us a lot of support. We are not looking 
to supplant them. We are looking to make sure that food and 
agricultural concerns are integrated with the rest of what we 
do. I should also observe to you that a lot of what we actually 
operationally do in the area of food and agricultural defense 
is with the operating components, specifically customs and 
border protection.
    So if you were to look at all the assets that we put with 
respect to protecting our food and agriculture in this 
Department and across the Federal Government, it would be much, 
much more than these five people. We are trying to grow the 
Office of Health Affairs. I am going to come back to the same 
refrain I have. We have a lot of tough choices to make with a 
pie that, while it has grown, is still not limitless.
    We think that continuing the level of five this year allows 
us to continue what we have been doing in a way that is 
effective. Maybe in 2010, we are going to look at where we are 
and say at that point we should do a little bit more. We are 
helped by the fact that if we need support, we really do have 
other places we can go to, specifically the Department of 
Agriculture. So this office is not simply at sea by itself, but 
it is really partnered up with other agencies as well.
    Mr. Rogers. Unfortunately, I have been seeing little turf 
battles going on between the Department of Agriculture and 
Homeland, and that is unfortunate. I would ask that you keep 
this at the fore of your mind, and if there is a way you can 
develop that office more fully, I think it would be good for 
our Nation's food supply safety.
    Last, I want to talk about canines. As you know, I have a 
special interest in that area. I was pleased to hear that you 
talked about putting more emphasis on your effort to have more 
explosive detection capability and using canines in that area. 
But as you know, we still purchase most of our dogs from 
overseas. I would like to know if you have the money in this 
year's budget for the establishment of a domestic breeding 
program, as called for in the 9/11 Act?
    Secretary Chertoff. I know we have 775 canine teams. We 
started out with 475. We have 300 that are accounted for in the 
budget for 2008, so we are going to want to do that.
    In terms of setting up a domestic breeding program, I have 
to confess it is not quite clear to me how you encourage dogs 
domestically to breed.
    Mr. Rogers. Here is the problem. Like in TSA, most of your 
dogs you procure through the Department of Defense.
    Secretary Chertoff. Right.
    Mr. Rogers. They go to Europe and they bring them back. But 
these are foreign sources. There is no reason--and they want 
the breeds because they have the unique olfactory capabilities 
to detect the things they are looking for.
    Secretary Chertoff. Well, the malinois, I think are the 
ones.
    Mr. Rogers. Those are malinois primarily, but there are 
others. My point is, this is too important of an asset for us 
to rely on these foreign sources. You are right. There is no 
rocket science to bringing these breeds over here and 
replicating that domestically. That is what I am asking you to 
do.
    It is not just a problem at Homeland. It is across the 
Federal services.
    Secretary Chertoff. It is something we ought to look at 
nationally, because I do think that dogs are a fantastic 
resource. So let us work with DOD, which is probably the larger 
consumer--if I can use that phrase--of dogs than we are, as 
well as others who use them, like in the Department of Justice, 
to see what we can do about that.
    Mr. Rogers. I agree. Thank you very much.
    Mrs. Christensen. Thank you.
    Ms. Lofgren is now recognized for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman.
    Mr. Secretary, about 6 months ago, I first heard reports 
about a U.S. citizen, Pedro Guzman, who was born in Los 
Angeles, who had gotten himself caught by the Border Patrol in 
order to get back into his own country. As we looked into it, 
he was deported even though he was an American citizen. I had 
hoped that this was an isolated incident.
    I sent you a letter outlining a series of questions, really 
that deal with individuals, what safeguards we have in place 
especially for individuals who may be mentally impaired. In the 
case of Mr. Guzman, he was mentally retarded and he was simply 
dumped in Tijuana. His parents, as you can imagine, were 
frantic trying to find him. He eventually walked through the 
desert. A Federal court ordered the Border Patrol to post 
pictures and be on the lookout.
    Since that time, I have additional reports. In fact, we are 
going to have a hearing on this in the immigration subcommittee 
in Judiciary about U.S. citizens who have been detained for in 
some cases extended periods of time, or even a day or 2. I am 
concerned in this budget about what kind of training effort we 
are making in ICE. The General Accountability Office issued a 
report in October of last year basically indicating that the 
ICE agents didn't know the law and there was no systematic way 
in place to keep them trained and up to date on the law.
    So I am wondering, can you tell us what efforts we are 
going to make in this budget for training for ICE in 
particular?
    Secretary Chertoff. I do know that training on legal 
requirements and legal restraints is an important part of what 
we do with our ICE agents. I know that they get trained, for 
example, in the fairly complicated rules that apply about when 
you can arrest somebody and things of that sort.
    My presumption is they generally rely in the first instance 
on somebody saying ``I am an American citizen,'' and then 
obviously you need to verify that fact. I don't know the facts 
of this specific case off-hand. Obviously, we don't want to 
deport American citizens. I can't tell you that if someone is 
incapable of telling us they are a citizen----
    Ms. Lofgren. I would like to send you this letter again.
    Secretary Chertoff. Okay.
    Ms. Lofgren. Because the letter I got back from one of your 
assistants never answered any of the questions.
    Secretary Chertoff. We will answer it.
    Ms. Lofgren. In this case, it was L.A. County, and this kid 
had been in trouble many times because of his disability, and 
was arrested for trespassing. They had him in their records, 
but ICE never even checked the records. It is not an isolated 
case. So I am interested in the protocols because it is just 
absurd.
    Furthermore, an ICE spokesperson was recently quoted as 
saying it is the American citizen who has the burden of proof 
on proving that they are an American. Well, that is not the 
state of the law. I will bet you that very few of us here 
today--and I happen to have my passport in my purse--but most 
of us could not prove up our American citizenship on the 
street. So this is a serious problem.
    I would like to ask another question about ICE. That has to 
do with the rapid expansion of detention beds, and what kind of 
effort and budget is being proposed for the medical care of 
people in custody. We now have in some cases individuals who 
are in custody for many months as their cases are straightened 
out, in some cases. We had a hearing last fall outlining some 
instances where people in custody died for lack of adequate 
medical care.
    One of the concerns I had at the time was a system that 
never works. I have seen this in local detention centers, where 
the physician on-site cannot provide the care he or she thinks 
is medically advisable without authorization from some 
bureaucrat in Washington. Has that policy been changed?
    Secretary Chertoff. Let me say that a lot of our facilities 
are contract facilities, so we contract and we do that 
obviously because there is an up and down in terms of the need 
in particular locations. I know that we do pay attention, and 
the issue of medical in general is a matter that ICE looked 
into recently. I think our statistics actually are better than 
the average prison system.
    Ms. Lofgren. The statistics don't matter if it is your 
father who died.
    Secretary Chertoff. I can say this to you. I don't have 
with me the details of exactly what our medical protocols are. 
We do take people as we find them, so we do get people, for 
example--there was one case where somebody died where it 
emerged they had come in with a mixture of coke and some other 
drug, and they OD'd on it. So we do take it seriously.
    If you want specifics about approvals, I can get them.
    Ms. Lofgren. I would like specifics because the cases that 
we got were both ICE-run facilities and also contract 
facilities. Frankly, the sheriffs are complaining because the 
level of medical care is so far deficient compared to the care 
that they give to county inmates. As a matter of fact, we had 
one sheriff from Pennsylvania who was just outraged by people, 
inmates, that were not even--I mean, we don't need a Cadillac 
of medical care, but certainly the care that he was giving 
county inmates was being denied to the ICE detainees.
    Secretary Chertoff. I will have a look.
    Ms. Lofgren. Would you get back to me?
    Secretary Chertoff. I will.
    Ms. Lofgren. Thank you.
    Mrs. Christensen. Thank you.
    The chairwoman now recognizes Mr. Reichert for 5 minutes.
    Mr. Reichert. Thank you, Madam Chairwoman.
    Mr. Secretary, good to see you again. Thank you for being 
here.
    I first want to comment on one of your statements right 
before we went to vote. You mentioned the number of committees 
that you had to report to. I think it was a year or maybe 1\1/
2\ years or more ago where we had this discussion. I think that 
when I asked you the question as to how many committees you 
might be reporting to, the answer then I think was 88 
subcommittees and full committees. I agree with you that 
Homeland Security and Appropriations might be the two most 
important committees that you report to. So I think Congress 
has some responsibility in helping you manage your Department 
by reducing their meddling.
    I am really interested in a couple of things. As you know, 
working together, coming from my previous background as a 
sheriff, and interoperability of communications. So with the 
2010 Olympics coming to Vancouver, I know that you have a plan 
to create a multi-agency coordination center near the Canadian 
border. Can you give me some information as to the status of 
that plan?
    Secretary Chertoff. Actually, Congressman, on that I think 
I will have to get back to you because I don't have a lot of 
specific detail. We do recognize and we plan in advance for 
events of this kind, recognizing that there is going to be a 
lot of cross-border traffic. But I will get you the specifics 
in writing.
    Mr. Reichert. Thank you.
    The issue associated with that is the ability to 
communicate with the Canadians especially. We know here at home 
we have that problem, too, internally. But there does seem to 
be a spectrum issue between Canada and the United States. We 
know that as sheriffs working up in Washington State. But there 
seems to be more of an issue of mutual aid and cooperation. 
Have you heard anything about the attempts in getting the 
Canadians to work with us in developing the communications 
systems that will be in use by 2010?
    Secretary Chertoff. I don't know if this is applicable to 
Washington. I know we have integrated border enforcement teams, 
and we have been trying to work with the Canadians to make sure 
that we can have interoperability where we have Canadians and 
Americans working jointly on law enforcement.
    The issue is probably not going to be technological. There 
now exists Internet-based and non-Internet-based gateway 
solutions that allow people to talk on different frequencies, 
and I think it is something we want to address in a joint 
fashion, to have governance and protocol arrangements so that 
we can have a common sheet of music, so to speak, off of which 
to sing come 2010.
    Mr. Reichert. Thank you.
    That also connected with the northern border. Just looking 
at the budget, we notice that there are an additional 440 
Border Patrol agents that will be assigned to the northern 
border, and also some other initiatives, with $4 million to 
construct checkpoints in New York, which I know Mr. King 
appreciates greatly.
    But what other things are we doing? I know that you are 
concerned about illegal immigration across the northern border. 
We have been focused I think in the past few years on the 
southern border pretty heavily. What new----
    Secretary Chertoff. Obviously, as I said, one critical 
factor is that up until now, the vast, vast majority of traffic 
between the ports of entry has come through the south, rather 
than the north. That has informed a lot of our priorities. 
Plus, of course, we have a very good working relationship with 
our Canadian counterparts.
    We are looking to have 1,500 Border Patrol in place if we 
get our 2009 budget for just the northern border. I believe we 
are completing our fifth air wing this fiscal year. We are 
going to have six unmanned aerial systems in place by the end 
of this fiscal year, projected. We have three currently. We are 
getting a fourth, and when we get the fourth, we are going to 
put another unmanned aerial system up in the north.
    A lot of what we are doing in the north is much more 
technology-based and intelligence-based, because of the nature 
of the flow of traffic, the nature of our relationship with the 
Canadians, and the nature of the landscape up there. But we are 
attentive to it.
    Mr. Reichert. Thank you.
    I have time for one last question. We did have a hearing 
here a number of months ago of Boeing employees and some Border 
Patrol representatives on SBInet and P-28. I know you have 
touched on it briefly in your opening statement, but said you 
could comment further on it. Can you give us the status of 
where that project is?
    Secretary Chertoff. I would love to. Let me first dispel 
what is sometimes a misconception. SBInet includes P-28, but is 
not limited to P-28. SBInet is the complete lay-down of use of 
technology at the border. If I have made one point over the 
last 3 years, it ought to be that the exact mix of high-tech 
and low-tech depends on exactly what you are dealing with at 
the border.
    For example, even as we are working on P-28, which I will 
come to in a moment, we are looking I think a 10-fold increase 
on the ground-based, vehicle-based radar, the mobile 
surveillance systems, from about 4 to 40 this year, which are 
going to be deployed across various parts of the southwest 
border. As I said, we have acquired a third unmanned aerial, 
and I think a fourth is due to come online in the very near 
future, if not already. All these are part of our SBInet 
program.
    P-28 is a particular concept of integration of radar, 
integrated cameras, and a common operating picture that can 
cover a broader range of border than is true with ground-based 
radar. Ground-based radar basically gives you about 6 miles 
each way. P-28 gives you 28 miles. But again, it doesn't work 
in every type of terrain. We have tried it in a very 
challenging part of the terrain.
    I have been down to look at it myself last week. We are 
doing the final review with respect to final acceptance. I 
think it looks good, although we haven't finally signed off on 
it. That is not to say it is perfect. As we have operated it, 
we have come to realize--and I think you probably have this 
from your experience, too--that there are some features that we 
would like to change and make better. There are some features 
that we actually have determined we don't really need that 
much, and we probably ought to just forget about. That is in 
final development.
    So what we expect to do is move to the next stage of this, 
which will be pushing the areas that the operators think we 
ought to enhance, discarding those things the operators think 
are probably not ultimately a real value-add, and then--
although I don't expect we are going to have a cookie-cutter of 
this across the border--there are other parts of the border we 
will expect to be using it, including parts of the northern 
border, again depending on the landscape.
    Mr. Reichert. Thank you, Madam Chairwoman.
    Mrs. Christensen. Thank you.
    I now recognize myself for 5 minutes.
    Thank you, Mr. Secretary.
    The Department has made some progress over the last year, 
and I really commend you for the progress you have made in some 
of the areas that you outlined. But we are still so far away 
from where we need to be to really assure the people of this 
country for their safety and their security. I think it is 
unfortunate that because of tax cuts for some of our wealthiest 
Americans, this Department and others are being squeezed into a 
budget that does not really meet our Nation's needs.
    As you can well imagine, my first question is going to go 
to health care. So I am very pleased with the increase in 
funding that is proposed for the Office of Health Affairs, and 
also the progress that has been made under Dr. Runge. I can 
remember when the office was first set up and he was brought 
in. We weren't sure what the role of that office was going to 
be.
    But I still continue to look for a commitment to really 
repair and strengthen and expand the capacity of our health 
care system to respond in the case of a disaster of any kind in 
this country. I haven't seen that kind of an investment in 
these 5 years, and I am not seeing it in the 2009 budget 
either.
    There is a report, an analysis done by Harvard Medical 
School and Cambridge Health Alliance that continues to show 
that the emergency rooms in this country are really 
overburdened and continue to be overburdened; that our hospital 
beds are short. Where in the 2009 budget is this addressed, if 
at all? I don't see any increases in the health budget to make 
up for it not being there, because we have a 7 percent cut in 
the CDC, 14-plus percent cut to HRSA. In your budget, MMRS is 
eliminated and SAFER, which also have relevance to this, is 
also eliminated.
    Secretary Chertoff. First, let me thank you for your 
comments about the Office of Health Affairs. I want to thank 
the committee for authorizing it. It is important to 
institutionalize this.
    As I said with respect to agriculture, we try to be clear 
that we are not trying to poach on the expertise of HHS and CDC 
and NIH. They are the experts. Our Office of Health Affairs 
is----
    Mrs. Christensen. They don't have any money either.
    Secretary Chertoff. Well, I can't discuss their budget. I 
have very little visibility into it. I am going to let the 
secretary of health and human services talk about his budget. 
But I want to make sure that the role of our office is clear. 
It is not meant to supplant HHS. It is meant to make sure that 
health, food, and veterinary issues are integrated into our 
total planning in incident management, so that much of our 
emphasis is on making sure that we are driving forward in the 
process of planning for things like pandemic flu. We have made 
a lot of progress in that regard.
    A lot of our focus is on making sure that we are focused on 
integrating intelligence about health through our NBIC system. 
A lot of it is designed to move forward with BioWatch, which is 
the sensing system that we detect if there were a biological 
attack. Of course, we have a role to play with respect to 
BioShield, identifying the material hazards.
    So health planning and response is very important in our 
Department, but I want to make it clear that it is a function 
that we exercise in partnership, and that much of the actual 
muscle comes from HHS. In fact, OHA used to have certain health 
functions in DHS which were transferred back--emergency 
functions, medical response, for instance--were transferred 
back to HHS.
    So in terms of what is being done to fund emergency rooms 
and things like that, I am going to have to refer you to the 
Department that would have the major role in health. We are 
encouraging, however, public health officials and State and 
local officials to get involved in planning, because whatever 
your resources are, if you don't plan properly and you don't 
integrate the planning, the resources are not going to be 
particularly effective.
    Mrs. Christensen. I want to try to get in another question. 
When I look at the 2009 budget, it seems to start out from a 
position that the Department has made pretty much all of the 
investment needed in training, equipping and exercising first 
responders, in that there is not a lot of investment being--
there is not increase and some programs are cut. So it seems as 
though the Department is saying we have made most of the 
investment we need to make, and we just need to maintain the 
status quo.
    Is that your position? If not, where in the budget are we 
seeing the help that our first responders still need?
    Secretary Chertoff. Well, let me again say, recognizing 
this is probably going to be a refrain--Congress has tended to 
enact more than we have requested. We have projected requests 
based on a couple of principles. We do want to build capacity. 
However, it is not maintenance. It is not meant to be that the 
Federal Government is going to pay for routine activities. We 
are going to try to build capabilities, equipment and training.
    So that one should expect to see accumulative benefits. You 
wouldn't expect to have to buy the same equipment every year. 
We have with respect to assistance to FIRE grants, we have kept 
the same request we did last year. On emergency management 
performance grants, we kept the same request we did last year.
    You may remember in past budgets, requests actually 
declined. So I think we are comfortable with our requested 
levels getting us on a disciplined path doing what we need to 
do. There are some, shall I say, perennial disagreements 
between Congress and the administration. Congress tends to 
enact, the appropriators tend to enact, a certain number of 
grant programs that are designed to pay for salaries and 
personnel and things of that sort. The administration takes the 
position that that should be State and local; that we should be 
paying for capacity and equipment.
    So as the Chairman said, I have no doubt we are going to 
embark on robust debate about the budget. But I think if you 
look at what we have done compared to our requests last year, 
we are consistent in what we think is an appropriate--not an 
exorbitant--but an appropriate level of funding.
    Mrs. Christensen. Thank you.
    The chairwoman now recognizes Mr. Dent for 5 minutes.
    Mr. Dent. Thank you, Madam Chairwoman.
    Good afternoon, Mr. Secretary.
    A quick question, you mentioned in your written testimony 
that there were 670 miles of fence to be constructed by the end 
of 2008. I think you said 370 miles were pedestrian fencing and 
300 miles of vehicular fencing. How much of that is double-
layered fencing?
    Secretary Chertoff. I don't know. I think Congressman Smith 
came up with the number 31, which I have no reason to disagree 
with. As I said, we build double-layer fencing when double-
layer fencing makes sense, in the judgment of the Border 
Patrol, based on the particular topography.
    I will give you a great example. On the Rio Grande, we 
probably wouldn't build a lot of double-layer fence. It would 
make a lot of sense.
    Mr. Dent. Understood.
    Secretary Chertoff. I said this earlier, in some of the 
double-layer fence in San Diego we discovered that somebody had 
strung wire across, and when we analyzed the wire, we 
recognized if you pulled it, it would be raised to the level 
that it would chop the head off of an agent if the agent was 
riding in an open vehicle or an ATV.
    So I say this because the idea of the double-layer fencing 
as somehow the holy grail of security is just contrary to what 
the Border Patrol tells me. In some places, it works. In some 
places, it doesn't work. So I am just guided by their views.
    Mr. Dent. To change the subject, I know that CBP has been 
suffering from a number of budgetary issues. I have also had 
the occasion to visit the border down at Laredo. I noticed that 
there was a shortfall of aircraft for the Border Patrol. This 
budget request for 2009 I think requests an additional two or 
three aircraft. In my view, that is insufficient to meet the 
need along our borders.
    I do have a bill that would allow DHS to enter into a 
memorandum of understanding with the Department of Defense to 
utilize Civil Air Patrol assets to supplement these various 
functions of the Department of Homeland Security. It would 
include border security, interdiction of traffickers, and 
search and rescue operations.
    Do you think to incorporate this Civil Air Patrol assets in 
the DHS mission would be helpful?
    Secretary Chertoff. I think it would depend on what their 
capabilities are and what the mission was. I would not put 
civilians in a role of being involved in apprehending or 
interacting with----
    Mr. Dent. We are not asking that.
    Secretary Chertoff. I can't assess the budgetary impact, 
but obviously additional eyes are always helpful. It just has 
to be handled in a way that integrates with the way we do our 
total operation. So this is something that I will ask the 
Border Patrol to look at.
    Mr. Dent. Well, we have legislation to do this with about 
500 or so civil aviation assets out there, and we are not 
asking them to do any type of apprehension, but just to provide 
more assets, which we clearly need along the border. I would 
love to have your help in moving this legislation.
    Secretary Chertoff. We will look at that.
    Mr. Dent. Thank you.
    On the issue, too, of CBP, we have a policy, I believe in 
this country now that if an aircraft headed for the United 
States from another country, within 10 minutes after the wheels 
are up, we basically run the manifests through the ATSP, 
automated targeting system for passengers. It is a good thing. 
I know we are moving in a direction of making sure that we get 
that information I think about 10 or 15 minutes before the 
wheels are up.
    Secretary Chertoff. Correct.
    Mr. Dent. Is that----
    Secretary Chertoff. Yes. I believe the rule has been 
issued. I do not know exactly what the effective date is. But 
yes, we are there.
    Mr. Dent. Is it 10 minutes before?
    Secretary Chertoff. I think it is going to be no later than 
10 minutes before, and they are going to start giving us the 
information earlier than that, but they want to have 
flexibility in case there is a last-minute show-up at the 
airport.
    Mr. Dent. I applaud that, and I appreciate that you are 
moving in that direction. I would like to just know when that 
actually occurs.
    On the issue of providing advance data at the borders for 
common-carrier bus or train, I believe we have had some debate 
and discussion in this committee about that issue. I think it 
is important that we adopt that same policy for people coming 
into this country by train or by bus. I know your commissioner 
of CBP, I believe, shares that view. I just wanted to get your 
thoughts about it. There was some heartburn in the committee 
when we discussed it earlier.
    Secretary Chertoff. I know certainly with respect to cargo, 
we do have a system of getting advance data. I don't know if--
--
    Mr. Dent. We are talking about people now.
    Secretary Chertoff. Yes. I don't know off-hand the 
practicality with bus because I don't know how people board. It 
may be sometimes you board the bus and you are at the border in 
2 or 3 minutes. So whatever we do is going to be something that 
doesn't gum up the process of moving people across the border, 
because there is a lot of flow.
    A train may be a little bit easier. I just don't know. In 
general, I will tell you I am a very strong advocate for 
getting somewhat more information at an earlier time at all of 
our ports of entry, and having much stricter document 
requirements. I can tell you that I still carry the scars on my 
back of the brickbats that have been thrown at me on the 
northern border for pushing this issue. I am respectful of the 
fact that people on both borders want to have a lot of free 
flow of people and trade, but I am also respectful of the fact 
that I have the responsibility to make sure that the 
consequences of missing a terrorist or a drug dealer are not 
visited upon the people who live in this country.
    So I am committed to you, as long as I am in this office, 
we will move forward in a mindful, but disciplined and 
determined way, to continue to raise reasonable security 
measures at our main ports of entry.
    Mr. Dent. Thank you. My time is up.
    Mrs. Christensen. Thank you, Mr. Dent.
    The Chairwoman now recognizes Mr. Langevin for 5 minutes.
    Mr. Langevin. Thank you, Madam Chairwomn.
    Mr. Secretary, welcome. I want to thank you for the job you 
are doing and for being here this morning.
    Mr. Secretary, I want to turn my attention to a couple of 
questions on cybersecurity and also Project BioWatch, and then 
if we have time I would like to get to BioShield and also talk 
about the security of nuclear reactors at research facilities.
    Starting off with cyber, you correctly realize that we have 
to make cybersecurity more of a priority than what it has been. 
To this end, I was very pleased that the President's fiscal 
year 2009 budget would direct $293 million to U.S. CERT, much 
of which will be used to implement the Department's components 
of the cyber initiative. While I still reserve judgment on the 
overall cyber initiative program, I appreciate the briefing 
that you gave me. I have also met with the DNI, who has briefed 
me on cyber as well, in my role on the Intelligence Committee.
    Again, though I reserve judgment, I think you are moving in 
the right direction on the cyber initiative. I am clearly 
concerned about our cybersecurity, of our networks and our 
systems. We have to be move more aggressively to strengthen our 
security, given the level of vulnerability that we now know 
that we have.
    I can promise you that, as Chairman of the Subcommittee on 
Emerging Threats and Cybersecurity, my subcommittee is going to 
exercise robust oversight of the cyber initiative. But again, I 
do believe, at least initially, that you are moving in the 
right direction. So thank you on that.
    Where I will turn my attention, however, is I was gravely 
concerned that the same budget that you put forward will slash 
funding for your Department's own chief information office. As 
you know, last year my subcommittee held a hearing to examine 
how vulnerable the Department's own networks are. It was 
revealed that the DHS networks experience some 844 cyber 
security incidents in 1 year alone.
    The Department of Homeland Security obviously must be able 
to secure its own networks before it can have any authority in 
other areas. Yet your own Department received a ``D'' from its 
FSMA scores. So my question is, how can you possibly justify 
cutting funding for cybersecurity initiatives within the chief 
information office's budget by nearly 50 percent?
    My other question, Mr. Secretary, is that I have been 
receiving mixed reports on the status of our BioWatch program, 
which you made reference to a minute ago. I would like for you 
to provide some clarification. BioWatch, obviously, is an 
important program designed to provide an early warning of a 
pathogen release, which could provide early treatments to those 
in need, thereby decreasing illness and death.
    Last year, it was reported that the third-generation 
BioWatch sensors which would deliver results much faster and 
require far less human interaction than the current generation 
technology--this new technology would be pilot-tested in fiscal 
year 2008 with full deployment to be completed in fiscal year 
2009, and in fiscal year 2012. Yet just last week, Keith Ward, 
the chief of the ChemBio Division at S&T, testified before my 
subcommittee that the third generation sensors wouldn't even be 
ready for pilot-testing until part of 2009.
    So when can we expect to see the deployment of our third-
generation BioWatch sensors? What are the obstacles preventing 
this critical technology from being deployed sooner?
    Secretary Chertoff. Well, let me answer the second question 
first. With respect to BioWatch, I am not familiar with the 
particular item of testimony that you are talking about. We do 
obviously want to get the third generation out and piloted as 
quickly as possible. Our 2009 request actually would call for a 
$34 million increase so that we can get moving on generation 
three. I can get back to you on exactly when we think the pilot 
testing would begin.
    With respect to DHS IT security, we actually have requested 
an increase of about $3 million from our base funding on the 
information security office. Now, the reason there appears to 
be a decrease from last year, there was a one-time plus-up of 
money so that we could build out some things at Stennis, which 
have been completed, or are at least underway. So that was kind 
of a one-time infusion for a capital budget item.
    But we do believe that IT security is important. I will say 
that our FSMA scores have actually improved over the last 
couple of years, and they are not regrettably out of line with 
that of other large departments, particularly DOD tends to have 
trouble in this regard. I think that comes back to your initial 
point. A lot of this stuff is classified and we can talk about 
it off-line. But one of the problems we have had in the 
civilian domain, as well as of course in the military domain, 
is the sheer number of entry points from the Internet into 
Federal domains. It is an awful lot to police.
    I think the good news is that what we are trying to do with 
respect to the cyber initiative is to change the deed by 
looking holistically at the whole Federal domain, and dealing 
with it in an integrated fashion, as opposed to every agency 
kind of on its own trying to plug holes like the little boy 
trying to put fingers in the dike.
    Mr. Langevin. Okay, thank you. I appreciate your answer. My 
time has expired. The one thing I would mention on the cyber 
initiative is once again consulting with privacy experts, civil 
liberties experts up front before it is launched I still think 
would be an important thing to do, since the criticism will 
come I am sure no matter what. Trying to address some of those 
up front before it gets launched would I think be helpful in 
ensuring the success of the program.
    I would like to follow up with you more on your 
Department's own cybersecurity issues and the FSMA scores 
especially. If you would get back to me on the more specific 
time frame of when the third generation bio-sensors will be 
ready to be tested would be helpful. I will have a couple of 
questions for you for the record on BioShield and also security 
of our research reactors. There is a recent GAO report that 
just came out that questions security of our research actors 
that still use uranium for power.
    Thank you for your presence here today and your testimony.
    I yield back.
    Secretary Chertoff. I will get back to you with those 
answers, and also I will tell you, we have gotten the privacy 
people involved up-front on the cyber issue.
    Mr. Langevin. Good. I am glad to hear that. Thank you.
    Chairman Thompson [presiding]. Thank you very much.
    I now recognize the gentleman from Texas for 5 minutes, Mr. 
McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I apologize for being late. I was on the floor debating the 
Foreign Intelligence Surveillance Act extension. I think I know 
where you stand on that issue.
    I also want to echo my colleague, the Chairman. I am the 
Ranking Member on the subcommittee that deals with 
cybersecurity, and how important we view this issue. I know you 
appreciate the importance of that as well.
    We have talked a lot about the border. I know you are doing 
a lot in Texas with respect to the fence. I know it is a 
difficult job, and I commend you for your negotiations with the 
landowners down there, and the flexibility that you have shown.
    I want to ask you about something that--and I am not sure 
what the DHS connection may be. I think I do, but Congressman 
Cuellar and I went down to Mexico City and visited with the 
attorney general there, as they grabbed one of the top drug 
cartel members. We had a one-on-one visit with President 
Calderon for about 1 hour, and talked to him about his 
initiatives in securing his northern border--30,000 Federal 
troops up to the northern border. I have to tell you, when we 
walked away, I think both of us did, that this man is sincere. 
He gets it. He is making, in his words, security the first 
priority for his country and in his administration.
    We share this border. We share the problem, and I think we 
need to share the responsibility for that. There is an 
initiative the administration has proposed, and Congress is 
looking at this initiative. In terms of what kind of assistance 
we can provide the Mexican government to combat these drug 
cartels, which in my view, we do a lot on the defense here on 
our side of the border. This is taking on the offense and 
dealing with the root cause of the problem.
    The military assistance, whether it is surveillance 
equipment, Black Hawk helicopters--all these things I think are 
in my view the right policy for this country. But I wanted to 
just get your thoughts on that while we have you here, to talk 
about that initiative and the importance you see.
    Secretary Chertoff. I have to say, President Calderon and 
his administration have been outstanding--I think maybe the 
best ever in terms of tackling what I think the Mexican 
president realizes is a very serious challenge to Mexico, and 
not just criminality, but literally a challenge to their 
control over parts of their northern border area, particularly 
when you look at the violence that has been visited on some 
public officials.
    His heart is in the right place. He is doing things. We 
have an unbelievable number of extraditions of serious major-
league players. We are involved in this, dealing with the 
Mexicans, as well as obviously with our counterparts in the 
U.S. Government. We have worked to build border violence 
protocols with our Mexican counterparts.
    One example of success, frankly, was last month a Border 
Patrol agent was killed by smugglers. I had the opportunity to 
visit with his family last week. Within a matter of days after 
the event, Mexican authorities had apprehended the person who 
was alleged to have committed the act of murder.
    So we have been working very closely with them. I spoke to 
my counterpart recently when he was up here. We talked about 
continuing to build on this level of cooperation and jointness 
all across the border, because it is a problem that touches 
both countries. It is a challenge to Mexico and it is a 
challenge to us as well.
    I want to strongly endorse this Mexican initiative. This is 
a real opportunity to lend support to this Mexican effort in 
terms of resources and capabilities that will really enhance 
not only Mexico's ability to deal with its northern border, but 
with its southern border, because they have challenges in terms 
of what is coming up from Central America. Some of the Central 
American countries have serious issues with the drug gangs and 
organized criminal groups there. We always have Mr. Chavez down 
in Venezuela looking to make mischief.
    So I think there are a whole series of reasons why a 
robust, strong Mexican enforcement capability is very much in 
the interest of the United States. I think anything we can do 
to help President Calderon will help us.
    Mr. McCaul. I want to thank you for your leadership. I 
think this package will be coming up possibly in June. As you 
point out, we have a unique window of opportunity that may be 
shutting on us if we don't take advantage of it. Of course, we 
will look at the plan and have our own views on it, but I hope 
the Congress will step up to the plate.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We have five votes that have been called. We will take the 
gentleman from Texas's questions. Before we go, I want to 
recognize Mr. and Mrs. Perlmutter in the audience. Their 
favorite son is on the committee, and we want to make sure that 
they are amply recognized. Your son has done well. We are proud 
of him.
    [Laughter.]
    Mr. Cuellar, for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Mr. Secretary, thank you again for being here this 
afternoon. Also, thank you for being down there in the valley 
on the levee, thinking outside the box on the levee fence. I 
thought it was a great idea, and I am glad it happened.
    Two questions, and again men and women in green, my same 
question--men and women in blue. We have done a good job of 
getting Border Patrol. In fact, I believe since 2004 we have 
added on over 5,000 Border Patrol. But when it comes to 
Customs, which are the people at the ports, it has been almost 
one-to-five, more Border Patrol than Customs.
    I support getting more Border Patrol. In fact, this last 
budget shows that you all are asking for 2,200 new Border 
Patrol, but only 539 additional Border Patrol. I heard at the 
field hearing from the Treasury union, and they said we will 
probably need about 4,000 to adequately staff the ports that we 
have.
    Your folks afterwards dismissed that, and they said, oh, 
that is not correct. But at the same time, I have been asking, 
and I think I asked you at the last breakfast we had, and I 
have asked your staff since November of this last year to give 
me the number. I asked them for that information, and asked 
them how much we need for border infrastructure. I think you 
already asked for $10 million, when I think the estimates are 
$4 billion or $5 billion, and you only asked for $10 million.
    I got a letter of response after I talked to you--a very 
nice letter. Whoever penned that letter did a great job, but it 
basically said nothing. It really said nothing. It really did. 
I almost was insulted by the response, whoever put that letter 
together. Why can't we just get a number for you all? You know, 
we just want to know so we can help you properly staff. I just 
want to know how many personnel do you need to properly staff 
the ports in the north and the south border, and what are the 
infrastructure needs for the southern and northern borders? I 
have been asking that since November, and it is incredible that 
I can't get a straight answer from you.
    Secretary Chertoff. Well, let me first, to put it in 
perspective, since fiscal year 2007, and including the current 
budget, we will have either gotten funding for or are seeking 
funding for 2,349 new CBP officers. Now, I don't know that I 
can give you a number for what the desired end-state would be, 
because a lot of that depends upon the building of new 
infrastructure, which is really I think at this point one of 
the obstacles in terms of the border crossings.
    That infrastructure--you know, there is a mix of people who 
have the responsibility for that funding. You have used the 
figure $4 billion or $5 billion. A lot of the funding is GSA 
funding. GSA owns a lot of the ports of entry. I cannot 
honestly tell you that I envision that in our budget we would 
ask for $4 billion to do infrastructure.
    It seems to me the best model for doing a lot of the 
infrastructure is--and of course, some of it is in private 
hands--is to do public-private partnerships. I know there are 
some communities in Texas that actually did through their 
public-private partnership programs, did issue bonds and fund 
new infrastructure, and then as that infrastructure comes on 
line, want to man it. So a lot of the responsibility for 
building the infrastructure is probably best discharged with a 
public-private partnership.
    Again, I am going to come back to the same thing I have 
said over and over again. There is a limited amount of pie. Our 
pie has grown, but it has not grown infinitely. In terms of 
building a lot of the infrastructure, particularly when we 
don't own it, I think that question has to be borne by others.
    Mr. Cuellar. Right. But again, I did not ask you to make 
that request. All I am asking is what is your best estimate as 
to how much infrastructure we need and how many personnel. I 
just don't understand that Homeland Security--and I have been a 
big supporter of you and I am trying to help you here--but I 
can't get the answer from you. I am not saying demand $5 
billion. I am not saying that. I am just saying, what is the 
infrastructure cost for the northern and southern borders, and 
how much personnel do you need to properly staff. I can't get 
that answer from you all, Mr. Secretary. I mean, what do we do? 
I am going to keep asking until I get the answer.
    Secretary Chertoff. Let me see what additional information 
I can furnish to you. You know, you have been around enough to 
know there is always a certain concern that if you put an 
estimate out, it suddenly becomes graven in stone and winds up 
being pushed back at the administration--now, you have said you 
need this. So I mean, since we have all been around the 
mulberry bush a few times, I am sure there is an inherent 
cautiousness about coming up with numbers that we could end up 
having to deal with as a----
    Mr. Cuellar. And put all the caveats you want to put. You 
have a lot of good attorneys there. Put all the caveats you 
want to put there. All I want to see is the number for properly 
staffing the ports and the infrastructure.
    Mr. Chairman, I am going to ask you for some assistance, 
because I have asked, and I am not trying to use this against 
you. I am trying to help you.
    Secretary Chertoff. I understand.
    Mr. Cuellar. I can understand. I think this is a problem, 
because in talking to your staff, they are afraid that it is 
going to put the administration in bad eyes. I can understand 
that. But if we make a request as Members of the Homeland 
Security, can we get this--and I don't care if you put 100 
caveats on it--but can we get this information, Mr. Chairman?
    Chairman Thompson. If I may interject here, if I might, Mr. 
Cuellar. Do we have a border security plan for the southern and 
northern borders?
    Secretary Chertoff. Well, certainly, and I have provided 
this in terms of Border Patrol that has laid out a specific 
plan. I don't know if there is a single plan for all the ports 
of entry because the ports of entry vary a great deal. I am 
quite sure there are plans for individual ports of entry about 
what we need to do in terms of existing infrastructure and----
    Chairman Thompson. I appreciate you, Mr. Secretary, but I 
think what we are trying to get at is if we have a border 
security plan for the Department of Homeland Security that we 
use as a guidepost for what you do and what we can as 
policymakers, I think that would get us where we need to be. I 
think the gentleman from Texas is just saying, ``I need to see 
what you as a department see that we need to fortify our 
borders.''
    It is up to us as policymakers and appropriators on the 
other hand to try to get you the money to do it.
    Secretary Chertoff. I will respond to that.
    Chairman Thompson. We are not trying to trap you. Trust me.
    Secretary Chertoff. I know that.
    Chairman Thompson. He is a much better gentleman than that.
    Secretary Chertoff. I know that. But you understand the 
cautiousness. I mean, there is always a cautiousness about this 
because: (A) Because there are a lot of caveats; and (B), 
because there are a lot of other players who have major 
responsibilities in furnishing this.
    Chairman Thompson. Mr. Secretary, we understand that, but 
you know, we have to have a plan. Whatever it is, we will go 
from there. Thank you very much.
    The gentleman's----
    Mr. Cuellar. Yes, just to close.
    This last appropriation bill, we added about 10 pages, and 
there is a request there by January 31, which just passed 
already, for you all to come up with a border plan. So there is 
some specific language there that talks about infrastructure 
and other needs.
    Secretary Chertoff. All right.
    Chairman Thompson. Thank you very much.
    We are going to ask Ms. Jackson Lee to step in the Chair. 
We will continue the hearing going forward, and the Members 
feel free to go vote and come back, and we will recognize you 
in order. Thank you very much.
    Ms. Jackson Lee [presiding]. Mr. Secretary, it is a 
pleasure. Thank you very much for your presence here today.
    I would like to engage in a series of questions. They are 
going to be somewhat rapid-fire and I appreciate very much your 
answers.
    I am going to go through the budget and particularly begin 
with the transit security grants, and I want your explanation 
to explain the request of $175 million for rail and mass 
transit grants, when Congress just appropriated $400 million 
for fiscal year 2008. So why are we cutting drastically those 
grants?
    I also want to know why the budget request for the trucking 
industry security grant program is half of what was needed in 
2008, despite the fact that we chaired a hearing that suggested 
that there was a great need. So it is a cut from $16 million to 
$8 million, and I feel that we have not met our task.
    If you could just start on those two questions, I would 
appreciate it. I have a series of others.
    Secretary Chertoff. First of all, let me say that what we 
are requesting with respect to transit and rail security grants 
is exactly what we requested last year. As I have said 
previously in the hearing, my experience now having entered 
year four of my tenure, is that Congress tends to put more 
money in grants that we request. We come up with requests that 
are based upon, given the fact that there is a budget and there 
is a limited amount of pie, that seems to be the best 
allocation over a period of time.
    So when Congress enacts more, we recognize Congress may 
have a different view. In this case, we are adhering to the 
amount of money that we previously thought was appropriate in a 
disciplined investment. I might say, however, if you look over 
the last several years, just fiscal years 2006 through 2008, 
there has been a total of $312 million that we have granted 
just to the top eight cities or urban areas. That is a huge 
amount of money that is out there.
    In addition to the actual grants, we have in-kind money, 
and we have $30 million we are requesting for our mobile VIPR 
teams, which are actually surge personnel that we put into mass 
transit, which provides an additional security measure. Of 
course, there are also transit funds available through other 
programs like the urban area security initiative.
    Ms. Jackson Lee. Well, Mr. Secretary, if I might, we had a 
hearing with a number of experts from the area who frankly said 
that they needed more resources. I know what the Homeland 
Security Department is doing because they have to keep it in 
sync with the President's budget. I think the President is 
wrong, and I think the Department of Homeland Security is 
wrong, when we talk about the needs of this particular area, 
when we have witnesses from the region who have suggested that 
with the massive influx of trucks that this whole idea of 
security is going to be imperative, and I think it is something 
we need to reconsider.
    I indicated to you that I have a whole long list of 
questions, so let me just go to the idea of the TWIC card, and 
specifically ask unanimous consent to at some point 
appropriately to put into the record the Port of Houston 
Authority letter dated February 12, 2008. We were in Houston on 
Monday, and had an opportunity to hear some concerns again on 
the TWIC card, particularly in a region that I think is 
somewhat typical of what we have to address with the TWIC card.
    We note that some of the estimates on how many people 
needing a TWIC card were done more than 2\1/2\ years ago, and 
this letter in particular says--and you don't have it in front 
of you--so I apologize. I will just give you a brief summary. 
The East Harris County Manufacturers Association estimated that 
we would need 180,000 cards for its employees and contractors. 
Since testifying, the U.S. Coast Guard has redefined secure 
areas and has allowed facilities to reduce the footprint of 
their secure areas. We don't know if that is very positive. 
This will reduce the number of cards required, but the number 
for the Port of Houston will still be more than 300,000 cards 
versus the original estimate of 35,000 cards.
    The chairman of the Port of Houston Authority has submitted 
his documentation 8 weeks ago, 2 months ago, and has yet to get 
approved. I say that this is kind of a budget issue. My 
question is: what is the status of the readers? My information 
from experts on the ground, including the Coast Guard, have 
indicated that they are very concerned that there will not be 
compliance by September 2008. The readers are not in place. But 
more importantly, 300,000 in one area alone, and taking 8 weeks 
on one card of the chairman of the board of the Port of Houston 
Authority.
    I would imagine that there needs to be either funding, 
personnel resources, enhanced improvement of the FBI's checking 
system--all of that to me is personnel and resources. Have you 
asked for added help in the budget for what seems to be a 
pending crisis?
    Secretary Chertoff. I have not, of course, seen the letter. 
It was dated February 12. We have asked for more money for 
TWIC. We are well on our way in terms of enrollments and pre-
enrollments. I think I testified earlier, we have about 150,000 
pre-enrollments and 78,000 enrollments. We are moving this 
across the ports in a systematic fashion. I think we are on 
track to achieve what we need to achieve.
    The issue with the readers--the readers are being tested 
now. This is one of these real-world issues where you have to 
see how the reader actually works in the demanding environment 
of the salt air that you have. So I am comfortable that we have 
the money. We are requesting the money in place to keep this 
program moving forward.
    Ms. Jackson Lee. Let me just say, Mr. Secretary, maybe I 
can submit to the committee and submit it to me, I would like 
to have a personal response or direct response as to how the 
budget request will match one area's 300,000 estimation now, 
and that must multiply exponentially to a number of other 
places where the estimation was maybe 2\1/2\ years. So I want 
to know how that budget request will match doing what we need 
to do.
    If you could give the additional response of the 8 weeks it 
takes for in this instance a known American citizen, the 
chairman of the port, who has not yet gotten his TWIC card, 
which means that we have a fracture in the system. Do we have 
money in place--and I ask that in writing--that addresses the 
system of processing, as well as the readers? I am concerned 
that that is the case. I appreciate if you could put that in 
writing.
    Secretary Chertoff. Sure.
    Ms. Jackson Lee. The Nation's transportation systems are 
inherently open environments. In the Department's own budget 
justification it says there is a very real ongoing threat to 
the transportation security, particularly involving mass 
transit, considering the bombings in Madrid during the summer 
of 2004. But the President's fiscal year 2009 budget is nearly 
$10 million less than the 2008 budget, and frankly any of us 
who travel on mass transit, we thank them for the convenience, 
but we know that there are vulnerabilities. Do you feel that 
this request is adequate to secure all modes of surface 
transportation? What percentage of your overall budget is 
dedicated specifically to rail and mass transit security? Which 
I frankly believe is very much missing.
    Secretary Chertoff. Well, we are devoting a considerable 
amount to rail and mass transit. As I have indicated, we have 
requested the same level of grants as last year. We have our 
VIPR intermodal teams. We also have other programs where we 
test various kinds of sensors or devices in mass transit. We 
are working with a lot of our transit officials because they 
have in addition to the transit grants, other grants, in order 
to make sure they have the proper equipment deployed, and also 
to make sure that they have some support for a limited number 
of personnel costs.
    In fact, I was up in New York a couple of weeks ago, and 
there was a really remarkable unanimity of views that we are 
doing exactly the right thing in dealing with what is probably 
the biggest and most vulnerable transit system in the country.
    Ms. Jackson Lee. Again, Mr. Secretary--I am sorry--the 
most, the biggest----
    Secretary Chertoff. The biggest and most vulnerable transit 
system in the country is New York.
    So you know, again, Rome wasn't built in a day, but I think 
we are making very good progress in this area.
    Ms. Jackson Lee. But wouldn't you think that if a Member of 
Congress on Homeland Security reads the budget and sees that, 
for example, that FTEs have been decreased to 230? That is 96 
less from last year. Wouldn't we have the reason to be 
concerned about the commitment to surface transportation? We 
have been very fortunate, but yet we are not without 
vulnerabilities, and cutting staff seems to be drastic to me.
    Secretary Chertoff. I am not sure exactly what line item 
you are talking about with FTEs being cut. I know with respect, 
for example, to our VIPR teams, we are actually either 
maintaining or increasing the increase that we got in 2008. I 
think I am pretty good with the budget, but I would need a 
little bit of help in knowing exactly what line item we are 
talking about.
    Ms. Jackson Lee. We will get that to you. There is a cut of 
96 personnel.
    In fact, let me move to the VIPR concept, if I might have a 
question here. What has been the reaction of State and local 
stakeholders to the increased use of VIPR? Are they being 
included in the decision to deploy these teams? I was at my 
airport yesterday with the transportation security 
administrator. We use them well at Houston Intercontinental 
Airport, but I would like to know whether or not we do have 
that engagement with the local areas? How is the coordination 
between TSA and the boots-on-the-ground on when and how VIPR 
teams are going to be used?
    We expanded the VIPR teams, I understand. I would like to 
ask for more money, but I will leave you without the money 
question. Just say what kind of consultation do we have with 
local authorities.
    Secretary Chertoff. We always consult with the local 
authorities. I think there was one hiccup last year that we 
sorted out. But I have spoken to some of the local authorities 
myself. They are happy. We do consult with them. We are also 
expanding the concept so that it is not only the TSA that is 
providing personnel, but we are cross-training, for example, 
Coast Guard and CBP and ICE personnel so that we can surge them 
in under some circumstances as well.
    So that is a force multiplier, and by all accounts it has 
been a popular program. I haven't heard anybody complaining 
about coordination. Obviously, coordination is an important 
part of what we are doing.
    Ms. Jackson Lee. Thank you, Mr. Secretary. Thank you for 
your patience. I just have about one or two more questions. I 
see that the bells may ring again, and we may give you at least 
a brief recess if Members have not come back.
    But the Chairman asked in a letter some time ago about the 
Department's plans for 2009 transition. I think it is important 
to get your response on the record. You didn't believe it was 
appropriate to provide a transition plan to the Congress before 
it was finalized and provided to the incoming administration. 
If I may editorialize, I respect that answer, and I imagine 
that the Chairman would respect it as well.
    I don't think we are suggesting, and I don't think the 
letter suggested, that you would step into the place of the new 
administration. I think what it does suggest is that Homeland 
Security has no breaks. It has no time off. It has no vacation. 
It has no transition time, frankly. We don't even want to utter 
such a thing for anyone to suggest that we are not ever-
vigilant.
    So you have testified that consolidation of congressional 
jurisdiction would greatly benefit the Department's efforts to 
carry its mission, so I am at a loss as to why in your response 
to this committee's inquiry would you then cite the Homeland 
Security Act and executive privilege. So basically, a plan is 
that we are not left vulnerable, and I think that is 
acceptable, and I would appreciate it if you would answer that.
    Let me just quickly put two more questions on, if you can 
take notes on this one, because I think we are about to hear a 
series of bells. Quickly, the Committee on Foreign Investment 
in the United States, puts one credit to the work that you have 
done on this issue, and revising your presence on the 
committee. But how much of the Department's fiscal year 2009 
budget request will be allocated to Department-related CFIUS 
work. I held a hearing on it. I don't think we have touched the 
surface of intrusion by foreign investors and owners. We 
welcome their investment. We don't welcome their takeover. So I 
want that.
    Then on emergency grants, I am still shocked about 
Hurricane Katrina. Do you think the cuts in funding for State 
and local programs, including $750 million from the State 
homeland security, is acceptable?
    The bells have rung, so I have given you the management 
one, and I will accept 2-minute answers, and the rest in 
writing. But I will start with the one about the transition.
    Secretary Chertoff. I think with respect to transition, we 
are working on a plan. We have populated No. 2 or No. 3 
positions in all of the components in the major operating 
elements with career people. We are reducing to writing the 
plans and doctrine that we have developed over the past several 
years.
    Ms. Jackson Lee. This was transition?
    Secretary Chertoff. This is for transition purposes. The 
purpose is to make sure that when we leave office, the 
Presidential appointees and other political appointees----
    Ms. Jackson Lee. But besides executive privilege, will you 
consult with Congress and have something that responds to a 
vulnerability in case something happens?
    Secretary Chertoff. Yes. I believe the deputy has written 
back and has outlined, and has also briefed to a fair level of 
detail exactly what we are doing with transition.
    Ms. Jackson Lee. Maybe you can get back with the Chairman 
again. I know there was a letter written. I think the whole 
committee would like to hear back.
    Secretary Chertoff. I would be happy to provide that kind 
of briefing. I think we owe it to you.
    Ms. Jackson Lee. I will yield on that answer. Can you 
quickly give me on the CFIUS and the grants cut of $750 
million? I truly think that we are on the wrong track for 
cutting homeland security emergency grants in light of the 
tornadoes and others.
    Secretary Chertoff. The CFIUS--I can't tell you. It is in 
the policy office. I can't tell you exactly what the budget 
number is. I can tell you that it gets a significant amount of 
attention, including a significant amount of my own attention. 
I see every CFIUS case that comes in. I look at it whether it 
is an issue or not. Most of them are not a big deal. Some of 
them I spend a fair amount of time on.
    On the issue of emergency grants, we have kept our request 
for EMPG grants at the same level as last year. But let me add, 
a huge amount of money with respect to tornadoes, it doesn't 
come through the budget process. It comes through the DRF--the 
disaster recovery fund. That is all done through emergency----
    Ms. Jackson Lee. I understand that.
    Secretary Chertoff. That is a huge amount of money.
    Ms. Jackson Lee. I understand that. Let me, because the 
vote is on, simply say this: I do think that it will impact 
States enormously for the President's budget to have a $750 
million cut in the homeland security grants. You know that we 
will advocate against it and try to fix it. I do thank you for 
your answer. We will probably be back in touch with you. I am 
going to give you a brief recess.
    The committee is now in recess. Thank you.
    Thank you, Mr. Secretary, for your answers.
    Secretary Chertoff. Thank you.
    [Recess.]
    Mr. Perlmutter [presiding]. Mr. Secretary, the first thing 
I wanted to do was just, one of the things on page 14 of your 
report to us talked about increased responsiveness to 
congressional inquiries as one of the accomplishments. I would 
have to agree with that. I want to thank your Department and 
your staff, in particular there are several things, and this 
goes into your notes which has specifics about dropped from 5 
weeks to 2.5 weeks and things like that. Mine is more 
anecdotal.
    But I did want to commend your office and the Department, 
in particular TSA. There are always issues concerning TSA and 
lines and Red Team probes and things like that. But the TSA in 
terms of responding to me was excellent.
    Second, on special immigrant visas and dealing with what 
was a mistake in my opinion in the PATRIOT Act that caught up 
the Hmong tribe, the Montagnards and a number of other allies 
of the United States, and sort of swept them into this position 
of being terrorists, if you will, and then unable to get green 
cards or citizenship and the like. Your Department worked with 
well with our office and with the State Department, and I want 
to thank you on that.
    Then the last was also with respect to Dr. Runge and the 
medical department. There are other places, but I just really 
do want to highlight those.
    Secretary Chertoff. Thank you. I appreciate that. I 
appreciate your doing that.
    Mr. Perlmutter. Now, I want to unload on you--not really. 
Let us first start and talk about the National Applications 
Office. We had a couple of emergency meetings, both as full 
committee and also the Intelligence Subcommittee, where we are 
very concerned in the use of the satellite technology and the 
capacity that that has, where we are in developing the legal 
and the privacy framework which we have been promised now for 
months.
    Secretary Chertoff. As I said this morning, I am supposed 
to meet with the Chairman this afternoon. We have completed a 
draft of the charter and other supporting documents. I was 
going to discuss that with him. Then we have been in the 
process of trying to schedule today and tomorrow a session to 
brief the committee on this. We basically have a framework 
which, as I said this morning, first of all makes it explicit 
that we are not--the National Application Office does not 
circumvent, evade or ignore any existing or future legal 
restraints on the use of this technology.
    Second, it sets up a process for reviewing the proposed use 
of the technology to make sure it complies with the law. If it 
is a novel use of the technology, to examine whether there are 
some requirements that have to be met like a warrant before it 
is used, and if so to require a warrant.
    Third, although this was always intended, we make it 
explicit that the NAO will not entertain or consider requests 
for all written communications to be intercepted. That will 
continue to be handled under Title III of the Omnibus Safe 
Streets Act and the FISA legislation where it is customarily. 
So it should resolve all those issues quite explicitly.
    Mr. Perlmutter. I think from the committee's standpoint, 
certainly from my standpoint, we just want to see it.
    Secretary Chertoff. Yes.
    Mr. Perlmutter. So, good.
    Second, and you alluded to it earlier--and I know I missed 
some of the testimony--but with respect to the grants, the FEMA 
grants, whether it is the assistance to firefighters or the 
SAFER grants and those things. I know that from my point of 
view, the committee's point of view, these grants are very 
important for both our law enforcement agencies, as well as our 
firefighters. Clearly, your budget cuts what the Congress 
presented in its last appropriation. I would ask you to go back 
and revisit your budget on that. That is more of just a 
statement.
    Third, National Guard. We have had a conversation in this 
committee and with you that the National Guard is serving dual 
purposes. They have been put on the frontline and active duty 
status, yet they have a tremendous responsibility, and in my 
opinion the first responsibility, is to be at home ready for 
disasters of whatever kind. The reports continue to come back 
that we don't have the equipment; the individuals, particularly 
engineers and contractor types that are within the National 
Guard are all in Iraq and not here; and that there really is a 
dilemma for homeland security in the event some major national 
disaster hits.
    How do you respond to that?
    Secretary Chertoff. Well, I know General Blum who is the 
head of the National Guard Bureau, and Assistant Secretary 
McAllen and others have talked about this. I think my 
understanding is the percentage of National Guard that is 
overseas at any one time is really quite a small percentage of 
the total Guard that is available. The equipment that goes 
overseas typically is war-fighting equipment, which I don't 
think we would envision using in an emergency.
    I am comfortable in my dealings with the Guard personnel, 
both having dealt with them in terms of planning and in terms 
of observing them in action, that they are fully capable of 
meeting their missions here. It is a question we have asked 
them over the last couple of years.
    Mr. Perlmutter. Okay. Last question, and I know my time is 
up, but assume for the moment that neither your budget nor our 
amendments to your budget or our appropriations really go 
through the whole process and are signed by the President, and 
we operate under a continuing resolution until next year. What 
three or four things do you think have to be changed from 
today's budget--the 2007-2008 budget--on a going-forward basis?
    Secretary Chertoff. Well, I really hope that that is not 
what we are facing. I think the things that we need in a plus-
up, we need to continue building the fence. That is a 
continuation of what we are doing. I think the investment in 
cyber is very, very critical, and that is a significant step 
up. A lot of this discussion has to be in a classified setting, 
but it is no secret that we have talked about the increased 
vulnerability of our cyber assets and the consequences to our 
national economy, not only the exfiltration of data, but of 
potentially efforts to disrupt our system.
    So I think it is important to make sure that we have our 
budget and what we require in order to continue to protect the 
country as we have laid it out.
    Mr. Perlmutter. Okay. Thank you.
    Now, I would recognize Mr. Etheridge from North Carolina 
for 5 minutes.
    Mr. Etheridge. Thank you.
    Thank you, Mr. Secretary for being here. I apologize for 
being in and out today because I had other committees I had 
some responsibility in.
    As you know, you have just touched on it, but I want to go 
a little deeper into it. Congress created the assistance to 
firefighter grant program because we recognized the role 
America's fire service plays in protecting our communities, and 
that basic training and equipment formed the foundation for a 
robust homeland security strategy. I think your Department 
recognizes that and you have spoken to it before.
    The International Association of Firefighters said that 
President Bush has proposed eliminating or dramatically 
reducing funding for important programs that make our 
neighborhoods, our citizens, and our country safer. I think he 
is right on the money on this. Since 9/11, we have been asking 
more and more of our local first responders, as you know. They 
have stepped up. They have really delivered not only for 
natural disasters, but other things, and have often put their 
lives on the line to keep our homeland safe.
    The administration budget proposal for 2009 only funds the 
assistance for firefighters program at a $300 million level and 
eliminates the safe firefighter staffing program. These funds 
have supported critical upgrades in our first responders' 
capability in our communities that, as you well know, there is 
a huge demand for. Annually, the Department receives in excess 
of over $2 billion in applications for assistance for 
firefighters' grants, which would seem to indicate there is a 
huge need.
    Two questions. No. 1, what is the basis for these kind of 
draconian grant cuts? Second, in the wake of Hurricane Katrina 
and the continued threat against the homeland of major storms 
that are much more severe than we have seen in recent years, 
how do you think the cuts in funding for State and local 
programs, including the $750 million cut to Homeland Security 
grant programs and the elimination of the metropolitan medical 
response system, will affect the ability of our first 
responders to prepare, respond and meet these kinds of national 
or manmade catastrophic events against our country?
    Secretary Chertoff. We are back with this kind of always 
interesting discussion about what is a cut. I mean, we are 
funding these major programs. We are requesting funding at the 
same level we requested in prior years. It is clear there is 
some philosophical disagreement. I mean, first of all, I take a 
backseat to no one in my respect for firefighters and first 
responders. The question is, who pays for firefighting? Is it a 
local function or is it a Federal function?
    Our fire grants, which we are proposing to fund that at the 
rate at which we did propose last year--$300 million--are meant 
to build capability, training, or to direct it to homeland 
security. SAFER grants are really sustainment grants, they are 
maintenance. You know, there are some people who take the view 
that the Federal Government ought to simply pay moneys as a 
kind of revenue sharing to localities for police and 
firefighters--you know, ordinary garden variety functions not 
necessarily tied to homeland security. That is not what the 
administration's position has been.
    Mr. Etheridge. Well, Mr. Secretary, in all due respect, 
these are not those kind of grants. These are categorical, 
targeted grants for a specific purpose.
    Secretary Chertoff. But the SAFER grants are really 
basically designed to deal with ordinary types of activities. I 
am not saying they are not valuable activities, but it is not 
the same kind of capability-building that the fire grants are, 
which we are funding.
    The second issue on the State homeland security grants, 
again we are--if you look at our request--first of all, this is 
not a fully risk-based program. This program awards a 
significant share of money based upon a fixed formula where 
every State gets a minimum. We propose to fund it at slightly 
less than the level we proposed last year, but then we have 
added $110 million in a new program which will be much more 
targeted to be risk-based.
    Here, what the difference is: Do we want to be more risk-
based, or do we want to be more formulaic? Our proposal is 
basically to be more risk-based.
    Finally, you know, there is just the bottom-line issue, as 
I said earlier, about the pie. I have no doubt that if we gave 
more money out, it would be put to use for purposes. I have no 
question about that. But what is it coming from? What are we 
going to take the money away from? There are other things in 
our Department where only the Federal Government does the job. 
Are we going to take the money away from those functions? Then 
the job won't get done. Is it going to come from another 
department? Then you know, in fairness to my colleagues, they 
ought to be heard on the issue of whether they want to lose 
those things.
    Every Governor I know, and all of my counterparts in State 
government, wrestle with the same issue. Many perfectly 
reasonable requests for money have to be sorted and traded off 
against each other to come within the budget. That is 
essentially what we are doing here.
    Mr. Etheridge. Mr. Secretary, I can appreciate that, having 
been State superintendent of the schools in North Carolina for 
8 years, handling one of the largest budgets, I know something 
about prioritizing. But the key piece is always, as we say in 
the military, for those at the tip of the spear who are the 
people out there who are the first responders, if they don't 
have the resources.
    I will close with this--I went this past week to present a 
homeland security grant to a local fire department, two as a 
matter of fact. One was getting a truck. Normally, folks would 
say that is their responsibility. However, this rural 
department, their revenue base is $50,000 a year. You and I 
know what the costs of a new fire truck is. They would just get 
in a water wagon, because in a rural area you don't have fire 
hydrants. You go out with your tanker of 1,200 gallons, and 
when that is out, you are in trouble. They couldn't crank it. 
It wouldn't crank. It was 33 years old. So I think that is a 
great partnership with the Federals.
    A second one was funds that had been granted by the 
Department to buy equipment for breathing mechanisms that this 
department didn't have. Now, one would say, well, they ought to 
buy that. The problem is, a small department again, and an 
Interstate just happens to go through both of these 
communities, and at any given time they could have a chemical 
or biological attack on the highway. Guess who is the first 
person to show up? These folks are. So if they don't have the 
resources, they can't respond, and I recognize that.
    Thank you for answering the question. Please keep this in 
mind. I think this is a critical piece. Sometimes we tend to 
forget these areas out there. Even though they are isolated, 
Interstates move through them, rail lines move through, and on 
any given day they could be called upon to do the same thing we 
would be doing here in Washington or New York or any other 
area.
    Thank you, Mr. Chairman. I yield back.
    Mr. Perlmutter. The gentleman yields back.
    Mr. Carney from Pennsylvania is now recognized for 5 
minutes.
    Mr. Carney. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. It is always good to have a 
constituent testify here.
    You spoke about the budget last week. One thing you 
mentioned was the problems the Department was having managing 
contracts. You said--and please allow me to quote here--``I am 
constantly reminded by Congress of the fact that there is 
concern about our over-reliance on contractors to manage 
contracts. That is a fair point. But there is only one 
corrective. You have to hire permanent employees to manage 
those contracts, and in order to do that, we need to have the 
money to hire those people. Continually trying to punish us by 
cutting our management budget in order to induce us to hire 
more people is literally working at cross-purposes.''
    At another point, you also talked about cutting the budget 
for managing procurement. I went back and looked at your last 
year's budget request and you asked for $28.5 million, and you 
got every penny of that $28.5 million. So I guess I am not sure 
quite what we are talking about here. If you are saying you 
needed more funding last year, did you say that?
    Secretary Chertoff. No. I don't think I had anything 
particular in mind. I think if I go back historically over the 
last several budgets, there was a tendency on the part of the 
appropriators when in meeting the budget number, we would get 
tagged with respect to issues involving management--you know, 
cut the number of lawyers, punish the under secretary for 
management's office. It has been worse in some years and better 
in others.
    I think actually we did pretty well last year in 2008, but 
if you go back, it has been uneven in the history of the 
Department. There is a tendency when you talk about tradeoffs 
to squeeze the management line when that is in fact the line 
that provides the capability to do all the things we have 
talked about.
    Mr. Carney. I agree. You requested $42 million this year, I 
believe?
    Secretary Chertoff. Yes.
    Mr. Carney. Is that enough?
    Secretary Chertoff. The answer is yes. It will let us do 
what we need to do. We are building a participant program to 
give us the internal capabilities to manage things much better. 
Frankly, we are getting the experience at managing better. So 
it is both additional money and additional bodies, but also 
additional capability.
    Mr. Carney. Okay. So $42 million you think has it covered?
    Secretary Chertoff. Yes. It is going to be good for this 
year.
    Mr. Carney. All right. Because we do have, as you know, as 
your statement has indicated, a lot of procurement issues.
    Secretary Chertoff. Yes.
    Mr. Carney. One thing I really want to talk about now, kind 
of a segue into that, is P-28 again. I know Mr. Reichert 
mentioned is many times. I was just out on the border in 
January, so I was going down. On a good way, it works 30 
percent of the time, we were hearing from the folks there. What 
they could rely on was 30 percent of the time, of the P-28 
project.
    My question is--I have a lot of questions--but is the P-28 
kind of a beta test for the rest of SBInet and using technology 
for the northern and southern borders? Or is it just kind of a 
unique thing?
    Secretary Chertoff. Let me tell you what it is. It is going 
to take a minute or two to lay out. SBInet is not any one 
particular type of technology. It is the plan for deploying 
technology across the border in a way that recognizes that the 
challenges are different. For example, part of SBInet is we are 
continuing to acquire unmanned aerial systems. Part of it is we 
are going from I think four or six what we used to call ground-
based radar and we are now calling mobile surveillance systems, 
to 40. Those are in the trucks.
    Mr. Carney. How significant a component is the P-28 part of 
it?
    Secretary Chertoff. The answer to that is it is a 
significant component, but exactly how much of the border will 
be under this kind of a model will depend on a couple of 
things: first of all, how well the equipment actually works in 
the environment of the border itself in real life; and second, 
operationally, to what extent it is a value-add to other kinds 
of technology.
    When I went down last week, I had a really specific 
conversation with the Border Patrol. Here was my bottom-line 
question, and this is after looking at all the stuff. I said, 
look, I don't care one way or the other whether Boeing ever 
gets another mile of stuff to do. If you tell me that this is 
too complicated, that it is not a value-add, and you think we 
are better off with a ground-based radar and whatever it is, I 
am perfectly happy with that. Now, that is more manpower-
intensive. If you think it is a value-add in some areas, then 
great, I am willing to pursue that. If you think it is a value-
add across the board, that is great, too.
    I am a pretty good cross-examiner. I left convinced that it 
is a value-add, not in every place on the border, but in some 
places on the border.
    Now, what are the lessons that they have learned living 
with this system for a few months? I think first of all, there 
were some problems in the original equipment that was delivered 
and the people who put together the package at Boeing.
    Mr. Carney. Yes, we were told it was not the A-team.
    Secretary Chertoff. Right.
    Mr. Carney. And they----
    Secretary Chertoff. I have some candid rules with the CEO 
of Boeing about this, and they replaced them, and what I hear 
back is they are happy now.
    The second thing is, I think that because of that initial 
issue, there were some problems with the underlying components 
that have been almost entirely--maybe not 100 percent, but 98 
percent--corrected.
    The second piece, though, was something we only learned 
living with the system, which is what is operationally helpful 
and what is operationally not helpful. So there are certain 
elements in the system that I think we know now we need to make 
better, because we are not getting full use out of what it can 
do. Then there are some things, frankly, I think they spent a 
lot of time on. And you know something? I am not sure it is 
worth it. I am not sure the value-add is there, and we are 
going to stop doing it. I can be even more specific.
    Mr. Chairman, I would be willing to spend a few more 
minutes, and I don't want to take time away, to really lay this 
out to you, because I know you are interested in it, and I 
think it is worth talking about.
    Mr. Perlmutter. I think we only have one more--Mr. 
Pascrell--after this. So please go ahead.
    Secretary Chertoff. I will give you an example. They spent 
a lot of time in the last few months trying to make the common 
operating picture appear in the vehicles that are out in the 
field, the whole thing.
    Mr. Carney. Yes?
    Secretary Chertoff. Not just the map, but the video, et 
cetera. So I was talking to the agents, and they said, you 
know, we are not really sure we want all this stuff. We are not 
going to be sitting out there in the middle of nowhere looking 
at a video feed and manipulating everything. Just give us the 
icons on the map. So that is what I mean by operational.
    Mr. Carney. I got that. You know what? That should have 
been part of the original contract. They should have had some 
input into that whole thing at the very outset, and they 
didn't. The contract precluded them from having input.
    Secretary Chertoff. There is a lot to be said for that 
position. I asked that question as well, and you may very well 
be right. I will tell you again, I am----
    Mr. Carney. I am just repeating what we heard in the Tucson 
sector.
    Secretary Chertoff. I will recapitulate for you--I just 
think it is part of the transition, the legacy, is to try to 
unpack for you what we have learned in this process. The 
argument originally for doing it the way they did it was, the 
Border Patrol is locked into a way of doing business. Let us 
think outside the box and have the contractor come to us, using 
the benefit, for example, of what they have seen in Iraq and 
stuff like that, and come up with a model that works.
    I think in retrospect that probably was not the best way to 
do it. I think operative input earlier on would have been 
better, but at least you understand what the theory was. Okay, 
that is a great lesson we have learned. It is a lesson, by the 
way, that S&T is using now. We have our operators involved in 
the initial project teams on everything that we are doing with 
research. So you know, we have adapted to that, and now we have 
the operators moving at every subsequent stage.
    So the bottom line is, I think it is a value-add. It is not 
a panacea. I continue to think that basically the way we are 
moving, which is to be very practical and operator-driven, and 
now having a really good relationship with the contractor and 
the operators, I think this is promising.
    Mr. Carney. Are we going to take acceptance? If so, when?
    Secretary Chertoff. I think the likely answer is yes. It 
hasn't been finally reviewed, but I would imagine within the 
next few days we likely will.
    Mr. Carney. I am sorry. You will review or accept it?
    Secretary Chertoff. I think we are likely to accept. It 
hasn't been formally made, but I am inclined to think we are 
going to accept.
    Mr. Carney. Now, you said it is not perfect.
    Secretary Chertoff. It is not perfect.
    Mr. Carney. So how close to imperfect----
    Secretary Chertoff. I think we have resolved all material 
problems. Where there are immaterial problems, we will get a 
credit. I liken it to, you know, you get a car and there are 
some problems with the trim or maybe there is a problem with 
the radio or the CD changer or something like that, and you 
take a credit for it.
    Mr. Carney. So DHS has a lemon law, then? Is that what you 
are saying?
    Secretary Chertoff. No. I think we do what anybody does. 
When I bought my house, in the end we did an inspection. You 
probably did the same thing, too. We did an inspection and 
there is some stuff, you say I am not taking the house until 
you fix it, and then there is some stuff where you say, you 
know, I will live with it, but give me a credit. That is what 
we are doing here.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Perlmutter. The gentleman's time has expired. The 
gentleman from Pennsylvania yields back.
    The gentleman, Mr. Pascrell from New Jersey, is recognized 
for 5 minutes.
    Mr. Pascrell. Thank you.
    Mr. Secretary, thank you again for your service, but I am 
here to ask some questions and I hope you will respond to them.
    First, I want to get into very quickly because I want to 
get into the budget specifically, but we know that the amount 
of fraudulent documents that people use to get into this 
country has proliferated. We know from the records of Interpol. 
I want to know what money you have put into this budget, and 
are you cooperating with Interpol to stop it. This is an 
immediate danger.
    Secretary Chertoff. Let me tell you what we have done in 
the budget on the fraudulent document issue, but it is not just 
a money issue. Obviously, we have put increased funding into 
our border programs and ICE which include our fraudulent 
document unit, as well as capabilities at the border and ports 
of entry that make it much harder to get through.
    But in addition to that, we have initiated new procedures 
at our northern and southern borders now that sharply restrict 
the types of documents that can be presented, which makes it 
easier for our border inspectors to detect if there is a 
fraudulent document.
    I repeat again, as I did earlier, I ordered this to go 
forward notwithstanding hellacious protests from 
representatives of the northern and southern border communities 
who were concerned that by no longer accepting library cards 
and school cards, we were going to create backups at the 
border. While I understand that is a legitimate concern, and I 
am pleased to say that we haven't really seen backups at the 
border because I think we have managed this well, my response 
to them, as it is to you, is it is a big problem with 
fraudulent documents. While reducing the types of documents 
doesn't eliminate the problem, it makes it easier to get a 
handle on it.
    Mr. Pascrell. It seems to me, just in response to your 
answer, that we are not doing enough, and whether it means 
spending more money or not, to stop the tremendous increase in 
these fraudulent documents. People are coming into this 
country----
    Secretary Chertoff. Oh, yes. There is one more thing we 
could do. I will tell you exactly what it is. It is not a 
problem so much at our airports because we actually, with US-
VISIT and everything else, it is quite difficult to get in with 
a fraudulent document. At our borders, we could finish the 
process of implementing the western hemisphere travel 
initiative, which requires secure documentation. I tried to get 
that done this year. Last year, Congress voted to compel me to 
delay until June 2009.
    If it is delayed further or if it is killed, as some 
Members of Congress want to do, then we will continue to have 
the problem of fraudulent documents.
    Mr. Pascrell. Well, I want to help along those lines.
    Secretary Chertoff. Please do.
    Mr. Pascrell. Mr. Secretary, I think this is critical.
    Now, I have to ask you some very specific questions about 
the budget. When I add up the dollars in looking at the budget 
by line item, and I have done that. Trust me. On the assistance 
to the fire grants, which in New York, New Jersey, and 
Pennsylvania have been cut $83 million. When I look at the 
Byrne justice grants have been cut in those three States by 
over $20 million. Then when you add in the homeland security 
State grants in those three States, they have been cut $136 
million.
    So when you add these numbers together--you don't need to 
add them together--the point I am trying to make is you know 
the point I am trying to make. How can these States continue to 
operate on the basis that what they established as a priority 
with the Federal Government, the Federal Government is not 
doing its part to support those efforts. This is a serious 
situation here. You can't start the programs, remove the 
money--and we are talking about the metropolitan area, we are 
talking about Pennsylvania. High-risk areas, Mr. Secretary? How 
can we justify the cut of such funds?
    Secretary Chertoff. I think that actually is a great 
question, and reflects what in many ways has been a fundamental 
issue that we have talked about when we talked about grants 
during this hearing. One of the arguments that is made 
against--let me re-phrase that. The grants that are disfavored 
by the administration in the budget process tend to be those 
that do exactly what you suggest. They are grants that are 
recurrent grants like hire people and pay them; like the COPS 
program was 10 years ago, where the promise is made we are 
going to give you money to hire police officers and pay their 
salaries for 5 years, and then at the end of that, the money is 
going to disappear.
    That very easily translates into a program of revenue-
sharing, where basically the Federal Government pays personnel 
costs for State and local government. That puts you in exactly 
the bind that we are talking about.
    Mr. Pascrell. But the Federal Government got into the 
business because there was a need, and States could not meet 
that financial responsibility. You can't say that this is a 
Nixon revenue-sharing plan. The very basis and roots of that is 
quite different than what I am talking about and what you are 
talking about with these particular grants.
    The FIRE Act--the FIRE Act, your administration has tried 
to zero-out 3 of the last 4 years. Those FIRE grants were done 
before 9/11. They are based on very basic needs within fire 
departments, as was the COPS program before 9/11. These 
programs exist whether 9/11, the tragedy happens or doesn't 
happen. What you are saying here is that you don't agree that 
they are basic needs, or you are saying that they are basic 
needs, but the community should be able to pay for them on 
their own. What are you saying? Which one are you?
    Secretary Chertoff. I think what the administration's 
position has consistently been--I think you are exactly right--
COPS and Byrne grants and stuff is not about homeland security. 
It is preexisting grants that were created with the idea that 
the Federal Government was going to pick up some percentage of 
law enforcement and fire costs, as basically lending a hand to 
the States and localities.
    Generally, the administration's position has been this: 
when the Federal Government gets in the business of grants, we 
are to be building capability, equipment and training. We 
should not be paying personnel costs and sustainment--that that 
is what should be picked up by State and local communities.
    Mr. Pascrell. Both of those pieces of legislation were 
passed with bipartisan support. Both of those pieces of 
legislation were sustained by bipartisan support despite what 
this administration has attempted to do. I will tell you what 
the result is. You cannot tell me--and you are the expert, I am 
not--but you cannot tell me that police departments, if we 
remove those basic grants and COPS and we don't help many of 
the municipalities with the support of having enough police 
officers on the street before we get to the 
9/11 issues, Mr. Secretary, before we get to those issues, that 
this isn't going to affect not only the basic issues of crime 
or violent crime in their communities, but it is going to 
affect our response to 9/11.
    What is the result? What is the result? What will you have 
accomplished since the need was established scientifically--
scientifically, Mr. Secretary. You are shaking your head. We 
know we have standards in every State. At this time, 25 
States--25 States--are on the brink of deficit spending. Do you 
expect those States to pick up what you are not doing, what I 
am not doing?
    Secretary Chertoff. No, but I think this is a great 
philosophical discussion.
    Mr. Pascrell. No, it isn't a philosophical discussion.
    Secretary Chertoff. Let us take the COPS----
    Mr. Pascrell. This is very practical, Mr. Secretary.
    Secretary Chertoff. The COPS program, I have to say my 
recollection is I would not describe the COPS program as a 
scientifically designed program.
    Mr. Pascrell. I disagree with you.
    Secretary Chertoff. I think it was born out of the program 
that we are going to put 100,000 police officers----
    Mr. Pascrell. No, no, no. The President didn't wake up one 
morning----
    Mr. Perlmutter. The gentleman's time----
    Mr. Pascrell. To wrap up. Can I finish? Thank you.
    The President didn't wake up one morning and say, ``100,000 
is a nice number.'' Well, you know, then you ought to go back 
and look at the history of it. I mean, Mr. Secretary, you have 
to go back and look at the history of the situation of how that 
program came about. We had a similar program in New Jersey, 
only the Governor took the money and spent it on other things. 
You don't want to back into the history.
    Secretary Chertoff. No, I want to----
    Mr. Pascrell. Let us talk about what these needs are. They 
are either real needs or they are artificial needs.
    Secretary Chertoff. So let me--look, I want to agree with 
you that of course these needs are real. I think the theme I 
have made of this entire budget presentation is there are many 
important, deserving needs. Now, Byrne, for example, happens 
not to be my Department. It is the Justice Department. But here 
is the challenge that we face in putting together a budget. We 
have a certain amount of money. We have a pie. The pie has 
grown, but it still has a limit.
    If we were to go and say, you know, we are going to take $3 
billion more and put it in to pay for COPS and everything, 
where is that $3 billion coming out of? Am I not buying new 
cutters for the Coast Guard where the cutters are 40 years old? 
Am I going to----
    Mr. Pascrell. I am not suggesting that.
    Secretary Chertoff. So where is it coming from?
    Mr. Pascrell. Well, now that you asked me the question, can 
I answer the question, respond to the question? I think it is a 
good question. Very good. I think it is an honest one. It is 
called priorities.
    Mr. Perlmutter. Mr. Pascrell, 30 seconds. We are already 
over time.
    Mr. Pascrell. There are four priorities, and I don't want 
you to respond to this, but you can. You carry the water here. 
I understand your role and your responsibility. I do understand 
a few things. But the fact of the matter is that the 
administration has decided that providing multi-million dollar 
tax cuts to people in the 1 percent--this is more than a 
philosophical argument here--is more important than responding 
to the needs of our first, our first responders, because they 
are the first ones there, before the Army, the Navy, the 
Marines--God bless them all.
    This is not good business and not good policy, Mr. 
Secretary. You cannot defend this. You cannot defend it.
    Mr. Perlmutter. The gentleman's time has expired, and I 
understand that the two gentleman would like to enter into this 
discussion another time.
    Secretary Chertoff. It is a great discussion. This will now 
detour is into discussions of tax policy and whether it isn't 
better to keep rates low and increase revenues. But that is 
outside my field of expertise and the committee's jurisdiction.
    Mr. Perlmutter. The gentleman from New Jersey yields back.
    Seeing no other Members of the committee who wish to ask 
questions, we would just like to thank you, Mr. Secretary, for 
being so generous with your time and your testimony. The 
Members of the committee may have additional questions for you, 
and we will ask you to respond to those questions as 
expeditiously as possible.
    Hearing no further business, the committee now stands 
adjourned.
    [Whereupon, at 1:52 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


 Questions From Chairman Bennie G. Thompson of Mississippi for Michael 
          Chertoff, Secretary, Department of Homeland Security

                 minority serving institutions (msi s)
    Question 1. As Chairman of the Committee on Homeland Security, I 
have championed efforts to create a Department of Homeland Security 
that reflects the great diversity of this Nation. The proposed fiscal 
year 2009 budget would cut the funding for Minority Serving 
Institutions (MSI) program by $788,000. Overall, the budget proposes to 
cut funding for University Programs by more than $5 million. Please 
explain how the Department plans to increase such participation without 
adequate funding.
    Answer. The University Programs funding request for fiscal year 
2009 is $43.8 million which is $5.1 million above the fiscal year 2008 
request. The funding for the Minority Serving Institution (MSI) Program 
is $3.9 million in fiscal year 2009 which is an increase of $150,000 to 
the fiscal year 2008 request. With this amount of funding, the program 
remains viable, productive and dynamic. These funds are intended to 
support the following objectives specific to MSIs:
  <bullet> Expand the contribution of MSIs to the homeland security 
        science and technology mission;
  <bullet> Expand professional opportunities for MSI graduates in the 
        homeland security science, technology, engineering and 
        mathematics (HS-STEM) workforce at DHS, State and local 
        agencies, national laboratories and Centers of Excellence 
        (COEs); and
  <bullet> Develop additional internship and career opportunities for 
        MSI graduates at a variety of venues.
    MSI program plans for fiscal year 2009 include:
  <bullet> Continue the homeland security scientific leadership grants 
        program in areas critical to homeland security at MSIs. These 
        programs provide MSIs with funds to support early career 
        faculty to establish or expand education, research and training 
        activities in HS-STEM areas. The program also provides 
        scholarships and graduate fellowships for students of MSIs that 
        will enable them to develop the necessary skills to become 
        professionals in homeland security related fields; and
  <bullet> Conduct a Summer Research Team Program for MSIs that 
        provides a 10-12 week summer research experience for teams of a 
        faculty member and up to two students, to perform research at a 
        COE that aligns with the DHS mission;
  <bullet> Increase the profile and presence of MSIs in the network of 
        COEs.
    Additionally, the Department continues to operate its university-
based system of Centers of Excellence (COEs) and DHS Educational 
Programs (scholars and fellows). Four of the five new COEs have an MSI 
as a co-lead. Their funding will be provided through the COE program, 
which requests $32.2 million in fiscal year 2009.
             small business innovation and research (sbir)
    Question 2. One of my goals in charting the course toward freedom 
from fear is to inspire minds and to promote the development of cutting 
edge technology. Entrepreneurs of all stripes will tell you that small 
business innovation helps the Nation think outside the box. The Science 
& Technology Directorate has requested funding for Small Business 
Innovation and Research (SBIR) projects for many of its divisions.
    Over the upcoming fiscal year, what strides will the Department 
take to ensure that some of this funding is distributed to Small, 
Minority and Disadvantaged businesses?
    Answer. All Federal agencies with an annual extramural research and 
development (R&D) budget exceeding $100 million are required to 
participate in the Small Business Innovation and Research (SBIR) 
Program. Each fiscal year, not less than 2.5 percent of the Science and 
Technology Directorate's annual extramural budget is reserved for 
awards to small businesses for R&D.
    The Department of Homeland Security, Science and Technology 
Directorate SBIR program works with the Department of Homeland 
Security's Office of Small and Disadvantaged Business Utilization to 
facilitate participation in the SBIR program, offering assistance to 
small businesses; veteran-owned small businesses; service-disabled, 
veteran-owned small businesses; Historically Underutilized Business 
Zone HUBZone small businesses; small disadvantaged businesses; and 
women-owned small businesses. The SBIR program also conducts outreach 
initiatives at various conferences run by different State economic 
development organizations for small businesses, including those owned 
by minorities and women. For example, SBIR participated in a conference 
hosted by the Maryland Technology Development Corporation (TEDCO) and 
the Tech Council of Maryland (TCM), which was Maryland's first 
conference targeted to SBIR winners and applicants, seed and angel fund 
recipients, and post-incubation stage companies. More than 200 
entrepreneurs and business advocates from throughout the region 
attended the all-day event called ``Commercializing R&D: Resources for 
Emerging Technology Companies.'' SBIR representatives have also 
attended conferences in Hawaii, Indiana, Mississippi, and North 
Carolina, and Virginia and have plans to attend conferences in 
Illinois, Kentucky, Maine, Florida.
    In addition, the SBIR program tracks participation by minority- and 
women-owned businesses. In fiscal year 2007, the SBIR program received 
420 proposals in response to two solicitations. The program awarded 61 
Phase I awards. Of the 61 awards, five went to minority-owned or 
socially and economically disadvantaged small businesses, 11 went to 
woman-owned small businesses, and 3 went to HUBZone small 
businesses.\1\ This represented 13 percent of Phase I dollars 
(approximately $0.9 million of $7 million).
---------------------------------------------------------------------------
    \1\ One award noted above represented a minority and a woman (i.e. 
double-counted).
---------------------------------------------------------------------------
    Of 15 new fiscal year 2007 Phase II awards, 2 went to minority-
owned or socially and economically disadvantaged small businesses, 2 
went to woman-owned small businesses, and 1 went to a HUBZone small 
business. This represented 17 percent of Phase II dollars ($4 million 
of $17.5 million).
                           inspector general
    Question 3. Mr. Secretary, my top priority for the Department this 
year is improving the functionality, governance, and accountability of 
the Department. In order to ensure sound practices and effective 
accountability at the Department, the Inspector General must have its 
budgetary needs met. I understand that the IG told the Department that 
it needs a total of $119 million, yet the proposed budget seeks only 
$101 million--a cut of $7.6 million from the enacted fiscal year 2008 
level.
    The IG tells us that in addition to its regular workload, its 
docket of Katrina-related work has not lessened, and that it has other 
significant oversight responsibilities from more recent disasters. I'm 
sure you would agree that a developing Department like DHS needs more, 
and certainly not less, oversight.
    How does the Department defend the proposal to slash the Inspector 
General's budget?
    Answer. The fiscal year 2008 enacted level for OIG appropriation is 
$92.8 million. The Disaster Relief Fund (DRF) appropriation for fiscal 
year 2008 includes language that directs the transfer of $16 million to 
the OIG. This provision is not necessary to use the DRF appropriation 
for the disaster-related audits and investigations. If the OIG requires 
additional funding from the DRF in 2009 we will make funds available 
through an MOU.
                  quadrennial homeland security review
    Question 4. Mr. Secretary, I want to ask you about the Quadrennial 
Homeland Security Review that was mandated by the 9/11 bill. By October 
2007, the Department was required to develop a detailed resource plan 
specifying the estimated budget and number of staff. The purpose of 
that mandate was to determine how many U.S. Government employees and 
what additional resources would be required to develop this crucial 
first Quadrennial Review.
    The committee has yet to receive this plan, which is in and of 
itself troubling. But of even more concern is what we found in the 
budget proposed last Monday. On the one hand the Department recognizes 
that ``this is the first QHSR for DHS and will serve as a strategic 
capstone construct for broad Homeland Security policy within the 
Federal Government.'' Yet in the very next sentence it states that the 
Department plans to outsource much if not all of this ``strategic 
capstone'' and that ``contractor support will be necessary to research, 
organize, analyze, facilitate workshops, and draft the document.''
    Mr. Secretary, Congress did not direct the Department to hire a 
contractor to develop broad Homeland Security policy. Rather, Congress 
wanted the men and women who have dedicated their careers to serving 
the public and protecting this Nation to provide this review.
    When does the Department intend to produce the long overdue 
resource plan?
    Answer. Section 2401 of the Implementing Recommendations of the 9/
11 Commission Act of 2007, Pub. L. 110-53 (Act), amends the Homeland 
Security Act of 2002, and directs the Secretary of Homeland Security, 
beginning in fiscal year 2009 and every 4 years thereafter, to 
``conduct a review of the homeland security of the Nation.'' As part of 
this review, the Secretary will comprehensively examine the homeland 
security strategy, make recommendations regarding the long-term 
homeland security strategy and priorities, and provide guidance on the 
programs, assets, capabilities, budget, policies, and authorities of 
the Department of Homeland Security (DHS). The Department recognizes 
the benefits of such a review and looks forward to its first 
comprehensive Quadrennial Homeland Security Review (QHSR).
    Subsection 2401(b)(2) of the Act directs the Secretary to provide 
Congress, and make publicly available on the DHS Web site, a Resource 
Plan for the preparation of the first review. In developing this 
Resource Plan, DHS consulted with numerous representatives within both 
the Department and its partner agencies. DHS requested briefings 
concerning other similar initiatives, including past and current 
examples within the Government and private entities, and convened 
sessions where experts shared their insights. These steps were 
necessary because the DHS mission unlike other comparables is 
inherently interagency, interdisciplinary, and intergovernmental.
    The QHSR Resource Plan presents the proposed implementation phases 
for conducting the review, an estimate of the required resources, and 
the QHSR Work Teams structure and approach. The Department is in the 
final stages of submitting this plan to Congress.
    Question 6. How was the Department's budget request for the review 
developed if a plan has not yet been developed?
    Answer. Both preparation of the QHSR Resource Plan and consultation 
with our Office of Chief Financial Officer produced a sound resource 
scheme that will meet the legislative intent. To fulfill the Act's 
requirements, DHS will designate a core staff for the QHSR within the 
Office of Policy as well as Work Teams to manage and conduct the review 
and analysis. The Work Teams will include employees dedicated full-time 
to the QHSR, detailed and non-detailed personnel from across DHS and 
other Federal departments and agencies, and contract support. 
Collectively the teams will serve as the focal point for intra- and 
interagency review and coordination.

Questions From Hon. Yvette D. Clarke of New York for Michael Chertoff, 
               Secretary, Department of Homeland Security

    Question 1a. The DHS Office of Appeals and Redress has been left 
entirely without mention in the budget. This office exists to allow the 
public an outlet to attempt to clear their names if they feel they have 
been wrongly delayed, detained, or prevented service because of faulty 
screening against various watchlists. The absence of this office in the 
budget does not speak well for how the Department prioritizes civil 
liberties.
    Why was the Office of Appeals and Redress not given its own line-
item in the budget?
    Answer. The budget for the DHS Office of Appeals and Redress is 
included in the budget for the Office of the Special Counselor in TSA.
    The Special Counselor ensures that employees and the traveling 
public are treated fairly and in a lawful manner. The Redress program 
is one of several programs designed to meet this mission. Its inclusion 
in the Office of the Special Counselor allows the Office of Appeals and 
Redress to adjust quickly to programmatic changes or mandates.
    Question 1b. What additional funding is being devoted to the 
Department's efforts to address the existing backlog and other problems 
that have arisen in the year that the program has been in service?
    Answer. In July 2007, DHS Travelers Redress Inquiry Program (TRIP) 
migrated its Information Technology (IT) system to a Transportation 
Security Administration (TSA) data center which addressed the 
outstanding problems highlighted in an internal program review. For 
fiscal year 2008, TSA allocated $770,000 (which includes Pay 
Compensation and Benefits costs) plus four full-time contractors to 
support the DHS TRIP Program Office. In addition, the DHS TRIP Program 
Office has been augmented with 4.5 FTEs who serve as subject matter 
experts from other DHS Components as well as the Department of State. 
It is my expectation that the DHS TRIP Program Office, which is the 
designated Office of Appeals and Redress, will continue to provide 
excellent service to the traveling public.
    Question 1c. I request the budget numbers for the Office of Appeals 
and Redress, including a comparison to fiscal year 2007 and fiscal year 
2008.
    Answer. In fiscal year 2007, Redress expended $1.2 million. In 
fiscal year 2008, the budget for Redress is $770,000. The budget 
includes payroll and operating expenses. In addition to these funds, 
4.5 FTEs from throughout the Department supplement the program staff.
    Question 2a. I applaud the recent decision to grant green cards to 
individuals stuck in the Name Check process, but that is not a solution 
to the greater backlog problem.
    Will your plan to add 1,300 new adjudicators allow USCIS to fully 
catch up on the workload before the end of the year?
    Answer. USCIS will be hiring about 1,800 temporary Federal and 
contract staff, including approximately 1,300 adjudicators (including 
an additional 570 adjudicators over the 720 adjudicators that are being 
hired under USCIS' fee rule). USCIS has also contacted and received 
interest in reemployed annuitant status from more than 200 retirees. As 
this staff is brought on throughout fiscal year 2008 we expect to see a 
reduction in the backlog. Unfortunately, the tremendous surge of 
applications received in the summer of 2007, make it unlikely that the 
new backlog brought on by this surge will be eliminated by the end of 
the year.
    As you know, USCIS has faced a challenge keeping pace with 
unprecedented levels of citizenship applications. During fiscal year 
2007, USCIS received 1.4 million requests for citizenship, which is 
nearly double the 730,000 received in fiscal year 2006. In June, July, 
and August 2007 alone, USCIS received more than 3 million immigration 
benefit applications and petitions of all types, compared to 1.8 
million during the same period the previous year. In fact, for the 
months of June and July 2007, the spike in naturalization applications 
represents a 360 percent increase compared to the same period in 2006. 
We anticipate that it will take 13 to 15 months to work through these 
citizenship cases. The normal processing time is 5 months.
    Question 2b. Will last year's fee increases cover the full cost of 
bringing on these new employees and ending the USCIS backlog, or is 
there likely to be a need for additional appropriations or another fee 
increase?
    Answer. The fee increase covered the cost of bringing on the 720 
new employees. After the surge occurred, USCIS identified additional 
fee revenue, from the increased fee revenue associated with the surge 
in applications--which may total as much as $480 million--to fund the 
additional positions needed to address the current application volume. 
A spend plan detailing the use of $239 million of the $480 million in 
fiscal year 2008 was approved by Congress earlier this month. USCIS has 
enough resources to address surge response needs.
    Question 2c. The backlog problem will never be completely fixed 
until USCIS coordinates with the FBI to address the Name Check problem. 
Does the proposed budget account for the cost of changes that may occur 
within USCIS as DHS and the FBI continue discussions on how to improve 
the system?
    Answer. USCIS is working aggressively with the FBI to address the 
name check backlog through both process improvements and substantially 
increased capacity at the FBI dedicated to USCIS workload.
    Last year, the FBI increased their name check fee. Through both the 
higher fee amount collected by USCIS and special appropriations from 
the Congress, DHS has more than $34.5 million identified and allocated 
to meet the goal of eliminating the FBI name check backlog. USCIS has 
already provided $14 million to the FBI for the FBI to extend the 
existing contractor workforce and expand the number of contractors 
working on USCIS workload. This increase in staff will be dedicated to 
increasing the number of FBI name checks completed for USCIS 
applications. More than 220 contractors are on-board already. That is 
up from a handful of contractors and FBI employees last year. USCIS is 
finalizing a separate $20 million supplemental appropriations spend 
plan to provide Congress that will extend and expand this contractor 
workforce through most of fiscal year 2009.
    Initial results of these efforts are positive. But this is just the 
beginning. We are confident that over the next several months we will 
see dramatic progress in reducing FBI's pending name check request 
backlog. Our joint goal with the FBI will be to completely eliminate 
this backlog by the summer of 2009.
    Question 3. States have had significant financial and logistical 
problems in implementing REAL ID. In the budget proposal, the 
administration has marked about $160 million to assist States in 
implementing this program--which is an improvement over last year--but 
this remains a drop in the bucket compared with the nearly $4 billion 
in estimated costs for States to implement this law. Is this going to 
be just another unfunded mandate? If so, this will leave a terrible 
burden on States and force many of them to use funds that should go to 
providing the public with security. Does DHS expect States to pick up 
the remainder of the tab, and how much do you expect this to be?
    Answer. DHS is making approximately $360 million available to 
assist States with REAL ID implementation between fiscal year 2006-
2008, of which $80 million is dedicated to REAL ID grants, and 20 
percent are discretionary funds as part of the Homeland Security Grant 
Program. In addition to making funds available, DHS has worked with 
States to achieve a 73 percent State-cost reduction from an original 
estimate of $14.6 billion in the NPRM to approximately $3.9 billion by 
providing States greater flexibility in issuing licenses. DHS 
acknowledges there will be additional costs incurred by States to 
implement REAL ID that will vary in each State.
    Moreover, the President's budget request for fiscal year 2009 
includes up to $150 million in grants for States for REAL ID, of which 
$110 million is from the National Security and Terrorism Prevention 
Grant Program for projects that address national risks and 
vulnerabilities identified by the Secretary, and $40 million is from 
the State Homeland Security Grants.
    Additionally, the fiscal year 2009 President's budget request 
proposes $50 million in appropriated funds in further support of 
implementation of the REAL ID Act, specifically to enhance State 
capabilities to verify applicant data with each other and Federal 
agencies. These funds would be used to establish a State-governed hub 
to verify the information provided by applicants for State-issued 
drivers' licenses and identification cards--a key functionality for all 
the States. The verification hub will build upon the work done through 
the grant funds and the efforts States have already undertaken to 
enhance their licenses and issuance systems.
    The issuance of State driver's licenses and identification cards is 
a State function, whose costs will continue to be borne primarily by 
each State. DHS realizes that States will incur significant costs in 
implementing REAL ID, and has sought to reduce the impact of these 
costs in numerous ways. States clearly expressed to DHS the need for 
additional time and flexibility in implementation of the Act. The final 
rule addressed these items with examples such as using the age-based 
enrollment phasing in, which allows States to focus the first phase of 
enrollment on those persons who may present a higher risk of obtaining 
and using fraudulent documentation, while allowing others to be phased 
in later. This approach will reduce the costs to States by billions so 
that States will be able to implement REAL ID, as well as help reduce 
the burden of having to hire additional personnel. Many States have 
already made investments in more secure processes that mirror many of 
the same processes outlined in the final rule.
    The American public's desire for greater identity protection is 
undeniable. For an extra $8 per license, REAL ID will give law 
enforcement and security officials a powerful advantage against 
falsified documents, and it will bring some peace of mind to citizens 
wanting to protect their identity from theft by a criminal or illegal 
aliens.

    Questions From Hon. Lamar Smith of Texas for Michael Chertoff, 
               Secretary, Department of Homeland Security

    Question 1. Nearly 12 years after a bill I authored, ``The Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996,'' required 
the implementation of system to track the entry and exit of every 
person coming to the United States, the exit portion of that system is 
still not in place. How can we protect this country from dangerous 
people if we do not even know who is coming in and who has left?
    What is the plan for creation and completion of the exit portion of 
US-VISIT?
    Answer. After focusing on deploying biometric entry at our ports in 
2004 and testing biometric exit from 2004 to 2007, the Department, 
through the United States Visitor and Immigrant Status Indicator 
Technology (US-VISIT) Program, is preparing to move forward with full 
biometric exit for the air and sea environments.
Biographic Exit
    US-VISIT currently collects and matches biographic information from 
electronic carrier manifests through the Arrival and Departure 
Information System. After analysis, information on alien overstays is 
shared with the Department of State, Customs and Border Protection, and 
Immigration and Customs Enforcement for further action concerning visa 
renewals, future admissibility into the United States, and interior 
enforcement.
Air/Sea Biometric Exit
    DHS performed significant planning and testing over the past 3 
years examining possible solutions for integrating the US-VISIT Program 
biometric exit requirements into the international air departure 
process. For more than 2 years, US-VISIT ran biometric exit pilots at 
14 air and sea locations. These pilots, which concluded in May 2007, 
evaluated the use of both automated kiosks and mobile devices in port 
terminals. While the pilots demonstrated that the underlying technology 
works, they also revealed low compliance by travelers.
    Given the analysis of the pilots, other potential options, and the 
congressional mandate that requires the establishment of a biometric 
exit program, DHS intends to propose a rule to establish a biometric 
exit system at all air and sea ports of departure in the United States 
integrating the system with the current international departure process 
and minimizing the impact on legitimate travelers. The Department will 
publish a proposed rule, seek public comment on the options articulated 
therein, and consider those comments when developing the final rule.
    In developing the deployment schedule, US-VISIT will prioritize the 
implementation of departure controls at airports based on risk. Risk in 
this environment is likely to be a function of the volume and the 
destinations of travelers departing the United States. A critical focus 
of counterterrorism efforts is recording the arrival of travelers from 
countries of interest (COIs). These COIs were determined by the 
National Counterterrorism Center, DHS, Federal Bureau of Investigation, 
and Department of State. More than 91 percent of all COI travelers 
arrive in the United States via air. Knowing the COIs from which 
travelers have overstayed their authorized periods of admission or 
otherwise violated the terms of their admission is essential to 
assessing risk and to enhancing the integrity of our immigration and 
border management system.
    Because the vast majority of Visa Waiver Program (VWP) travelers 
enter and exit through U.S. airports, DHS anticipates that the 
deployment of US-VISIT air exit will cover the vast majority of VWP 
travelers, just as entry procedures do today. Under the VWP, eligible 
travelers may enter the United States for business or pleasure without 
a visa for a period of 90 days or less.
    The long-term exit solution will also be deployed to commercial 
seaports to provide an integrated biometric exit capture for cruise 
line passengers. Seaport deployment will occur concurrently with 
deployment to the air environment.
Exit in the Land Environment
    The implementation of biometric exit procedures at land border 
ports of entry poses many unique challenges. DHS continues to research 
options and cost estimates that will meet its goals without having a 
negative impact on the economy, the environment, or public safety.
    The implementation of biometric exit procedures at land border 
ports of entry will be significantly more complicated and costly than 
at airports and seaports because of space, infrastructure, and 
connectivity challenges.
    DHS has not yet determined a time frame or cost estimates for 
initiation of land exit.
    Question 2. Regarding detention bed space: the 1,000 additional 
beds for which fiscal year 2009 funding is requested, is significantly 
less than the 8,000 additional beds per year that Congress authorized 
for each year between 2006 and 2010 in the ``Intelligence Reform and 
Terrorism Prevention Act of 2004.'' In total, under the Intelligence 
Reform Act, there should be 59,400 detention beds by the end of fiscal 
year 2009 but there will only be 33,000 under the administration's 
current plan. That is a deficit of 26,400 beds.
    Why haven't you requested funding for, at the very least, the 8,000 
beds Congress authorized for fiscal year 2009 in the Intelligence 
Reform Act?
    Answer. As part of the Secure Border Initiative, DHS and ICE have 
implemented a comprehensive strategy for immigration enforcement that 
includes detention space increases and immigration process efficiencies 
that dramatically reduced the average length of stay of those in ICE 
custody. This strategy enabled ICE to effectively end the practice of 
``Catch and Release'' along the Nation's borders. ICE also developed a 
Detention Capacity Planning Model that utilizes actual and projected 
apprehension data to estimate the number of beds ICE will need to 
continue the end of ``Catch and Release'' and support its interior 
enforcement programs. ICE's annual requests for additional bed space 
are based upon this model. ICE continually reviews detention space 
needs to maximize current capacities.
    Question 3. In looking through the fiscal year 2009 budget request, 
I do not see any request for funding for additional work site 
enforcement investigators. In the ``Intelligence Reform and Terrorism 
Prevention Act of 2004'' Congress authorized 800 additional work site 
investigators per year from 2006 to 2010. Why did you not request the 
800 additional investigators to show that the administration is serious 
about work site enforcement?
    Answer. As part of the Secure Border Initiative, DHS and ICE have 
implemented a comprehensive immigration enforcement strategy. We have 
made a commitment to improving the enforcement of our immigration laws 
and additional ICE agents is only one piece in the larger enforcement 
strategy that includes detention beds, Border Patrol agents, and other 
personnel increases and improved technology. While it is true that 
larger personnel increases have been authorized, it is not uncommon for 
appropriated spending levels across the Government to be lower than 
those authorized. This increase in agents would require a significant 
amount of money, and in weighing the ability to fund the authorized 
increases in ICE agents, the administration must determine what level 
of additional security would result from investments in additional ICE 
agents as opposed to investing in other areas of security. The 
administration has made a judgment as to the best possible mix of 
homeland security spending.

   Questions From Hon. Mike Rogers of Alabama for Michael Chertoff, 
               Secretary, Department of Homeland Security

                           DETECTION CANINES

    Question. When you testified before this committee last September, 
you indicated that, subject to appropriations, you would be happy to 
work to increase the domestic supply of dogs. Is the funding requested 
in the fiscal year 2009 budget sufficient to allow for the acquisition 
of more dogs beyond TSA, in these sufficiently deficient areas like 
border crossings?
    Answer. CBP has a current procurement contract that has sufficient 
funds to purchase canines from the list of vendors that will meet the 
need for training in fiscal year 2009.

                                 <all>

</pre></body></html>
